Office of Inspector General
Semiannual Report to Congress
April 1 — September 30, 2010
MISSION STATEMENT
The mission of the U.S. Postal Service Office of Inspector General (OIG) is to conduct and
supervise objective and independent audits, reviews, and investigations relating to Postal
Service programs and operations to:
 Prevent   and detect fraud, theft, and misconduct.
 Promote   economy, efficiency, and effectiveness.
 Promote   program integrity.
 Keep the Governors, Congress, and Postal Service management informed of problems,
  deficiencies, and corresponding corrective actions.
A MESSAGE FROM THE INSPECTOR GENERAL



This report, submitted pursuant to the Inspector General Act, outlines our work and activities for the 6-month period
ending September 30, 2010. In the first section of this issue, we highlight audits and reviews that address risks in
the strategic, financial, and operational areas of the U.S. Postal Service. The second section highlights investigations
conducted during this reporting period that contributed to safeguarding the Postal Service’s revenue and assets and
helped deter postal crimes.

Postal Service executives often work closely with their OIG counterparts to identify problems and collaborate on
solutions. These efforts have resulted in significant savings opportunities. During this period, we issued
165 audit reports and management advisories, and the Postal Service accepted 94 percent (141 of 149) of the
OIG’s significant recommendations.

In addition, we conducted 1,991 investigations that led to 453 arrests and more than $672 million in fines,
restitutions, and recoveries, of which more than $27 million went to the Postal Service.

The Postal Service has reached a critical point in its history. It faces tremendous challenges to remain financially
sound and meet its mission.

While the Postal Service is finding its role in the digital age, there are near-term actions needed for sustainability
and to increase its readiness to enter a period of change. These include optimizing the network of plants and Post
Offices; assessing the cost-effectiveness of contracts; improving internal controls in financial systems, resolving the
benefit program inequities; offering new postal product and services

In September, we issued a report that summarizes the results of four OIG reports identifying overfunding issues in
employees’ and retirees’ benefit funds. If our proposals to recover the overfunded amounts were placed in effect, the
Postal Service could potentially recover $142.4 billion. In addition, the Postal Service would no longer need to make
the required payments to the Postal Service Retiree Health Benefits Fund (retiree health fund) — an average of
$5.6 billion per year.

The Postal Service can use these reports to come up with a legislative strategy when working with Congress, the
Office of Personnel Management (OPM), and the Office of Management and Budget (OMB) to develop a fiscally
responsible legislative proposal granting relief from the Postal Accountability and Enhancement Act (Postal Act of
2006) requirements to prefund retiree health benefits.

The OIG — with the support of the Governors, Congress, and Postal Service management — will continue to play
a key role in helping to maintain the integrity and accountability of America’s postal service, its revenue and assets,
and its employees through its audit and investigative body of work.




                                                                                       David C. Williams
                                                                                       Inspector General
SUMMARY OF PERFORMANCE
April 1 — September 30, 2010
AUDITS
Reports issued                                                                                                         165
Significant recommendations issued                                                                                     149
Total reports with financial impact                                                                                      43
     Funds put to better use                                                                               $11,502,017,298
     Questioned costs1                                                                                     $57,179,926,121
     Revenue Impact                                                                                         $1,956,617,687
TOTAL FINANCIAL IMPACT             2
                                                                                                         $ 70,638,561,106


INVESTIGATIONS3
Investigations completed                                                                                              1,991
Arrests                                                                                                                453
Indictments/informations                                                                                               466
Convictions/pretrial diversions4                                                                                       507
Administrative actions                                                                                               1,096
Cost avoidance                                                                                                $126,185,995
Fines, restitutions, and recoveries5                                                                         $ 672,064,407
     Amount to Postal Service                                                                                  $27,117,893


OIG HOTLINE CONTACTS
Telephone calls                                                                                                    45,332
E-mail                                                                                                             13,524
Virtual Front Office calls                                                                                          9,156
Standard Mail                                                                                                       1,071
Voice mail messages                                                                                                   513
Facsimile – FAX                                                                                                       385
National Law Enforcement Communications Center                                                                        282
TOTAL CONTACTS                                                                                                    70,263



1
    Includes unsupported costs of $5,919,236,174.
2
    The Postal Service agreed to recommendations or proposed alternative corrective actions that, if implemented, could result in more than
      $70 billion in savings.
3
    Statistics include joint investigations with other law enforcement agencies.
4
    Convictions reported in this time frame may be related to arrests made in prior reporting periods.
5
    Amount under fines, restitution, and recoveries.
TABLE OF CONTENTS
OFFICE OF AUDIT............................................................................................................... 2
Audit Work by Risk Category.......................................................................................................................................... 3
Strategic Risk............................................................................................................................................................... 3
Financial Risk............................................................................................................................................................... 8
Operational Risk.......................................................................................................................................................... 11

OFFICE OF INVESTIGATIONS............................................................................................ 18
Financial Crimes......................................................................................................................................................... 19
Workers’ Compensation Fraud..................................................................................................................................... 21
Delay, Destruction, and Theft of Mail by Employees....................................................................................................... 22
Contract Fraud............................................................................................................................................................ 23
Official Misconduct..................................................................................................................................................... 24
Executive Investigations and Internal Affairs.................................................................................................................. 25

SPECIAL FEATURES........................................................................................................... 3
Pension / Retirement / Health Benefits / CSRS Overpayment........................................................................................... 3
Financial Implications of Declining Mail Volumes............................................................................................................. 9
An Assessment of Worksharing.................................................................................................................................... 13
A Framework to Optimize the Retail Network................................................................................................................ 15
Data Mining Successes............................................................................................................................................... 17
Financial Fraud Awareness Posters Distributed to All Postal Facilities............................................................................. 20

APPENDICES................................................................................................................... 26
APPENDIX A — Reports Issued to Postal Service Management...................................................................................... 27
	            Reports with Quantifiable Potential Monetary Benefits .......................................................................... 28
             Report Listing..................................................................................................................................... 31
APPENDIX B — Findings of Questioned Costs.............................................................................................................. 34
APPENDIX C — Recommendations That Funds Be Put to Better Use.............................................................................. 35
APPENDIX D — Reported Non-monetary Benefits......................................................................................................... 36
APPENDIX E — Reports with Significant Recommendations Pending Corrective Actions.................................................. 38
APPENDIX F — Significant Management Decisions in Audit Resolution.......................................................................... 54
APPENDIX G — Status of Peer Review Recommendations............................................................................................ 55
APPENDIX H — Investigative Statistics......................................................................................................................... 56
APPENDIX I — Summary of U.S. Postal Inspection Service Investigative Activities Under Title 39 USC 3005 & 3007........ 57
APPENDIX J — Closed Congressional and Board of Governors’ Inquiries........................................................................ 58

SUPPLEMENTAL INFORMATION....................................................................................... 65
Freedom of Information Act.......................................................................................................................................... 65
Workplace Environment............................................................................................................................................... 65
Acronym Guide........................................................................................................................................................... 66
OFFICE OF AUDIT
                                                                                                                                               STRATEGIC RISK




AUDIT WORK BY RISK CATEGORY                                                                                                       MANAGEMENT
The Office of Audit (OA) uses a risk-based planning approach to identify audit work that will provide the best                    RESPONSE TO AUDIT
value to the Postal Service. This process identifies key areas to focus on, and then assigns work via risk                        WORK
deployment. For this reporting period, we highlight audits and reviews that address risks in the strategic,                       OA adheres to professional
financial, and operational areas.                                                                                                 audit standards and
                                                                                                                                  generally presents its
                                                                                                                                  audit work to management
                                                                                                                                  for comments prior to
STRATEGIC RISK                                                   Postal Service’s ability to appropriately cover costs within     issuing a final report.
                                                                 certain mail classes and provide sufficient profit margins to    Unless otherwise noted in
The Strategic Risk category covers issues that impact the                                                                         the selected audit work
                                                                 cover institutional costs. While the act provided additional
Postal Service’s overarching strategic direction. Strategic                                                                       discussed in this report,
risk factors are those affecting the Postal Service’s ability    flexibility in managing product lines, some of its objectives,
                                                                                                                                  management has agreed
to be effective and efficient, and ensure that its products      factors, and requirements are contradictory and present a
                                                                                                                                  or partially agreed with our
and services are self-sustaining and balance legal               compliance challenge for the Postal Service. One mandate
                                                                                                                                  recommendations and is
considerations and stakeholder views. The following audit        requires each class of mail to cover its cost, while another     taking or has already taken
work addresses strategic risk issues.                            mandate limits rate increases to the change in inflation,        corrective action to address
                                                                 which was negative in FY 2009. In the current environment,       the issues raised.
Postal Accountability and Enhancement Act                        the price cap is particularly daunting when there is no
Price Cap Impacts                                                inflation and mail volume is declining. Specifically, seven
                                                                 domestic market-dominant products and services did not
The Postal Accountability and Enhancement Act (Postal            cover their costs or contribute to covering institutional
Act of 2006) expedited the rate-making process and               costs in FY 2009. Revenue loss resulting from these seven
introduced price predictability; however, the act impacts the    products could total about $1.5 billion in FY 2010. Even if


 Pension / Retirement / Health Benefits / CSRS Overpayment
 The Postal Service is currently facing severe fiscal challenges. Congress recognizes these challenges and the issues
 associated with prefunding certain liabilities and urged the Postal Service to coordinate with the U.S. Office of Personnel
 Management (OPM) and the Office of Management and Budget (OMB) to develop a fiscally responsible legislative
 proposal granting a limited measure of relief from the Postal Act of 2006.

 The OIG issued reports identifying overfunding in the pension and retiree health care funds that the Postal Service can
 use when working with OPM and OMB. If proposals to recover the overfunded amounts were placed in effect, the Postal
 Service could potentially recover $142.4 billion. In addition, the Postal Service would no longer be required to prefund
 the Postal Service Retiree Health Benefits Fund (retiree health fund) at an average of $5.6 billion per year. Also, the
 Postal Service could prefund pensions and retirees’ health benefits at benchmarked levels, pay existing retirees’ health
 insurance premiums from the retiree health fund, and extinguish its debt to the U.S. Department of the Treasury. Further,
 the proposals could provide significant levels of cash for operations and allow the Postal Service to continue optimizing
 its infrastructure at a more reasonable pace and minimize the impact on current employees. These proposals include the
 following:
  Recover the $75 billion overfunding to the Civil Service Retirement System (CSRS) and use the funds to extinguish the
    Postal Service’s $10 billion debt to the treasury and finance retiree health care.
  Reduce prefunding levels to benchmarked standards of 80 percent for pensions and 30 percent for retiree health
    care.
  Recover overfunding of Federal Employees Retirement System (FERS) pension contributions of $5.5 billion.
  Reduce the projected health care inflation rate to the industry standard of 5 percent.

 Addressing these issues would significantly improve the Postal Service’s financial condition, and allow it to continue its
 transformation envisioned by the Postal Act of 2006.




                                                                                                                                     April 1 — September 30, 2010 | 3
STRATEGIC RISK




                                    management had used all its available banked-rate authority                  We suggested 10 strategic opportunities for the Postal
                                    in FY 2009, the Postal Service could have captured only                      Service to generate additional revenue from new postal
                                    about $1.75 million of the $1.5 billion revenue shortfall.                   and nonpostal products and services. The Postal Service
                                                                                                                 should further evaluate these opportunities to diversify
                                    Allowing the Postal Service to apply the price cap to a                      by expanding its product and service offerings to ensure
                                    larger base, such as the market-dominant level instead                       its financial viability. While several of the recommended
                                    of each mail class, would give additional flexibility for                    changes may require legislative changes, implementing
                                    the Postal Service to cover the cost of its products and                     these suggestions could result in $9.7 billion in additional
                                    services. If the increase in inflation in FY 2008 was                        revenue for the Postal Service annually, while providing
                                    applied to the market-dominant category as a whole for                       improved service to its customers.
                                    the FY 2009 price increase, the Postal Service could have
                                    generated additional revenue of about $424 million.                          Stations and Branches Optimization
                                    Management took corrective action to convey a legislative                    To assess the Stations and Branches Optimization
                                    change request to the oversight committees to change the                     Consolidation (SBOC) Initiative to consolidate retail facilities,
                                    application of the price cap from individual mail classes                    we reviewed some of the 3,600 stations and branches
                                    to the market-dominant basket as a whole. However,                           under the administration of main Post Offices. The Postal
                                    management disagreed with the recommendation to                              Service uses one closure process for Post Offices and
                                    provide a detailed transparent plan with established                         another for stations and branches. Both federal law and
                                    milestones for each product to cover costs, stating that                     Postal Service policies set forth regulations and procedures
                                    such a plan would pre-suppose the actions of the Board of                    to close a Post Office. In contrast, the Postal Service uses
                                    Governors which has a statutory duty to balance all relevant                 an expedited process to close stations and branches, which
                                    considerations in establishing prices.                                       are not specifically covered by statute.

                                    Revenue Generation                                                           Auditors concluded the SBOC Initiative is a viable option
                                                                                                                 for the Postal Service to reduce costs in the retail
                                    The Postal Service has the opportunity to generate                           network, but opportunities exist to improve the process.
                                    additional revenue by offering new postal and non-postal                     Specifically, the Postal Service could improve SBOC
                                    products and services. The combination of transactions                       Initiative communication and coordination with stakeholders
                                    moving to the Internet and the recent recession has led to                   to develop accurate and reliable facility data. In addition,
                                    an unprecedented decline in mail volume and a resulting                      the Postal Service needs to raise stakeholders’ confidence
                                    decline in revenue for the Postal Service. Additionally,                     that it will make decisions in a transparent, equitable, and
                                    the Postal Act of 2006 prohibits the Postal Service from                     fact-based manner by integrating a strategic approach and
                                    offering nonpostal products and services.                                    establishing clear criteria for evaluating closure decisions.

                                     Revenue Generation Opportunities
                                          Products/Services That Can Be Offered Under Current Legislation
                                    1     Unaddressed mail service.
                                    2     Post Office box customer information.
                                    3     Selling advertising space in Postal Service outlets and on delivery vehicles.
                                    4     Enhanced online ordering and package delivery.


                                          Products/Services That May Require Legislation Change
                                    5     Digital identity; secure e-mail service.
                                    6     Comprehensive micro-logistics service provider.
                                    7     Entertainment: DVD/video games fulfillment.
                                    8     In-person service center for community and government services.
                                    9     Bill payment at Postal Service outlets.
                                    10    Banking services.

                                    Based on feedback from industry representatives and international posts, we identified 10 potential revenue generating opportunities that
                                    could result in significant revenue impact in the long term. Note: While some initiatives may not be feasible in the short term due to the
                                    Postal Service’s current financial situation, they could represent significant revenue potential in the long term.




4 | Semiannual Report to Congress
                                                                                                                                                                                                                                                                                                                                                        STRATEGIC RISK




                                               Seattle                                                                                                       Great Lakes Area
                                                                              Big Sky
                Alaska                                                                                                                                                                                                                                                                                 Caribbean

                                         Portland                                                     Dakotas            Northland



                                                                                                                                                                                                                                                                                  Northeast Area
                                                                                                                                                                                                                                                     Northern
                                                                                                                                                                                                                                                     Northern   New
                                                                                                                                                                                                                                                              New     England
                                                                                                                                                                                                                                                                  England

                                                                                                                                                              Lakeland
                                                                                                                                                                                    Greater
                                                                                                                                                                                    Greater
                                                                                                                             Hawkeye                                                Michigan
                                                             Salt Lake City                                                                                                                              Southeast                      Albany
                                                                                                                                                                                                                                        Albany
                                           Nevada -Sierra
                                           Nevada-Sierra                       Colorado/Wyoming
                                                                                                                                                                                                         Michigan                                                    Greater Boston

        Western Area                                                                                  Central Plains
                                                                                                                                                          Northern Illinois      Chicago         Detroit                                               Connecticut
                                                                                                                                                                                                                                                       Connecticut
                                                                                                                                                                                                                                                          Valley
                                                                                                                                                                                                                                            WestchesterValley
                                                                                                                                                                                                                                                                        SE New England
                                                                                                                                                                                                                                                                                                                               Baltimore
                                                                                                                                                                                                                                                                                                                               Baltimore


                                                                                                                                                                                                                                                                                                                       Northern Virginia
                                                                                                                                                                                                                                                                                                                                   Capital

                                                                                                                                                                                                                                                                                          Capital
                                                                                                                                                                                                                                            Westchester                                                                            Capital



                                                                                                                              Mid-America
                                                                                                                              Mid-America                                                                                                                      Long Island
                                                                                                                                                              Central Illinois
                                                                                                                                                                      Illinois                                                 Northern New Jersey

                                                                                                                                                                                                                                                                                          Metro
                                                                                                                                                                                   Greater
                                                                                                                                                                                   Greater                                                                                                                                      Richmond
                                                                                                                                                                                                                                                                                                                                 Richmond

                                                                                                                                                                                   Indiana                                                                 New York
                                                                                                                                                                                                                           Western
                                                                                                                                                                                                                           Western                   Triboro

                                                                                                                                                                                                                                                                                          Area
                                                            Arizona                                                                                                                                                        New York
                                                                                                                                                                                                                           New York

                                                                                                                                                           Gateway
                                                                                                                                                           Gateway                                                                                                                                                         Greensboro
                                                                                                                                                                                                                                                                                                                           Greensboro
                                                                                                                                                                                                                                    Central
                                                                                                                                                                                                                                    Pennsylvania Philadelphia Metro
                                                                                                                                                                                                                                    Central
                                                                                                                                                                                                                                    Pennsylvania
                                                                                                                                                                                                              Northern Western
                                                                                                                                                                                                              Northern
                                                                                                                                                                                                              Ohio     Western                                                                                                Mid-Carolinas
                                                                                                                                                                                                                                                                                                                             Mid-Carolinas
                                                                                                                                                                                                                                                                                                                                  -
                                                                                                                                                                                                              Ohio
                                                                                                                                                                                                                       Pennsylvania
                                                                                                                                                                                                                       Pennsylvania              South
                                                                                                                                                                                                                                                 South
                                                                                                                                                                                                                                                 Jersey
                                                                                                                                                                                                                                                 Jersey

                                                                                                                                                                                                                                                                                                             Greater     So Carolina
                                                                                                                                                                                                                                                                                                             Greater So Carolina
                                                                                                                                                                                                          Columbus
                                                                                                                                                                                                           Columbus

                                                                                                                               Oklahoma                                                        Cincinnati
                                                                                                                                                                                               Cincinnati
                                                                                                                               Oklahoma
                                                    Sacramento                          Albuquerque
                                                                                        Albuquerque                                                   Arkansas
                                                                                                                                                      Arkansas
                         San Francisco                                                                                                                                                                           Appalachian
                                                                                                                                                                                                                 Appalachian                                            Tennessee
                                                                                                                                                                                                                                                                        Tennessee




    Pacific Area
                                                                                                                Fort Worth
                                                                                                                Fort Worth                                                                 Kentuckiana
                                                                                                                                                                                           Kentuckiana

                                                                                                                                                                                                                                                                                       Atlanta
                                                                                                                                                                                                                                                                                       Atlanta

                                                                                                                                          Dallas
                                                                                                                                          Dallas
                                                                                                                                                                                                                                                                             Alabama

                                                                                                                                                                                             Eastern Area
                                                                                                                                                                                                                                                                             Alabama
                                                                                                                                                                                                                                                          Mississippi
                                                                                                                                                                                                                                                          Mississippi
                             Bay-Valley                                                                                                                                                                                                                                                  SouthGeorgia
                                                                                                                                                                                                                                                                                         South Georgia
                                                                                                                                                      Louisiana
                                                                                                                                                      Louisiana


                                               SierraCoastal
                                               Sierra Coastal                                                          Rio Grande
                                                                                                                       Rio Grande           Houston
                                                                                                                                            Houston                                                                                                                                    NorthFlorida
                                                                                                                                                                                                                                                                                       North Florida
     Honolulu


                                                                 SanDiego
                                                                     Diego                                                                                                                                                                    Southeast Area                                           Suncoast
                                                                                                                                                                                                                                                                                                       Suncoast


                                                                                                                                            Southwest Area
                                                                 San
                                  Los Angeles

                                                Santa Ana                                                                                                                                                                                                                                                  South Florida




The Postal Service currently has eight area and 74 district offices as depicted on this current Postal Service map.


Processing & Distribution Center                                                                                                                                  process the increase in mail volume from the Dallas P&DC,
Consolidations                                                                                                                                                    and substantial savings could be gained. Management
                                                                                                                                                                  agreed with our recommendations and is taking steps to
Following are summaries of audits on area mail processing                                                                                                         consolidate the Dallas P&DC outgoing mail operations into
consolidations requested by congressional representatives                                                                                                         the North Texas P&DC by FY 2011.
whose concerns included possible transfer or loss of jobs,
continued effectiveness of mail operations, continued                                                                                                             Area and District Field Structure
quality of service, justifiable cost savings and adequate
efficiency methods in place, and public transparency. The                                                                                                         The Postal Service has significant opportunities to reduce
representatives asked the OA to determine whether the                                                                                                             costs by consolidating its field structure. Management
Postal Service had a valid business case for consolidating                                                                                                        should develop a comprehensive plan to guide future field
mail processing operations at the following locations.                                                                                                            structure decisions and explore the viability of relocating
                                                                                                                                                                  area offices to headquarters. At a minimum, this plan would
Lima, OH, Processing & Distribution Facility. We                                                                                                                  provide a method to evaluate and define an economic,
determined that a business case exists to support                                                                                                                 efficient, and effective field structure to oversee the Postal
consolidating the Lima, OH, Processing and Distribution                                                                                                           Service’s universal service mission.
Facility’s (P&DF’s) mail operations into the Toledo P&DC
mail operations. Specifically, we found that sufficient                                                                                                           Although the Postal Service recently consolidated one
capacity exists at the Toledo P&DC to process the Lima                                                                                                            area and six district offices, we identified the following
P&DF’s mail volume. In addition, customer service was                                                                                                             three other options, done separately or in combination, to
expected to be maintained, no employees would lose                                                                                                                consolidate its field structure further:
their jobs, and mail processing efficiency was expected                                                                                                            Eliminate 14 offices by consolidating districts that have
to improve. Furthermore, prior consolidation of the Lima                                                                                                               offices within 50 miles of another district office.
P&DF’s Saturday outgoing mail volumes into the Toledo
P&DC’s outgoing mail volumes over the past 6 years                                                                                                                 Eliminate four area and 32 district offices by
has produced favorable results. We determined that                                                                                                                     consolidating those offices whose workhours and mail
management needs to better communicate the effects of                                                                                                                  volume are both below the mean mail volume and
and reasons for the proposed consolidation, and address                                                                                                                workhours.
physical security concerns at the Toledo P&DC.                                                                                                                     Eliminate duplicative staff positions and better
                                                                                                                                                                       position area management to work strategically
Dallas P&DC Outgoing Mail Consolidation. We found                                                                                                                      with headquarters by relocating all area offices to
that adequate capacity existed at the North Texas P&DC to                                                                                                              headquarters.




                                                                                                                                                                                                                                                                                                                                              April 1 — September 30, 2010 | 5
STRATEGIC RISK




                                          We could not fully evaluate the effectiveness of the recent    developing multi-functional employees could decrease the
                                          area and district consolidations because consolidations        Postal Service labor costs.
                                          were limited and management did not have documentation
                                          of the data used to make the decisions. However, the           Delivery Barcode Sorters Equipment
                                          headquarters, area, and district management staff we           Utilization
                                          interviewed believed that the consolidations went smoothly
                                          and did not negatively impact operations.                      Delivery Barcode Sorter (DBCS) standard operating
                                                                                                         procedures recommend using mail volume levels when
                                          Benchmarking with Presort Bureaus                              determining staffing and the number of machines to
                                                                                                         operate. The procedures outlined in these standards are
                                          We benchmarked letter and flat-mail processing at the          key to reducing excess capacities or overproduction,
                                          Postal Service with some presort bureaus. As background,       increasing productivity, and controlling costs. However, we
                                          a presort mailer sorts its own mail in ZIP Code order before   found that in the Capital Metro Area, plants routinely staff
                                          presenting the mail to the Postal Service. A presort bureau    and operate DBCS machines unnecessarily using traditional
                                          presorts and commingles mail for other companies. Some         approaches. DBCS excess capacities exist because plants
                                          larger presort bureaus have equipment similar to the           in the Capital Metro Area do not adhere to work distribution
                                          Postal Service’s and provide an opportunity to identify best   standards. We determined that the Capital Metro Area could
                                          practices in mail processing operations.                       have deactivated 55 of its 72 DBCS machines during FYs
                                                                                                         2008 and 2009, respectively, and still have met service
                                                                    We determined that presort           requirements. Deactivating excess DBCS machines would
                                                                    bureaus are better able to handle    have saved the Capital Metro Area several million dollars
                                                                    fluctuations in mail volume and      annually.
                                                                    economic changes because they
                                                                    used a standardized process          Facility Optimization
                                                                    when notifying employees of
                                                                    network changes, such as plant       We audited the New York, Northern New Jersey, and
                                                                    closures. Additionally, presort      Chicago districts to assess whether the Postal Service has
                                                                    bureaus are not subject to binding   additional facility optimization opportunities for the Postal
                                                                    union contracts. We observed         Service. We found that in these districts, the Postal Service
                                                                    the consistent use of automated      has 5.1 million square feet in excess of what the current
                                                                    and mechanized tray takeaway         workload suggests is needed.
                                                                    systems at presort facilities and
                                                                    little dependence on the manual      The Postal Service has the option to optimize excess real
                                                                    movement of trays; while at          property through selling property, leasing owned property,
                                                                    postal facilities, we observed       subleasing property, or investing in real estate projects.
                                                                    employees moving trays manually      While the Postal Service made progress in optimizing its
                                                                    between processing operations,       existing space, it can do more to dispose of excess interior
                                                                    sometimes bypassing automated        space in a timelier manner. While management agreed
                                                                    or mechanized alternatives.          to update its disposal process and implement metrics to
                                                                                                         better manage excess space; management did not agree
                                                                    Presort managers at presort          with the amount of excess space or the potential monetary
                                                                    bureaus, base workforce              impact reported.
                                                                    schedules on mail volume,
                                                                    have employees cross crafts          We also conducted an audit of the Postal Service process
                                                                    between processing and mail          for selling real estate assets. We found that the Postal
                                                                    handling, and generally pay          Service did not optimize its revenue on real estate sales
                                                                    their employees lower wages          because internal controls over real estate disposals needed
                                                                    than the Postal Service pays its     strengthening. We determined that the Postal Service
                                                                    employees. Conversely, Postal        needed to update procedures to include a net present value
Highlighting excess space in the New York District, these photos    Service employees work full-time     (NPV) or cost benefit comparison of alternatives prior to the
depict two facilities with excess interior space. The Morgan        schedules independent of volume      sale of real estate assets. Further, enhancing procedures
P&DC, top photo, is a Postal Service-owned plant with three         availability and do not cross        that govern optimization by designating scenarios and
vacant floors. The Radio City Station, bottom photo, is another     crafts. Increasing workforce         exceptions that may apply in the sale of properties
owned facility, which houses delivery and retail operations with    scheduling flexibilities and         was needed. Management agreed to enhance facility
one vacant floor. Both are located near other Postal Service                                             optimization tools to include net present value comparisons
facilities also maintaining excess space.




6 | Semiannual Report to Congress
                                                                                                                                                      STRATEGIC RISK




of optimization alternatives. In addition, management           These changes make it challenging for the Postal Service to
recently revised the charter for the Realty Asset Executive     measure project success.
Committee to clarify its purpose and strengthen its scope.
                                                                We recommended that the Postal Service use actual
Delivery Vehicle Replacement Strategy                           machine performance and operational target data to
                                                                more accurately report the progress of the FSS program’s
The majority of the Postal Service’s long-life vehicles         financial outcomes in compliance reports such as the
(LLV) delivery fleet is nearing the end of its 24-year life     Investment Highlights report. Management agreed with
expectancy. Due to limited capital resources, the Postal        the recommendation to use actual machine performance
Service has delayed its planned purchase of delivery            data for compliance reports, but took exception to certain
vehicles until FY 2018; however, the Postal Service is          findings and our recommendation to use operational target
expected to continue to face the same capital challenges at     data. Management included financial outcomes based on
that time.                                                      actual performance in the Quarter III investment highlights
                                                                report.
We assessed whether the Postal Service has a viable and
effective vehicle replacement strategy and found that the       Operational Issues. We assessed the effects of the FSS on
Postal Service has successfully maintained its LLV delivery     delivery operations in the Columbus, OH, and Mid-America
vehicle fleet in safe working condition for more than 20        Districts. We found five Columbus and six Mid-America
years. They attribute this success to a robust preventive       District delivery units improved delivery operations during
maintenance program, as well as a “fix as fails” strategy       the FSS full production implementation. Columbus units cut
that we found to be operationally viable and generally cost     operating costs by more than
effective.                                                      $500,000 and Mid-America
                                                                units cut operating costs by
However, analysis of delivery vehicle costs shows that          more than $600,000. Both
this strategy would not be cost effective for fleet vehicles    districts reduced city carrier
the Postal Service will have to replace soon. These             office hours, manual distribution
vehicles consist of 19,257 LLVs, with an average annual         clerk workhours, and city carrier
maintenance cost in excess of $5,600 for FYs 2008 and           routes.
2009. Incurring maintenance costs at this rate, the “fix as
fails” strategy costs $342 million more than it would cost to   Although the FSS improved
purchase new vehicles. We recommended that the Postal           delivery operations, the
Service replace maintenance-intensive vehicles beginning        delivery units in each district
in FY 2011, reemphasize service life and maintenance            received more than 8.5 million
reinvestment guidelines to vehicle maintenance and district     flat mailpieces that were not
managers, and monitor maintenance-intensive delivery            processed on the FSS because
vehicles at the area level.                                     the mailpieces did not meet flat
                                                                mail automation requirements.        Postal Service vehicles are being completely reassembled to include
Flats Sequencing System                                         Also, each district received about   frame, engine, transmission, and body shell. Available data shows
                                                                2 million mailpieces that were       613 vehicle frames were replaced in FY 2008 and 2,250 frames in
We conducted the following audits related to Flats              not carrier routed and required      FY 2009.
Sequencing System (FSS) machines that sort flat mail            manual sorting and casing to put
(oversized letters, magazines, advertisements, and so forth)    them in delivery walk sequence.
in delivery order.                                              As a result, the Postal Service       Total Vehicles and Maintenance Costs
                                                                missed the opportunity to further       2009 Percent of Total Vehicles    2009 Percent of Maintenance Cost
Program Status and Projected Cash Flow. On two                  reduce workhour costs.
previous occasions, the FSS failed to meet contract
performance requirements. The Postal Service continued          Postal Service Patent
to work with the supplier to improve system performance                                                    26%
and reliability at the Dulles, VA, Processing Center. The
                                                                Management
audit found that the Postal Service’s revised performance       Intellectual property is an                                                     51%                     49%
projections do not use current actual machine performance       intangible property created by                                74%
and the projected gain of at least $872 million from the        individuals or organizations
FSS appears optimistic. In addition, significant changes in     that can be owned, transferred,
assumptions for FSS machines and measurement criteria           leased through licensing
have been made since the original investment approval.          agreements, divided or
                                                                                                                   Under $3,500
                                                                                                                   $3,500 and over
                                                                                                                                                      Under $3,500
                                                                                                                                                      $3,500 and over




                                                                                                                                           April 1 — September 30, 2010 | 7
FINANCIAL RISK




  eIDEAS Submissions and Awards Given                                                                 FINANCIAL RISK
                                                                                                      The Financial Risk category includes issues that have a
                                                                                                      clear financial impact, particularly those related to cost
                                                                                                      control and revenue generation. The greatest opportunities
                                                                                                      to reduce financial risks are in the areas of maximizing
                                                                                                      the cost-effectiveness of contracts, and improving internal
                                                                                                      controls in financial systems, processes, and benefit
                                                                                                      programs.

                                                                                                      The Postal Service faces a critical financial risk as it, like
                                                                                                      other companies, deals with the economic slowdown
                                                                                                      affecting the nation. While the Postal Service made
                                                                                                      progress in reducing costs, the possibility of further
                                                                                                      declines in volume mean that it is still confronted by a
                                                                                                      major challenge to find ways to cut costs and increase
                                                                                                      revenues

                                                                                                      Contracting Issues
Since FY 2004, the number of eIDEAS submissions has increased and the number of awards has            During this reporting period, we assessed Postal Service
decreased, along with the corresponding payouts.                                                      controls over contract payment terms, noncompetitive
                                                                                                      contracts, and Electronic Data Interchange (EDI) contract
                                       improved. A patent is a protection of intellectual property.   payments. We found opportunities for improvement in
                                       Properly managed, patents can be used to negotiate             controls in all areas.
                                       contracts and business deals, resolve disputes, enhance
                                       market share, and produce revenue. The Postal Service’s        Contract Payment Terms. We assessed whether the
                                       general counsel identifies and protects its intellectual       Postal Service receives consideration when contract
                                       property. To assess the commercial significance of Postal      payment terms are less than net 30 days to compensate
                                       Service patents, we contracted with an intellectual property   for the opportunity cost associated with early payment. The
                                       management company to perform an initial evaluation of         Postal Service did not receive early payment consideration
                                       three of the 97 U.S. patents identified as active and owned    for 10 of 14 contracts reviewed. The 10 contracts totaled
                                       by the Postal Service. For the selected patents, we found      nearly $9 billion; consequently, the Postal Service incurred
                                       the opportunity to leverage patents to generate significant    an opportunity cost of $19.3 million. Management agreed
                                       new revenue.                                                   with the recommendation to revise the Postal Service’s
                                                                                                      guidance to include the business rationale and associated
                                       eIDEAS Timeliness and Transparency                             documentation in the contract file when less than 30-day
                                                                                                      payment terms are negotiated. However, management
                                       The eIDEAS program is a web-based application that allows      disagreed with the finding and monetary impact, stating
                                       Postal Service employees to submit ideas online or at one      that the Postal Service received value in other ways during
                                       of the kiosks located in processing plants. We determined      negotiations for the contract reviewed.
                                       that the eIDEAS program was not timely and management’s
                                       resulting actions were not transparent. The eIDEAS program     Noncompetitive Contracts. At the request of Senators
                                       guide stipulates that evaluators assess ideas within 7 days    Susan M. Collins (ME) and Claire McCaskill (MO), we
                                       of submission, but level 1 evaluators took more than           assessed Postal Service compliance with its policies
                                       2 years to process employee ideas, while level 2 and level     controlling noncompetitive contracts, and compared them
                                       3 evaluators took more than 1 year and almost 7 months,        with Federal Acquisition Regulation (FAR) policies and
                                       respectively, to process ideas. While the number of ideas      private sector practices. Congress directed the Postal
                                       submitted has grown by 26 percent from FYs 2004 to             Service to operate outside of the federal procurement
                                       2009, the number and value of awards has declined by           regulatory environment for efficiency. Although this
                                       more than 88 percent. Furthermore, a survey of employees       provided increased contracting freedom and flexibility,
                                       who submitted ideas, revealed that untimely evaluations,       necessary safeguards to balance these freedoms and
                                       insufficient management commitment and communication,          ensure protection of the Postal Service’s interests were
                                       and insufficient program transparency were perceived as        not consistently established or followed. While the Postal
                                       inhibitors to the program’s success.                           Service has recently strengthened its noncompetitive




8 | Semiannual Report to Congress
                                                                                                                                                   FINANCIAL RISK




purchasing policy, additional controls are needed to            plan to take corrective actions.
ensure that the Postal Service’s interests are protected.       Management disagreed with our            RISK ANALYSIS RESEARCH CENTER
Specifically, steps need to be taken to:                        recommendation to develop and            The OIG’s Risk Analysis Research Center (RARC)
                                                                implement written procedures             conducts in-depth research and analysis, clarifies
 Strengthen the oversight and transparency of the Postal
                                                                for receiving invoices for annual        complex postal issues, and informs current debates
  Service’s noncompetitive purchasing.
                                                                HCR services and verifying that          about postal policy by facilitating the interchange
 Maximize competition.                                        services were rendered prior to          of ideas. The team also conducts economic and
 Ensure best value.                                           payment. Management said the             academic studies as well as coordinates guest
                                                                Postal Service has a streamlined         lectures by experts in the postal community. The
 Avoid any actual or apparent conflicts of interest in the    payment process in place for             RARC research group has three separate teams,
  contracting process.                                          HCR contracts and a system to            Mission Operations, Support Operations, and
                                                                automatically pay HCR suppliers          Financial Operations. Some of the issues covered in
We also found that the Postal Service cannot readily            at contracted rates. Management          RARC whitepapers have included the CSRS pension
identify its noncompetitive contract universe and was not       believes they have adequate              responsibility, worksharing, financial implications of
consistently complying with existing controls for justifying    compensating controls in place.          declining mail volumes, pricing policies in a Postal
and approving noncompetitive contracts.                         However, management did say              Accountability and Enhancement Act environment, and
                                                                they would work to strengthen the        optimizing the postal retail network.
Electronic Data Interchange Contract Payments.                  control process.
We audited the controls over EDI payments for Highway
Contract Route (HCR), utility and telecommunication             Maximizing the Cost-
invoices to assess whether Postal Service officials properly    Effectiveness of Contracts
certified electronic payments to ensure that goods and
services are received prior to payment. We found that           On behalf of OA, the Defense Contract Audit Agency
Postal Service officials need to improve their oversight of     conducted 11 contract-related audit reports covering
electronic payments and that they did not certify about         various Postal Service contracting activities during the
$5.6 billion in electronic payments. Our audit also found       reporting period. These audits identified unsupported
$7.6 million in HCR contract payments made more than            and questioned costs of $511,906. This information was
30 days after the contract closed and $1.2 billion in HCR       provided to contracting officers for their consideration
payments made without an assigned contracting officer to        in negotiating the best terms for the Postal Service and
oversee them.                                                   to effectively manage contract terms. The following are
                                                                examples of this work:
Management did not state agreement with our                      An audit of labor costs on a contract for the National
recommendation to develop an oversight mechanism,                  Customer Support Center disclosed more than $500,000
and to identify contracting officers and notify them to            in unsupported questioned costs. The contractor could
oversee and administer HCR payments. They did, however,            not provide resumes for 24 of their employees and


 Financial Implications of Declining Mail Volumes
 Annual mail volume peaked in 2006 at 213 billion pieces. Since then, mail volume has declined. It is difficult to determine how much of this drop is due to the
 recent economic downturn, but many postal experts consider that a period of long-term volume decline has begun. Can the Postal Service remain solvent at
 much lower volume levels?

 The RARC asked George Mason University’s (GMU’s) School of Public Policy to look at the financial sustainability of the Postal Service at lower mail volume
 levels. The results of GMU’s analysis can be found in the OIG whitepaper “Implications of Declining Mail Volumes for the Financial Sustainability of the Postal
 Service.” GMU researchers created a model to analyze the financial position of the Postal Service at many different volumes. The results of their analysis
 suggest the outlook for the Postal Service is optimistic. The Postal Service is financially sustainable down to volume levels of 100 billion pieces per year.
 However, changes to the Postal Service’s cost or revenue structure will be needed.

 The model can run “what if” scenarios, showing how various cost-reduction initiatives can lessen the need for rate increases at specific volume levels. GMU
 researchers analyzed the financial effects of options such as switching to 5-day delivery, optimizing the retail network, and increasing productivity. They also
 examined how the cost structure of the Postal Service will change if volume declines. At lower volume levels, delivery will become a much larger share of total
 costs, and any cost burdens unrelated to delivering the mail will be significantly more difficult to bear.

 GMU’s analysis is encouraging. It provides hope that the Postal Service can remain solvent at lower volume levels, if it is allowed to act.




                                                                                                                                         April 1 — September 30, 2010 | 9
FINANCIAL RISK




                                        another seven employees did not meet the minimum                    documentation of any consultation would violate union
                                        experience and/or education requirements for the labor              contracts. Management agreed with our findings and
                                        category for which they were billing.                               recommendation to develop and implement an internal
                                      A floor check audit disclosed weaknesses in a                       control plan for grievance settlements and payments to
                                        contractor’s timekeeping system. The contractor’s                   ensure consistency among districts and compliance with
                                        employees were not properly completing timesheets                   contractual agreements.
                                        nor complying with company policies and procedures.                 Postal Service Employee Benefits
                                        The contractor’s management did not adequately review
                                        timesheets and the labor distribution payroll records did           Senator Susan M. Collins (ME) asked OA to update the
                                        not reconcile with timesheets.                                      OIG’s 2007 employee benefits program comparability
                                                                                                            data and determine what the savings would be if the
                                     Grievance Settlements and Payments                                     Postal Service changed its Federal Employees’ Group Life
                                                                                                            Insurance (FEGLI) and Federal Employees Health Benefits
                                     We initiated this audit to determine whether internal                  (FEHB) program contribution rates to match the federal
                                     controls over grievance settlements and payments were                  government. Auditors concluded that the Postal Service
                                     effective. The Postal Service pays millions of dollars in              has reduced its FEHB contribution rate by 1 percent per
                                     grievance settlements ($250 million in FY 2008 and                     year from 2008 to 2010 with similar reductions planned in
                                     $179 million in FY 2009). We found that management                     2011 and 2012. However, its FEGLI and FEHB contribution
                                     controls over grievance settlements and disbursements                  rates are still higher than those of the federal government.
                                     need to be strengthened. Specifically, we reviewed                     We determined the Postal Service can save approximately
                                     600 grievance payments and disbursements and found                     $705 million in calendar year 2011, if it matches the
                                     234 (or 39 percent) were not supported by adequate                     federal government’s FEGLI rate and uses the federal
                                     documentation. Missing were signed Grievance Arbitration               government formula to calculate its FEHB contribution
                                     Tracking System decision letters that document the reason              rates.
                                     for the settlement; the Grievance Form, which explains the
                                     original grievance; and documentation that explained how
                                     management determined the amount of the payment.                       Advertising Costs

                                     Further, we found that oversight of the grievance settlement              We assessed whether advertising costs were accurately
                                     process was inconsistent among the districts. Supervisors                 reported to the Postal Regulatory Commission (PRC) and
                                     are authorized to settle grievances at any amount; and                    whether Priority Mail advertising costs were shifted to
                                     although some postal managers had implemented a                           other products. We reviewed statutory requirements and
                                     consultation process for grievance settlements, others                    met with PRC, Law Department, and Finance managers to
                                     believed oversight of grievances before settlement and                    discuss reporting criteria. We determined that, following
                                                                                                               passage of the Postal Act of 2006, management did not
                                                                                                                                          issue written instructions clarifying
                                      Grievance Issue Categories                                                          Proportion      how to allocate advertising
                                       Overtime Assignment                                                                     11.91%     costs to various products and
                                       Overtime Work                                                                          13.20%      services. During FY 2009,
                                       Performance of Bargaining Unit Work                                                      7.55%     advertising managers changed
                                                                                                                                          their procedures for allocating
                                       Cross Craft Assignment                                                                   6.20%
                                                                                                                                          advertising costs without notifying
                                       Employees Not on Overtime List                                                           6.29%
                                                                                                                                          finance personnel of the change.
                                       Hours of Work                                                                               4%     The new procedures did not
                                       Article 8 Overtime                                                                       6.64%     follow the PRC’s established cost
                                       No Issue Available                                                                       3.13%     methodology. Finance managers
                                       Equitable Distribution of Overtime                                                       2.47%     corrected most, but not all, of
                                       Grievance-Arbitration Procedure                                                          2.23%     these misallocations, resulting
                                       Prohibition of Unilateral Action                                                         1.37%     in a misstatement of advertising
                                       Other Issues                                                                           35.02%      costs reported to the PRC.
                                                                                                                                          The remaining misallocations
                                     We developed a point estimate with a 95 percent confidence level for each grievance issue that understated Priority Mail
                                     occurred 10 times or more in our sample. We combined the remaining issues in the other issues advertising costs by $5.6 million,
                                     category. This table is our projection of the makeup of all grievances settled in FYs 2008 and       which made the product appear to
                                     2009.                                                                                                be more profitable.




10 | Semiannual Report to Congress
                                                                                                                                                   OPERATIONAL RISK




OPERATIONAL RISK                                                  $3 billion on HCR transportation covering more than 1.6
                                                                  billion miles. The following audits were conducted in this
The Operational Risk category focuses on issues related           area:
to the day-to-day operations of the Postal Service. These
risk factors potentially affect the Postal Service’s ability      PVS Scheduling and Staffing. We assessed whether
to provide timely, reliable delivery and customer service         scheduling and staffing of PVS operations at the Atlanta
across all access points. Operational risk factors involve        District were efficient, effective, and economical. Based
the quality of postal services and the end-to-end service         on this audit, the Atlanta District began taking steps to
performance of all mail, as well as the assurance that            more efficiently and effectively manage PVS transportation
postal products and services meet customer expectations           processes and schedules, thereby reducing labor and
by being responsive, consistent, and easy to use.                 related costs. Additionally, we concluded that the Postal
                                                                  Service could further reduce PVS costs by utilizing alternate
Assessment of Overall Plant Efficiency                            schedules to include split days off and expanding the use
                                                                  of part-time drivers for PVS operations where possible. In
We assessed efficiency by benchmarking each plant’s               response to this report, management stated that there are
productivity (volume per workhour) against the median             21 pilot sites that include the use of split days off, split
productivity level. We determined management has not              shifts, and mixed duty assignments to increase productivity.
yet fully adjusted workhours in response to changes in            Additionally, management stated that they have a plan
workload, nor achieved all possible efficiencies in mail          to increase workforce flexibility to improve operational
processing operations provided by opportunities such as           efficiency and the effectiveness of PVS.
the introduction of additional automation. The Postal Service
could improve efficiency by reducing more than                    PVS Operations. Auditors assessed whether PVS vehicle
16.2 million workhours by the end of FY 2012. This                operations at the Southern Maryland P&DC were effective
would allow the Postal Service to achieve at least median         and economical. They concluded that Southern Maryland
productivity levels in the processing network and avoid           P&DC management could more effectively manage PVS
significant costs.                                                transportation processes and schedules, thereby reducing
                                                                  more than 10,000 driver workhours and related costs. In
City Delivery Efficiency Reviews                                  addition, management could consolidate or eliminate eight
                                                                  HCR trips. Also, we assessed whether PVS operations at the
The OA initiated a series of audits nationwide to assess          Washington, DC, Network Distribution Center (NDC) were
the overall efficiency of city delivery operations and identify   effective and economical and concluded that workhours
opportunities to reduce operating costs. We audited the           assigned to yard activities did not match productivity
Southeast Area’s Atlanta District and the Pacific Area’s Bay      standards. The audit concluded that Washington NDC
Valley and Los Angeles Districts, located in California.          management could phase out about 7,000 workhours by
                                                                  following productivity standards, thereby saving about
We found that the three districts were not operating at           $2.8 million over a 10-year period.
peak efficiency and could reduce city delivery operating
costs. Although several factors contributed, the two primary      Review of Vehicle Parts
causes were insufficient review and oversight of unit             Program
offices’ operation, and inadequate coordination with mail
processing facilities to ensure mail was timely received and      We assessed the Postal
was in a condition that promoted office operating efficiency.     Service’s purchasing and
We recommended that these districts reduce more than              inventory management
608,000 workhours, and periodically evaluate units’               processes. We found that
operating efficiency and staffing to determine whether            although the process had
further workhour adjustments are necessary based on               significantly reduced costs
workload.                                                         for vehicle parts, the Postal
                                                                  Service did not always pay
Postal Vehicle Service Transportation                             the lowest price for vehicle
                                                                  parts and vehicle part assets
Network transportation has two surface transportation             that were at risk in some
components: Postal Vehicle Service (PVS), which uses              Vehicle Maintenance Facility
Postal Service employees, vehicles and facilities, and HCRs,      (VMF) units. These conditions
which are contracted transportation. In FY 2009, the Postal                                         Based on our 12 PVS audits, the Postal Service has been taking
                                                                  occurred due to inadequate        steps to more efficiently and effectively manage PVS transportation
Service spent about $1.2 billion dollars on PVS operations        processes, unclear purchasing
covering more than 130 million miles, and more than                                                 processes and schedules, thereby reducing labor and related costs.




                                                                                                                                           April 1 — September 30, 2010 | 11
OPERATIONAL RISK




                                         policies, and resource constraints, as well as insufficient    exceeded estimates for preventive maintenance by 85,958
                                         internal controls to secure vehicle parts assets in some       workhours. The most frequent causes for excessive
                                         VMF inventory stockrooms.                                      workhours were jams occurring due to mail processed not
                                                                                                        meeting proper specifications according to size and weight
                                         We recommended that the Postal Service establish
                                                                                                        and the inability to incorporate the eCBM checklist for dual-
                                         a process to analyze similar vehicle parts from the
                                                                                                        sided APPS systems.
                                         two consignment suppliers to aid in negotiations with
                                         suppliers. This would ensure that the Postal Service           As a result of our recommendations, management agreed
                                         receives the lowest available cost on vehicle parts. We        to provide stand-up service talks to all managers and
                                         also recommended management communicate consistent             all APPS employees, and revise the eCBM task list to
                                         clear policy to VMF personnel on purchasing vehicle parts      accommodate work requirements to include dual sided
                                         and re-emphasize stockroom policies and procedures that        APPS configurations. Management also agreed to establish
                                         include separation of duties.                                  a control to track preventive maintenance hours to assist
                                                                                                        field sites in managing performance within 20 percent of
                                                                             Automated                  eCBM requirements.
                                                                             Package
                                                                             Processing System          Mail Transport Equipment
                                                                             Electronic Conditional     Mail transport equipment (MTE) are containers of
                                                                             Based Maintenance          various types used to hold mail during processing and
                                                                             (eCBM) requires that       transportation within or between Postal Service facilities, its
                                                                             maintenance hours be       contractors, its mailers, and other external customers. The
                                                                             aligned with machine       Postal Service also loans MTE to mailers and other external
                                                                             usage and establishes      customers as a courtesy to convey mail to and from postal
                                                                             an expected level of       installations. Postal Service policy requires routine audits
                                                                             maintenance based on       of mailers and postal facilities to ensure that MTE is not
                                                                             machine throughput.        misused or misappropriated and the quantity on hand is
                                                                             During a 2-year period     adequate.
                                                                             ending September 30,
                                                                             2009, Postal Service       We found that although the Postal Service has taken a
We found that although the Postal Service has taken a number of steps to     facilities equipped with   number of steps to enhance MTE management over the
enhance MTE management over the last 2 years, opportunities exist at the     Automated Package          last 2 years, opportunities exist at the headquarters’ level
headquarters’ level to more effectively manage and control MTE nationwide.   Processing System          to more effectively manage and control MTE nationwide.
                                                                             (APPS) machines            Specifically, management could provide updated,
                                                                                                        comprehensive policy, guidance, and oversight that support
                                                                                                        MTE operational requirements. Management could also
                                                                                                        develop a nationwide comprehensive inventory system for
                                                                                                        identifying and tracking all MTE throughout the network
                                                                                                        and for effectively determining annual MTE purchase
                                                                                                        requirements. In addition, management could ensure areas
                                                                                                        have sufficient resources to monitor the management of
                                                                                                        MTE in the field or at mailer facilities, as well as ensure
                                                                                                        appropriate compliance with national MTE requirements.
                                                                                                        We concluded that if comprehensive controls over MTE had
                                                                                                        been in place at facilities and mailers, the Postal Service
                                                                                                        could have spent significantly less for MTE in FYs 2008 and
                                                                                                        2009 and could ensure that only needed MTE is purchased
                                                                                                        in the future.

                                                                                                        FedEx Transportation Agreement
                                                                                                        We conducted the following audits of the FedEx
                                                                                                        Corporation’s (FedEx) Transportation Agreement.

We found that Postal Service headquarters needs to strengthen nationwide processes, guidance, and       Use of Contract Transportation. In FY 2009, the Postal
monitoring in implementing the FedEx Transportation Agreement.                                          Service paid FedEx to transport about 1.3 billion pounds




12 | Semiannual Report to Congress
                                                                                                                                                OPERATIONAL RISK




of mail. We assessed whether the Postal Service’s use of          Ensure carriers comply with providing the capacities.
the FedEx Day-Turn network was effective and economical           Address local officials’ concerns over the ability of
in the Capitol Metro, Eastern, Great Lakes, and Northeast          carriers to handle provided capacities.
Areas. Our audit found that from October 2006 through
April 2009, these areas incurred costs by using FedEx             Adjust mail volume arrival profiles for Terminal Handling
to sort mail unnecessarily and by moving mail that could           Services (THS) locations, or adjust mail tender times to
have been moved on less costly surface transportation or           FedEx to ensure THS contractors have sufficient time to
passenger airlines. Management did not agree with all of           build planned bypass containers.
our estimated savings; however, management said their             Reinforce existing policies and procedures for processing
corrective actions should reduce or eliminate their exposure       and assigning mail, for building by-pass containers, and
to any funds wasted.                                               for tendering mail to FedEx; and standardize oversight
                                                                   at THS contract sites to monitor FedEx operations and
FedEx National Analysis. We assessed national                      ensure local compliance with established processes and
issues related to processes, guidance, and oversight in            procedures.
implementing the FedEx Transportation Agreement and
operations associated with the Day-Turn network. We              First-Class and Standard Mail
focused on systemic or significant issues identified in our
prior FedEx Transportation Agreement audits of the eight ​
                                                                 Workshare Discounts
Postal Service areas.                                            We assessed whether the Postal Service bases First-Class
                                                                 Mail and Standard Mail workshare discounts for presort
We found that Postal Service headquarters needs to
                                                                 letters on current cost inputs. We determined that presort
strengthen nationwide processes, guidance, and monitoring
                                                                 letter cost models for First-Class Mail and Standard Mail
in implementing the FedEx Transportation Agreement.
                                                                 contain inputs that may not reflect current operating
Specifically, to avoid unnecessary transportation costs we
                                                                 conditions. Of the 288 inputs the models use,
determined that management could more effectively do the
                                                                 13 were last updated prior to FY 2008. Our audit also found
following:
                                                                 that to obtain more favorable letter rates some mailers
 Monitor and avoid transportation of surface mail classes      reconfigured their flats into letter-sized booklets; however,
  on FedEx.                                                      these reconfigured letters are sometimes processed as flats
 Validate the accuracy of mail capacities provided by          instead. Management agreed with our recommendation to
  commercial carriers.                                           determine the feasibility of updating the 13 First-Class Mail


 An Assessment of Worksharing
 For more than 30 years, the Postal Service has offered workshare discounts. Worksharing is a form of outsourcing where mailers perform certain mail
 processing, handling and transportation activities in exchange for reduced postage prices. Over the years, worksharing has evolved into a complex program
 affecting most mail volume and driving fundamental Postal Service operations.
 Worksharing also has a crowded field of influential stakeholders with widely differing views on how it should operate. To some, worksharing liberated the
 Postal Service’s supply chain to the private sector, increased efficiency, grew mail volume, and allowed the Postal Service to tailor pricing to its customers’
 needs. To others, worksharing exposed the Postal Service to revenue risks, provided subsidies to big mailers, and sacrificed postal jobs to unfair competition.
 While much of the discussion surrounding worksharing is very complicated and open to interpretation, much can still be said to inform the debate. The RARC
 explored worksharing and discussed this important topic with stakeholders in the mailing community. The OIG’s whitepaper “Assessment of Worksharing”
 reveals that in many ways worksharing has been a resounding success in the United States and a model for posts in other countries to emulate. Yet, there are
 still problems to be addressed and opportunities to be explored. Some of the key findings include the following:
  Worksharing has rapidly grown to dominate the Postal Service’s business and today represents more than 80 percent of mail volume.
  The Postal Service provided $15 billion worth of discounts for work that saved $14.8 billion in avoided costs in fiscal year 2008.
  The Postal Service’s ability to retain earnings may create an incentive to set discounts to be less than the Postal Service’s avoided costs, especially in areas
    where discounts greatly exceed mailer cost. Historically, workshare discounts have been set equal to the mail processing, handling and transportation costs
    avoided by the Postal Service.
  The Postal Service’s worksharing program is recognized as the largest, most sophisticated, and most transparent in the world.
 The time is right for the Postal Service, the PRC, and the stakeholder community to reexamine and reevaluate certain principles supporting worksharing in
 order to prepare it for the next 30 years.




                                                                                                                                         April 1 — September 30, 2010 | 13
OPERATIONAL RISK




                                                                                                                   including the promotion of customer business, retention of
 FY 2008 Worksharing Cost Avoidances and Discounts (In billions)
                                                                                                                   customers, and rewarding loyal customers.
Class of Mail                                         Cost Avoidance                                  Discount
Standard Mail                                                     $7.9                                     $8.3    Efficiency of Retail Customer Service
First-Class Mail                                                   4.1                                      4.2    Operations
Periodicals                                                        2.0                                      1.7    We assessed the overall efficiency of retail customer
Package Services                                                   0.8                                      0.8    service operations. Although management eliminated
Total                                                            $14.8                                    $15.0    about 56 million retail customer service workhours since
                                                                                                                   FY 2006, they have not yet fully adjusted workhours in
Worksharing involves 80 percent of current mail volume, allowing the Postal Service to avoid $14.8 billion         response to changes in workload. The ratio of earned
in costs and provide $15 billion in discounts to mailers (see Table). Combined, workshared Standard Mail           workhours (workhours supported by workload) divided by
and First-Class Mail saved the Postal Service $12 billion (with $7.9 billion and $4.1 billion, respectively) and   actual workhours has remained unchanged at about
account for 81 percent of the total cost avoided by worksharing..                                                  84 percent since 2006. The FY 2009 national goal was
                                                                                                                   97.7 percent.
                                           and Standard Mail cost inputs and to create a prioritized
                                           list for completing the updates. Although management                    Opportunities exist to eliminate retail customer service
                                           disagreed with our recommendation to undertake a study                  workhours. We recommended that the Postal Service
                                           to identify needed changes to the letter cost models due to             implement best practices for retail customer service
                                           the volume of reconfigured letters and the percentage of                operations at all facilities, and explore opportunities to
                                           those processed as flats, they are aware of the issue and               consolidate business mail acceptance operations at Post
                                           are pursuing an alternate solution.                                     Offices, stations, and branches. We also recommended
                                                                                                                   that management periodically evaluate operating efficiency
                                           FY 2009 Standard Mail Volume Incentive                                  by assessing performance against productivity targets
                                           Program                                                                 and adjusting resources in response to workload changes.
                                                                                                                   For example, management could re-deploy employees to
                                           We evaluated the Standard Mail Volume Incentive Program                 facilities where there is sufficient workload to support the
                                           (Summer Sale) to determine whether the objective to                     workhours.
                                           increase volume and revenue was achieved and if the
                                           process used to establish the customers’ mailing history                PostalOne! Outage
                                           was a valid and accurate method. From July through
                                           September, the Postal Service ran the FY 2009 Summer                    PostalOne! is the Postal Service’s primary system for
                                           Sale program to increase volume during a typically light                recording business mail revenue. On February 5, 2010, the
                                           mail volume period and to increase revenue.                             PostalOne! system was unavailable for 4 days because of
                                                                                                                   an erroneous computer command. We assessed how the
                                           We determined that the Postal Service did not always use                PostalOne! outage impacted Postal Service operations and
                                           independent, reliable, and complete data to calculate the               revenue collection. Our audit disclosed that the February
                                           $24.1 million in net revenue contribution and the increased             2010 PostalOne! outage impacted mail acceptance
                                           volume it reported from the FY 2009 Summer Sale. This                   operations and revenue collection efforts nationwide.
                                           occurred because the Postal Service relied on certain                   Certain mail acceptance business controls that relied on
                                           customer-provided data to determine customer thresholds                 PostalOne! operational availability were not effective during
                                           that was a key component in evaluating revenue and                      the outage and the Postal Service did not have effective
                                           volume increases. Additionally, the Postal Service did not              alternative action plans to ensure that these key mail
                                           accurately track expenses incurred by employees working                 acceptance controls were in place and followed. While the
                                           on the FY 2009 Summer Sale project.                                     Postal Service implemented a set of manual procedures,
                                                                                                                   commonly called a contingency plan, these procedures
                                           Management generally agreed with our recommendation                     did not sufficiently take the place of business controls that
                                           to develop a process to obtain accurate and verifiable                  depend on a functioning PostalOne! system. Postal Service
                                           customer mailing data that dependably measures and                      management disagreed and stated that the contingency
                                           reports on the effect of customer incentive programs.                   plan they implemented during the outage provided manual
                                           Management also agreed to develop a method to more                      processes that mitigated the short-term impact and risks.
                                           accurately track employees’ time spent working on                       However, management agreed to update their contingency
                                           projects. However, management did not believe the report                plan to align with key financial controls.
                                           reflected the intangible benefits the Summer Sale provided,




14 | Semiannual Report to Congress
                                                                                                                                        OPERATIONAL RISK




  A Framework to Optimize the Retail Network
  The Postal Service has a vast legacy retail network that includes 36,000 Post Offices, stations, branches, and contract
  locations. Yet the Postal Service’s current network may not necessarily meet the needs of the ways people live and work
  now. In fact, there are mounting financial pressures and an emerging consensus in the postal community on the need
  to review the Postal Service’s retail network. One possible strategy is to optimize the network both to reduce costs and
  improve service.

  The RARC worked with Dr. Anthony Yezer, a well-known real estate economist, to describe how the Postal Service’s
  retail network would operate if it were optimally reorganized. The goal was to provide a thorough, objective, transparent
  modeling approach that would guide planners in making decisions about the network and allow stakeholders to review
  the decision process.

  The optimal retail model is discussed in the OIG whitepaper “Analyzing the Postal Service’s Retail Network Using an
  Objective Modeling Approach.” The results show that, overall, the Postal Service’s network has too many retail facilities
  located too closely together. In larger cities, the number and size of retail facilities seems to be about right. In some
  high-density downtown areas, there may even be too few facilities. In smaller towns and rural areas, however, the
  misalignment is more acute. The model suggests there are likely too many facilities and they are spaced too close
  together. The findings suggest that fewer larger retail facilities that are better staffed and are open longer hours could
  better serve the public while increasing revenue and reducing costs.

  Recent reports by the Postal Service and the Government Accountability Office have raised the issue of rethinking the
  provision of retail services. As the Postal Service and its stakeholders consider retail modernization, the work presented
  in the OIG white paper can make a contribution to policymakers wrestling with these important issues.

Information Technology                                           and workstations and concluded that the UNIX operating
                                                                 system environment, hosting applications supporting
The following audits show how the Postal Service can             the financial statements, generally complies with these
strengthen security to further preserve the integrity of its     controls. However, management can improve preventive
information and resources.                                       and detective security controls, and thereby, preserve
                                                                 the Postal Service brand. Management agreed with our
Modem Security. We determined whether controls over              recommendations and began remediating configuration-
modems are adequate to protect information resources at          related vulnerabilities during the audit.
a Postal Service Information Technology Service Center.
Modem security is essential to preserve the integrity and        Access Controls over the Electronic Data Distribution
confidentiality of the Postal Service network. Unsecured         Infrastructure. We evaluated access controls over
or unauthorized modems may provide malicious users               the Electronic Data Distribution Infrastructure (EDDI) to
undetected access to Postal Service information resources.       supplement an OIG investigation associated with alleged
While security controls over modems are adequate to              unauthorized access to and modification of EDDI servers
protect information resources at this facility, management       and files. EDDI servers — essentially workstations that
can improve controls over modems by performing required          share files — facilitate the automated delivery of address
modem security assessments and properly accounting for           data, mail sort programs, and application software updates
modems. Management agreed with the recommendations               required to maintain current mail processing and handling
and will perform annual vulnerability assessments of             equipment nationwide. Infrastructure access controls help
all identified modems within the infrastructure and will         prevent unauthorized modification to, or unavailability of,
reconcile and maintain an approved inventory of modems.          the data or systems that provide the Postal Service with
                                                                 the capability to deliver mail efficiently. We concluded that
UNIX Operating System Master Controls. We conducted              EDDI access controls are ineffective. Management agreed
this audit in support of the Postal Service’s regulatory
                                                                 with the recommendations to improve preventive access
requirement to comply with the Sarbanes-Oxley Act of
                                                                 controls to preserve the Postal Service brand.
2002. We audited whether the Postal Service’s UNIX
operating system environment (hosting applications
supporting the financial statements) complies with               Public Key Infrastructure. We performed this audit at
information technology controls. We tested UNIX servers          the request of Postal Service management to ensure that
                                                                 external Public Key Infrastructure (PKI) services continue




                                                                                                                                 April 1 — September 30, 2010 | 15
OPERATIONAL RISK




                                            to operate at a level to remain cross-certified with the U.S.           it performs web server assessments according to Postal
                                            Government’s Federal Bridge Certification Authority. We                 Service policy.
                                            assessed whether the Postal Service effectively managed
                                                                                                                    Certification and Accreditation Process. We assessed
                                            its external PKI services to comply with established                    whether the Postal Service’s implementation of the
                                            guidance. PKI is the combination of software, encryption                certification and accreditation (C&A) process was effective
                                            technologies, processes, and services that enables an                   and timely in identifying and mitigating risks associated
                                            organization to secure its communications and business                  with critical applications. This formalized process assesses
                                            transactions. PKI relies on the exchange of digital                     threats, defines security requirements and controls, tests
                                            certificates between authenticated users and trusted                    security solutions, and evaluates the security controls and
                                            resources. While the Postal Service generally managed                   processes throughout an online application’s life cycle.
                                            its external PKI services in compliance with established                Auditors found that management deployed some production
                                            guidance, we identified inconsistencies between the                     applications before completing the C&A process. We were
                                            Postal Service’s Certificate Policy, Certification Practice             unable to locate completed C&A documentation packages
                                                                                                                    for any of the 60 applications in the Technical Solution
                                            Statements, and operations in the external PKI environment.
                                                                                                                    Life Cycle Artifacts or Corporate Information Security team
                                            Management agree with our recommendation to develop                     document libraries. We also found Enterprise Information
                                            procedures to ensure reviews of applicable policies and                 Repository (EIR) data instrumental to the C&A process were
                                            processes are performed following changes to the Postal                 inconsistent, inaccurate, or missing, thereby rendering the
                                            Service external PKI environment.                                       EIR information unreliable. Management agreed with our
                                                                                                                    recommendations to ensure the C&A process is completed
                                                Network Security Assessment. We audited whether                     for all critical applications and applications are recertified
                                                network security controls at the National Customer                  when required; to mitigate high residual risks for all critical
                                                Support Center (NCSC), and associated sites, adequately             applications; to update and validate information in the
                                                provide for the confidentiality, integrity, and availability        EIR; and, to maintain C&A documentation in a centralized
                                                of Postal Service information resources. The Memphis                location.
                                                NCSC supports the Postal Service with a quality address
                                                database, a change of address system, and customer                  Function 4 Overtime Workhours
                                                address products to facilitate the timely and cost-effective
                                                coding, sorting, and delivery of mail. In FY 2009, NCSC             We assessed whether postal officials effectively managed
                                                products and services generated more than $100 million              Function 4 workhours to reduce overtime costs, and found
                                                in revenue. We concluded that management can improve                that they did. Overall Function 4 overtime workhours
                                                information security at the NCSC. Based on our audit                decreased from 17.5 million in FY 2008 to 9.2 million in
                                                results, management began remediating patch and                     FY 2009. However, unauthorized overtime workhours as
                                                                                            configuration-related   a percentage of total overtime workhours increased from
                                                                                            vulnerabilities         FY 2008 to FY 2009. We estimated that in FYs 2008 and
                                                                                            during the audit.       2009, the Postal Service incurred unsupported questioned
                                                                                            Management              costs totaling $79.6 million for unauthorized overtime
                                     Transmitted to PARS
                                         (18 months data)          Mailpiece Addresses      agreed with our         workhours.
                                                                     Matched to COA on File
                                                                                            findings and had a
                                                                                            target completion       Management agreed with our recommendation to reiterate
    Customer Filed
         COA
                       Scanned, Processed, and
                                                                                            date of the end         to first line supervisors the importance of providing
                      Stored in the COA Recorder
                      Server (CARS) at the NSCS                                             of September            supervisory oversight of the badge control and clock ring
                                                          NCOA Database
                                                                                            2010. In addition,      process. They also agreed with our recommendation to
                                                           (48 months data)

                                                                                            management is           re-emphasize the importance of adjusting the Time and
                                                                                            coordinating with       Attendance Collection System (TACS) timely to reflect
                                                              NCOA Link
                                                                                            the Corporate           changes in employees’ scheduled tours of duty and to
                                                                                            Information Security    record authorized overtime in the TACS in a timely manner
                                                                 MERLIN Move Update         Office to verify the    to reduce the amount of unauthorized overtime recorded
                                                                            Testing
                                                                                            configuration of        on the TACS Unauthorized Overtime Report. However,
                                                                                            the vulnerability       management disagreed with our recommendation to
                                                                                            management              implement an automated solution to prevent employees
The Postal Service assesses Move Update compliance at acceptance using a                    software to ensure      from clocking in before and out after their scheduled tours
performance based verification (PBV) process. The Mail Evaluation Readability                                       of duty without supervisory approval. They stated that the
Lookup Instrument (MERLINTM) uses change of address (COA) information to                                            primary purpose of the TACS is to accurately record hours
perform the assessment. The chart depicts the flow of COA information to MERLIN.                                    worked by employees in order to pay them in compliance




16 | Semiannual Report to Congress
                                                                                                                                      OPERATIONAL RISK




with the Fair Labor Standards Act and applicable Postal
Service labor contracts. Management indicated that
the responsibility for verifying clock rings and ensuring
employees’ clock rings align with scheduled and authorized
work is best charged to supervisors. They believe the use
of the TACS reports offers the most effective and efficient
method of managing clocking activity.

Move Update Program and Investigations
We assessed internal controls over the Move Update
program to determine if the Postal Inspection Service
conducted Move Update investigations according to Postal
Service policies and procedures. We found that although
the costs associated with undeliverable as addressed mail        The Postal Service accepts, processes, and delivers franked mail sent under an authorized
exceeded an estimated $1.5 billion, and the discounts            individual’s signature, or facsimile signature, without prepayment of postage.
associated with Move Update compliance exceeded
$3.5 billion for FY 2008, the Postal Service did not            Additionally, we assessed the controls over transferring the
establish a sufficient method to evaluate compliance with       House bulk mailing transactions between the associated
Move Update standards at acceptance until 2009 —                computer systems. We concluded that the Postal Service’s
12 years after Move Update began. Even with this new            process for verifying and accepting franked mail at the
compliance effort, many mail acceptance facilities do not       Southern Maryland Business Mail Entry Unit did not fully
have the necessary processing equipment to be able to           comply with Postal Service mail acceptance policy. Further,
assess compliance.                                              the Eagan Accounting Service Center could improve the
We also found that the 21 investigations we reviewed were       controls over transferring bulk mailing transactions between
all treated as administrative cases, rather than criminal       computer systems to ensure invoices provided to the House
or civil cases. Thus, law enforcement officers who receive      are complete and accurate.
special pay and benefits conducted these administrative
investigations when non-law enforcement personnel could         Data Mining Successes
have done this work more economically, and in a less
                                                                Data mining continues to play an important role in transforming rapidly growing
intimidating environment. Lastly, nine of 21 cases reviewed
                                                                business data into useful, actionable information. During this reporting period,
resulted in settlement agreements. In our analysis we found
                                                                the RARC’s Data Mining Group continued to develop data mining methods and
that two of the settlements combined issues unrelated to
                                                                analytical tools, but emphasized delivering results in the areas of health care
Move Update (such as a complaint made by the mailer
                                                                fraud, financial fraud, internal mail theft, and contract fraud. These results led to
against the Postal Service). These control weaknesses and
                                                                investigative outcomes and the planning and initiation of investigations. The Data
inconsistent treatment of compliance issues have resulted
                                                                Mining Group accomplished the following results:
in significant revenue at risk for the Postal Service, mailer
frustration, and mailer concerns regarding a negative            Provided updated analyses of potential, recent claimant fraud activity based
impact on their brand. Further, the Postal Service is at risk      on the Office of Workers’ Compensation Program analytical model and refresh
of losing significant future revenue from mailers who are          of monthly data. The group also developed the first release of an innovative
threatening to stop using the mail to communicate with             reporting tool allowing expert, health care analysts to identify and extract
their customers.                                                   suspicious patterns and relationships within provider data.
                                                                 Delivered specific referrals of potential embezzlement activity at local facilities
Revenue for Official Mail U.S. House of                            based on tools, algorithms, and up-to-date retail revenue and expense data.
Representatives
                                                                 Delivered ranking reports and referrals pinpointing processing operations
The Postal Service accepts, processes, and delivers franked        and carrier routes with significant mail loss based on an analytical database,
mail sent under an authorized individual’s signature, or           routines, and updated mailer and postal operations data. One notable, new
facsimile signature, without prepayment of postage. Title          technique analyzed a large retail company’s data to successfully address the
39, U.S. Code, Chapter 32, Penalty and Franked Mail,               potential theft of stored value cards.
establishes the franked mail privilege for the vice president    Completed a pioneering study to isolate and score suspicious, fraudulent activity
and members of Congress. Based on concerns raised by               within supplies, services, and mail equipment contracts.
the House of Representatives mailroom, we audited the
processes for accepting, verifying, and collecting revenue      The Data Mining Group is committed to developing data mining methods and
for official mail from the U.S. House of Representatives.       analytical tools that provide useful leads for OIG investigators.



                                                                                                                                April 1 – September 30, 2010 | 17
OFFICE OF INVESTIGATIONS
                                                                                                                                       FINANCIAL CRIMES




INVESTIGATIONS
The Postal Service is consistently ranked by the Ponemon Institute as America’s “most trusted federal
agency.” Among the reasons for this ranking is the integrity of its employees. Unfortunately, a small number
of postal employees and contractors betray that integrity and abuse the public’s trust in the Postal Service.

To protect the mail and to ensure the integrity of postal processes, finances, and personnel, the Postal
Service relies on the investigative efforts of the Office of Investigations’ (OI) special agents. These special
agents are stationed in offices nationwide. Their charge is to investigate internal crimes and frauds
committed by postal employees and contractors against the Postal Service and employee misconduct.
Following is work conducted by the OI during this reporting period that contributed to safeguarding the
Postal Service’s revenue and assets and helped deter postal crimes, ultimately helping to maintain a stable
and sound Postal Service.

FINANCIAL CRIMES                                                   credit customer accounts for the full amount of checks
                                                                   submitted in payment of bulk mailings. The postmaster
A large portion of the $68 billion in revenue generated            embezzled the difference by purchasing money orders in
by the Postal Service last year is handled at the 36,400           his own name, which he then used for his own personal
postal retail locations. Employees who embezzle funds, kite        benefit. The postmaster admitted to the embezzlement
or otherwise misuse money orders, or steal and misuse              and submitted his resignation after 40 years with the
postal-issued credit cards receive investigative attention         Postal Service.
from our special agents
                                                                  A New York finance supervisor was removed, in April,
                                                                   from her position with the Postal Service after she was
Embezzlements                                                      sentenced to 6 months in prison. Our investigation began
Special agents employ various investigative techniques to          in June 2009, after a Postal Service manager reported
uncover embezzlements by postal employees who steal                to us that a New York City station had failed to submit
money from cash drawers, use sophisticated schemes to              daily remittances for an entire week. Our investigation
manipulate postal money orders or money order funds, or            revealed the finance supervisor, who was responsible
falsify financial retail records. Employees found responsible      for preparing and submitting the remittances, called in
for missing postal funds are reported to management for            sick immediately after the missing remittances had been
appropriate administrative action. In cases that warrant           discovered and reported to the OIG as missing. An arrest
criminal prosecution, offenders face the loss of their jobs,       warrant was issued and the supervisor surrendered
jail time, and court-ordered restitution. Following are            to our special agents. In September 2009, the finance
examples of embezzlement cases we investigated during              supervisor pled guilty in federal court to embezzlement,
this reporting period.                                             admitting she stole $121,000 in postal funds. In
 In September, the U.S. Attorney’s Office for the Western
                                                                   March, the supervisor was sentenced to 6 months’
  District of Oklahoma announced that a former small town          imprisonment, 3 years’ supervised release, and ordered
  postmaster pled guilty to charges of embezzling nearly           to pay restitution of $121,000 to the Postal Service.
  $650,000 in postal funds and failing to pay income taxes        In July, a sales and service associate (SSA) in Puerto
  on the ill-gotten gains. At sentencing, the now former           Rico pled guilty in federal court to the misappropriation
  postmaster faces up to 10 years in prison, a $250,000            of postal funds and theft of public money. The charges
  fine, and restitution. As part of his plea, the defendant        stemmed from an OIG investigation that disclosed the
  agreed to pay restitution to the Postal Service in the           SSA had been falsely manipulating his computer terminal
  amount of $642,808. In addition, he agreed to pay back           to void postal money orders that had actually been
  taxes to the IRS for tax years 2005 through 2008. We             issued to customers. The amount of the embezzlement
  initiated an investigation after management reported a           was identified as more than $154,000. In May, the SSA
  postmaster’s failure to properly account for a corporate         was removed from his position with the Postal Service.
  check submitted in payment of a permit mailing. Our              Sentencing in the criminal case is pending.
  investigation determined the postmaster failed to               In another Puerto Rico case, after a 3-week trial, in
  account for more than the one check. From October                December 2009, four former SSAs entered guilty pleas
  2005 through September 2009, the postmaster used                 in federal court. The ex-employees had been accused
  his position of trust to embezzle postal funds by failing to




                                                                                                                               April 1 — September 30, 2010 | 19
FINANCIAL CRIMES




                                                                                                            more than $200,000 in restitution to the Postal Service.
 Financial Fraud Awareness Posters Distributed to all Postal Facilities                                     The former employee pled guilty in March 2009, after an
                                                           This year’s awareness and crime                  OIG investigation revealed she had falsely issued more
                                                           prevention campaign targeted a crime             than 700 postal money orders that she converted to
                                                           that costs the Postal Service millions           personal use. The scope of the illegal activity occurred
                                                           of dollars each year — financial fraud           from February 2007 through December 2008. Some of
                                                           and embezzlements. To reach all postal           the money had been used to pay credit card bills and
                                                           employees, the campaign kicked off               purchase vehicles. The SSA has been removed from the
                                                           with a paycheck stuffer sent to more             Postal Service.
                                                           than 600,000 postal employees. In
                                                           addition, a companion poster was               Voyager Credit Card
                                                           distributed to 33,000 postal facilities
                                                           for display on workroom floor bulletin         Through a partnership with U.S. Bank and Voyager Fleet,
                                                           boards and a screen saver was                  the Postal Service issues one credit card per vehicle
                                                           pushed out to 150,000 Postal Service           for refueling, routine maintenance, and vehicle washing
                                                           computers.                                     and polishing. Postal employees and contractors are
                                                                                                          investigated for disclosure of personal identification
                                                           The theme of the campaign is, “Don’t           numbers (PINs) to non-postal entities, using the Voyager
                                                           think about taking or ‘borrowing’              card for personal use, exceeding the daily purchase limit
                                                           the Postal Service’s money.” The               without proper authorization, or transferring purchasing
                                                           campaign’s message and call to action          authority to a non-postal entity. Special agents investigated
                                                           are clear — “Do the right thing… even          63 cases of Voyager credit card fraud in this reporting
                                                           if nobody is looking.” Those who steal         period, resulting in 38 arrests and 25 administrative
                                                           or embezzle postal funds hurt the Postal       actions. The following is an example of one such case.
 Service financially and run the risk of losing their job, benefits, and could face jail time for their    In May, a Houston city carrier pled guilty in federal court
 offenses.                                                                                                  to one count of theft of government property. The charge
                                                                                                            related to nearly $18,000 in unauthorized Voyager card
                                           in a 189-count indictment of embezzlement of public              charges. The city carrier resigned from his position with
                                           funds, false entries, and the fraudulent issuance of             the Postal Service following our investigation, which
                                           postal money orders. The charges resulted from an OIG            included surveillance of the city carrier selling the fuel
                                           investigation that identified a loss of nearly $100,000          to individuals in exchange for cash. In July, the former
                                           in postal funds. Following their guilty pleas, the four          employee was sentenced to 3 years’ probation and
                                           SSAs were removed from their positions with the Postal           ordered to pay nearly $18,000 in restitution to the Postal
                                           Service. In June, two of the former SSAs were sentenced          Service.
                                           to 18 months in a community confinement center,
                                           5 years’ probation, and 200 hours of community service.        Tort Claims
                                           The remaining two SSAs were sentenced to 30 days
                                           home confinement, 5 years’ probation, and 100 hours            The Postal Service established the Tort Claims Program
                                           of community service. All together, the four defendants        to monitor and resolve claims filed against the Postal
                                           were ordered to pay more than $93,000 in restitution to        Service by customers seeking compensation for injuries or
                                           the Postal Service.                                            losses incurred while using postal facilities. According to
                                         An Iowa SSA was sentenced, in July, to 1 year in federal       an agreement with the Postal Service’s Law Department,
                                           prison after pleading guilty to embezzling more than           special agents investigate tort claim cases involving
                                           $240,000 from the Postal Service. Our investigation was        suspected fraud and cases for which the U.S. Attorney’s
                                           initiated after data analysis revealed a large amount of       Office has requested an investigation. The following is an
                                           refunds had been issued through a retail unit. The SSA         example of one such case.
                                           admitted to falsely issuing refunds that she converted to       A civil tort claim was filed against the Postal Service in
                                           her personal use and resigned from her position with the         California after an accident involving a postal vehicle.
                                           Postal Service. In addition to her sentence, the SSA was         The claimant alleged in the lawsuit to have suffered
                                           ordered to make full restitution of more than $243,000           extensive and permanent damage to her nervous system
                                           to the Postal Service.                                           as a result of the accident. Our surveillance showed
                                         In September, a former lead sales SSA, in Oregon,                the claimant shopping, lifting her grandchildren, and
                                           was sentenced to 18 months incarceration in a federal            engaging in normal day-to-day activities. Due to our
                                           facility, 3 years’ supervised release, and ordered to pay        special agent’s investigation, the case was settled,
                                                                                                            resulting in a savings to the Postal Service of $135,000.



20 | Semiannual Report to Congress
                                                                                                                                       WORKERS’ COMPENSATION FRAUD




WORKERS’ COMPENSATION
FRAUD
In FY 2010, the monetary and medical
benefits paid by the Postal Service to workers’
compensation claimants (employees who
sustained job-related injuries) totaled more
than $1.1 billion and its estimated total liability
for future workers’ compensation costs is
more than $11.4 billion. Administered by the
U.S. Department of Labor (DOL), the Office of
Workers’ Compensation (OWCP) provides direct
compensation to providers, claimants, and
beneficiaries. The Postal Service later reimburses
the OWCP in a process known as “charge-back
billings.”

Proactive OIG prevention campaigns create an
awareness of workers’ compensation fraud.
Special agents detect and investigate allegations
of fraudulent claims. Successful investigations
of fraud result in significant long-term savings
to the Postal Service. Investigative efforts
during this reporting period resulted in nearly
$99 million in cost savings or avoidances,
29 arrests, and 118 administrative personnel
actions, including removals and suspensions and
termination of benefits.                                A Florida letter carrier alleged total disability from a work-related neck injury. However, our investigation determined
                                                        the carrier was earning income as a real estate agent and property manager. A search warrant led to the recovery of
                                                        photographs and video that depicted the carrier actively hiking, snow skiing, bicycling, bungee jumping, dancing, horseback
Claimant Fraud
                                                        riding, and scuba diving.
The workers’ compensation program exists for
employees who are legitimately injured while on                         to the recovery of photographs and video that depicted
duty. The program provides benefits to injured employees                the carrier actively hiking, snow skiing, bicycling, bungee
and their families while the employee is unable to work.                jumping, dancing, horseback riding, and scuba diving.
Postal employees who attempt to defraud OWCP with                       The DOL terminated the rural carrier’s compensation
false claims are criminally prosecuted to permanently                   benefits, realizing a savings of more than $1.4 million for
prevent payment of additional compensation. Cases that                  the Postal Service.
may require administrative action are referred to the
Postal Service and the DOL. Special agents work closely               After pleading guilty, in September, a former New York
with health and resource management specialists from                    SSA was sentenced to 2 months’ incarceration, 3 years’
the Postal Service on all phases of these investigations.               probation, and ordered to pay restitution of $33,884.
Following are examples of workers’ compensation fraud                   The SSA had alleged total disability, as a result of a
cases investigated during this period.                                  work-related injury to his lower back, and had received
                                                                        approximately $127,000 in workers’ compensation
 In July, our investigation of a former Florida rural carrier         payments. A joint investigation with the Social Security
  led to an 18-month federal prison sentence, 3 years’                  Administration OIG revealed the SSA was performing
  probation, and obligation to pay more than $193,000                   activities that were inconsistent with the capabilities
  in restitution. The rural carrier pled guilty to a 17-count           he communicated to his physician, the DOL, the Postal
  indictment charging her with workers’ compensation                    Service, and the Social Security Administration. Video
  fraud, making false statements and theft. The carrier                 surveillance conducted by special agents show the
  had alleged total disability from a work-related neck                 associate landscaping his yard, pushing a fully loaded
  injury and received in excess of $142,000 in workers’                 wheelbarrow weighing more than 225 pounds, building
  compensation payments. Our investigation determined                   a flagstone retaining wall, mowing his lawn, lifting a lawn
  the carrier was earning income as a real estate agent                 mower, and carrying heavy objects. The DOL terminated
  and property manager. A subsequent search warrant led




                                                                                                                                                   April 1 — September 30, 2010 | 21
DELAY, DESTRUCTION, AND THEFT OF MAIL BY EMPLOYEES




                                       the associate’s benefits, realizing a savings of more than      (physician and one medical biller) were indicted on one
                                       $1 million for the Postal Service.                              count of health care fraud. In June, the chiropractor’s
                                      In June, a federal judge sentenced a former California         second medical biller pled guilty to one count of health
                                       city carrier to 3 months’ home detention, 5 years’              care fraud. Our investigation revealed the chiropractor,
                                       probation, and ordered him to pay restitution of more           who owned and operated a chiropractic facility, in
                                       than $50,000. The carrier pled guilty to false statement        conjunction with his staff executed a scheme to defraud
                                       or fraud to obtain federal employees’ compensation in           the OWCP by submitting bills for fraudulent medical
                                       February. Our investigation determined that the carrier,        services. From January 2001 to November 2007, the
                                       who claimed to be totally disabled from an on-the-job           chiropractor and his staff submitted bills to the OWCP in
                                       shoulder injury, was earning income as the owner and            excess of $4.5 million and were paid more than
                                       operator of an assisted living facility. As a result of our     $2.1 million for medical services allegedly provided to
                                       investigation, the DOL terminated the city carrier’s            more than 300 postal employees. Of the monies paid,
                                       compensation benefits, realizing a cost savings of about        only $1,501 was determined to be for actual chiropractic
                                       $862,000 for the Postal Service.                                services. The chiropractor and his staff also provided
                                                                                                       patients falsified disability ratings, resulting in
                                      After a 5-day jury trial in April, an Ohio mail processing     $9.3 million in unwarranted schedule awards.
                                       clerk was found guilty in federal court of workers’             Sentencing is pending for the physician and two medical
                                       compensation fraud, making false statements, and mail           billers. Criminal resolution for the chiropractor is pending.
                                       fraud. In February 2004, the clerk filed a total disability
                                       workers’ compensation claim for an alleged on-the-job
                                       injury to her knee. Video surveillance conducted by            WORKERS’ COMPENSATION FRAUD
                                       our agents showed the clerk repeatedly exceeding her           INVESTIGATIVE RESULTS
                                       medical restrictions. We watched the clerk shopping
                                                                                                      April 1 — September 30, 2010
                                       for extended periods of time, lifting objects, climbing
                                       stairs, and performing yard work. The DOL terminated            407 fraud investigations resolved
                                       the clerk’s compensation benefits, resulting in a cost          $98.8 million in compensation payments avoided
                                       avoidance of more than $900,000 for the Postal Service.         29 arrests
                                       The clerk was terminated from the Postal Service as a           35 indictments
                                       result of her conviction.                                       23 convictions
                                                                                                       118 personnel actions taken by management
                                     Medical Provider Fraud
                                     The workers’ compensation program is also subject to
                                     fraud and abuse by medical providers used by postal             DELAY, DESTRUCTION, AND THEFT OF
                                     employees injured on the job. A few seek to take advantage      MAIL BY EMPLOYEES
                                     of this program by submitting false bills, colluding with
                                     claimants to extend benefits or falsifying claim documents.     Special agents investigate allegations of postal employees
                                     When evidence of abuse exists, OIG agents investigate           delaying, destroying, or stealing mail. Guilty employees are
                                     these providers. Following are two case examples.               prosecuted or referred to management for administrative
                                                                                                     action.
                                      After a 2-day jury trial in April, a Texas massage
                                       therapist was found guilty on one count of making false       Theft of Mail by Employees
                                       statements related to a health care matter and nine
                                       counts of health care fraud. The massage therapist            Following are examples of cases in which postal employees
                                       was sentenced to 78 months’ imprisonment and                  stole mail for personal gain.
                                       ordered to forfeit $1.6 million in assets. Upon release
                                                                                                      In August, a Missouri mail processing clerk pled guilty
                                       from imprisonment, she will be on 3 years’ probation.
                                                                                                       to five counts of theft of mail and one count of fraud
                                       Our investigation revealed the massage therapist was
                                                                                                       in connection with access devices. The clerk was
                                       engaging in a health care scheme to defraud the OWCP
                                                                                                       responsible for rifling Standard Mail containing Best
                                       by presenting herself as a physical therapist and billing
                                                                                                       Buy Reward Zone certificates over the past 4 years and
                                       for patient services that were not rendered. The therapist
                                                                                                       using them to purchase electronics and other items
                                       received payment from OWCP of more than $1.5 million,
                                                                                                       for personal use totaling nearly $3,000 in certificates.
                                       of which only $191,345 was determined to be for actual
                                                                                                       A federal search warrant on the clerk’s residence
                                       massage therapy services.
                                                                                                       yielded laptop computers, digital telephones, iPods,
                                      In March, an Illinois chiropractor was indicted on 18          computer hard drives, digital cameras, and video game
                                       counts of health care fraud. The chiropractor’s staff           consoles purchased with the stolen reward certificates.




22 | Semiannual Report to Congress
                                                                                                                                                     CONTRACT FRAUD




  Also recovered during the search were Netflix and             desert, or dump mail are
  Blockbuster DVDs, various gift cards, driver’s licenses,      investigated by our special
  First-Class Mail, postal money orders, and debit cards        agents.
  in the names of postal customers. The clerk admitted to
                                                                 In August, an Alabama
  rifling First-Class Mail containing bank cards and their
                                                                  temporary letter carrier pled
  corresponding PIN numbers. Using this information,
                                                                  guilty to one count of delay of
  the clerk was able to make cash withdrawals from
                                                                  mail and was sentenced to
  Automated Teller Machines, stealing nearly $29,000 in
                                                                  12 months’ probation. A
  cash from bank customers. The clerk resigned from the
                                                                  tip from a citizen led our
  Postal Service. Sentencing is pending.
                                                                  special agents to a dumpster
 In August, a Washington, DC, city carrier was sentenced        at a local gas station. They
  to 25 months of incarceration and ordered to pay more           reviewed footage from the gas
  than $130,000 in restitution for theft of Treasury checks,      station’s video surveillance
  DC Government checks, and identity theft. The carrier           system and observed a postal
  and two co-conspirators pled guilty in July. The carrier        vehicle backing towards the
  stole more than $100,000 in checks, which she sold              dumpster. We recovered               A federal search warrant on a clerk’s residence yielded laptop
  to a nonemployee co-conspirator. In February 2010,              more than 250 pieces of              computers, digital telephones, iPods, computer hard drives, digital
  during a joint surveillance operation with the Postal           mail from the dumpster. The          cameras, Netflix and Blockbuster DVDs, video game consoles, and
  Inspection Service, the U.S. Secret Service, and the DC         carrier resigned from the            much more. Sentencing is pending.
  OIG, investigators observed the city carrier mishandling        Postal Service following this
  checks belonging to other carrier routes. After the carrier     investigation.
  was observed passing the checks to a co-conspirator,
                                                                 A Georgia rural letter carrier pled guilty, in May, to
  she was subsequently arrested and interviewed by
                                                                  obstruction of mail. During a surveillance operation,
  agents. During the interview, the city carrier admitted
                                                                  special agents observed the carrier throwing mail into a
  to stealing checks from the Post Office over a 2-year
                                                                  dumpster. We detained the rural carrier and recovered
  period. She confessed to providing the checks to a friend
                                                                  more than 600 pieces of mail from the dumpster,
  and receiving approximately $500 per check. The friend
                                                                  including Netflix DVDs and other First-Class Mail. The
  gave the checks to runners, who cashed the checks at
                                                                  rural carrier admitted to discarding mail into the same
  various check-cashing establishments using fraudulent
                                                                  dumpster on several occasions over a 2-month period.
  driver’s licenses. A criminal complaint was filed against
                                                                  The rural carrier acknowledged that throwing the mail
  the carrier in February 2010. She resigned from the
                                                                  away was unlawful; however, he wanted to be done for
  Postal Service in July 2010.
                                                                  the day. The rural carrier was ordered to serve
 In June, a California general expeditor was found              12 months’ supervised probation, and to pay $500 in
  responsible for the theft of more than 100 parcels              fines and $182 in restitution to Netflix. The rural carrier
  containing pharmaceuticals. She was sentenced to                was removed from the Postal Service in March 2010.
  5 months in prison for each of the two counts against
  her, to be served concurrently, 6 years’ probation, and       CONTRACT FRAUD
  ordered to pay more than $9,300 in restitution after
  pleading guilty to theft of mail and delay or destruction     The Postal Service manages contracts, ranging from
  of mail in January 2010. While under OIG agents’              multimillion dollar national contracts for services such
  surveillance, the expeditor rifled parcels in the back        as transportation networks and IT infrastructures to local
  of a parked truck, emerging with pill bottles in her          contracts for supplies and services at individual postal
  pants pockets and shirt. During an interview with our         facilities. The OIG aids the Postal Service by investigating
  special agents, she admitted stealing parcels containing      allegations of contract fraud, waste, and misconduct. When
  pharmaceuticals from the mail for at least 4 years. She       contract improprieties are documented, special agents
  said she only stole parcels containing Vicodin to support     present the evidence for criminal and civil prosecution and
  her addiction. The expeditor resigned from the Postal         administrative remedies. During this reporting period, we
  Service.                                                      conducted 66 contract fraud investigations, resulting in
                                                                6 arrests and more than $ 46.1 million in monetary
Delay or Destruction of Mail by Employees                       benefits to the Postal Service. Following are summaries of a
                                                                Risk Alert we issued and some of the contract fraud cases
Citizens and businesses expect their deposited mail to          we investigated:
be delivered in a timely manner and not be delayed or
destroyed. Postal employees and contractors who delay,




                                                                                                                                            April 1 — September 30, 2010 | 23
OFFICIAL MISCONDUCT




                                     A Contract Fraud Risk Alert was issued to the Postal                 The parties reached a settlement agreement that was
                                     Service detailing issues of HCR contractors not maintaining          filed in the U.S. District Court for the Eastern District of
                                     workers’ compensation insurance. The OIG provided                    Virginia in May. In July, the Postal Service realized an
                                     specific actions to take to improve the control environment          additional recovery of more than $99,000. This was a
                                     that included specific certification and documentation               result of the OIG’s participation in a second investigation
                                     requirements to better protect the interests of the Postal           into this company for the sale of defective computer
                                     Service.                                                             platforms for the storage of data to U.S. Government
                                                                                                          agencies, including the Postal Service. The second multi-
                                      In July the Postal Service realized a cost avoidance
                                                                                                          agency investigation was settled in a civil settlement
                                       of more than $19.8 million after a mail equipment
                                                                                                          approved by the U.S. District Court for the Eastern
                                       contractor submitted a modified Request for Equitable
                                                                                                          District of Virginia.
                                       Adjustment (REA) related to an OIG investigation. This
                                       ongoing investigation determined the initial REA did              In April, a Civil False Claims Act complaint, which had
                                       not contain adequate supporting documentation to                   been filed on behalf of the Postal Service by the U.S.
                                       substantiate the damages claimed by the contractor. The            Department of Justice in the U.S. District Court, Northern
                                       investigation continues into the modified REA filed by the         District of Texas, was settled via a Settlement Agreement.
                                       contractor subsequent to the OIG’s investigative findings          Our investigation determined that since approximately
                                       to date.                                                           2003, a Postal Service HCR contractor filed more than
                                                                                                          337 false or fraudulent fuel use certification claims
                                      A joint investigation with the FBI and U.S. Department
                                                                                                          with the Postal Service for payment associated with the
                                       of Transportation OIG resulted in a postal contract air
                                                                                                          contract, which led to the filing of the civil complaint.
                                       cargo carrier pleading guilty in August 2010 and paying
                                                                                                          Fuel use certification forms were the means by which
                                       a $38 million criminal fine for its role in a conspiracy to
                                                                                                          the contractor requested and received increases in
                                       fix prices in the air transportation industry. In August,
                                                                                                          compensation under its contracts with the Postal
                                       the court ordered the defendant to pay 10 percent of
                                                                                                          Service. As a result of the settlement, the Postal Service
                                       the criminal fine, equaling $3.8 million, directly to the
                                                                                                          received a financial recovery of $970,000 and realized a
                                       Postal Service. The investigation resulted in a one-count
                                                                                                          cost avoidance of more than $284,000 associated with
                                       felony charge filed in U.S. District Court for the District of
                                                                                                          additional improper claims submitted by the contractor
                                       Columbia, alleging the company engaged in a conspiracy
                                                                                                          that had not yet been paid but were identified by our
                                       to fix the cargo rates charged to customers, including the
                                                                                                          investigation.
                                       Postal Service, for air cargo shipments from at least July
                                       2004 until at least February 2006. From October 2003              An Ohio HCR contractor pled guilty, in August, to
                                       through June 2009, the Postal Service had paid the                 six misdemeanor counts of attempted workers’
                                       contractor in excess of $205 million to transport cargo            compensation fraud on Postal Service HCR contracts.
                                       internationally and in excess of $2 million to transport           The contractor received a 6-month suspended sentence
                                       cargo domestically. The parties conspired by agreeing              on each count, was ordered to serve probation, and pay
                                       on certain components of cargo rates for shipments on              $6,500 in restitution. The investigation determined that
                                       certain routes to/from the U.S.                                    beginning in 2005, as part of the contract, the Postal
                                                                                                          Service paid the contractor to maintain a workers’
                                      The Postal Service realized a recovery of more than
                                                                                                          compensation policy that was never obtained.
                                       $4.4 million as a result of the OIG’s participation in a
                                       multi-agency investigation against a Massachusetts
                                       company for violating the False Claims Act and the
                                                                                                        OFFICIAL MISCONDUCT
                                       Federal Anti-kickback Act. A civil complaint, initially
                                       filed in the Eastern District of Arkansas in 2006 but            Postal Service employees are guilty of misconduct when
                                       transferred to the U.S. District Court for the Eastern           they do the following:
                                       District of Virginia in 2009, alleged the company                 Misuse Postal Service computers.
                                       misrepresented its commercial pricing practices
                                                                                                         Destroy or steal postal property.
                                       and fraudulently induced U.S. Government agencies,
                                       including the Postal Service, to enter into contracts             Lie or forge signatures on official documents.
                                       with prices that were higher than they would have been            Steal funds.
                                       had the false misrepresentations not been made. The
                                       complaint also alleged the company engaged in an illegal          Abuse authority.
                                       kickback scheme designed to influence the government              Sabotage operations.
                                       to purchase the company’s products.
                                                                                                         Use narcotics or sell drugs while on duty.
                                                                                                         Abuse alcohol while on duty.




24 | Semiannual Report to Congress
                                                                                                                  EXECUTIVE INVESTIGATIONS AND INTERNAL AFFAIRS




During this reporting period special agents investigated           co-conspirator is currently a
108 cases of employees selling, possessing, or using illegal       fugitive.
drugs on duty; made 37 arrests; and the Postal Service           A California customer
took 47 administrative personnel actions. Following are            service supervisor (CSS),
examples of cases the OIG investigated involving employee          in June, was sentenced in
misconduct.                                                        Federal court to 10 months’
 In June, a distribution window clerk (DWC), who was also        home confinement, 3 years’
  a secretary-treasurer for an American Postal Workers             probation, and ordered to
  Union (APWU) Chapter in New Mexico, was sentenced                pay a $2,000 fine. This
  in federal court to 2 years’ probation and ordered to            investigation, conducted jointly
  pay more than $6,000 in restitution to the APWU. The             with the State Department,
  investigation, conducted jointly with The Office of Labor-       revealed that the CSS used her
  Management Standards of the DOL revealed that the                postal position to fraudulently
  DWC embezzled union funds and falsified the union’s              obtain a passport to enable her
  annual report to the DOL. The DWC was arrested and               brother to enter the U.S. The
  pled guilty to falsification of an annual report filed by a      CSS acquired a third party’s
  union. The DWC retired from the Postal Service.                  driver’s license information
                                                                   and naturalization certificate
 A Florida rural carrier, along with one non-Postal Service                                          A Florida rural carrier, along with one non-Postal Service
                                                                   and used the postal passport
  co-conspirator, pled guilty, in April, to conspiracy with                                            co-conspirator, pled guilty, in April, to conspiracy with intent to
                                                                   application process to submit
  intent to distribute more than 500 grams of cocaine.                                                 distribute more than 500 grams of cocaine.
                                                                   the fraudulent passport
  The investigation, conducted jointly with the Osceola
                                                                   application. The CSS provided
  County Bureau of Investigation, the Drug Enforcement
                                                                   the passport to her brother, who then entered the U.S.
  Administration (DEA), and the Postal Inspection Service,
                                                                   illegally on several occasions. In October 2009, the CSS
  revealed that the rural carrier distributed parcels
                                                                   was indicted and arrested for making a false statement
  containing illegal narcotics. The parcels were sent from
                                                                   in a passport application. An administrative decision
  Puerto Rico to nonexistent addresses along the carrier’s
                                                                   regarding the CSS is pending.
  route. The carrier would intercept the parcels and pass
  them to the non-Postal Service co-conspirator. Both
  subjects were arrested and the carrier was removed            EXECUTIVE INVESTIGATIONS AND
  from the Postal Service. In August, the rural carrier was     INTERNAL AFFAIRS
  sentenced in federal court to 7 years and 3 months’
  confinement to be followed by 5 years’ supervised             OI conducts criminal and administrative investigations of
  release. The non-Postal Service co-conspirator received a     Postal Service executives, and OIG and Postal Inspection
  mandatory minimum sentence of 10 years’ confinement           Service personnel, as well as whistleblower reprisal
  to be followed by 8 years’ supervised release.                investigations
 In June, a city carrier in Pennsylvania was sentenced
                                                                Whistleblower Reprisal Activity
  in federal court to serve 1 year and 1 day in prison,
  followed by 2 years’ supervised release, and ordered          The Whistleblower Protection Act does not apply to the
  to pay restitution of more than $41,000 to the IRS. This      Postal Service. However, the Postal Service has its own
  investigation, conducted jointly with the DEA, the IRS,       policy governing whistleblower retaliation. The policy
  and the U.S. Immigration and Customs Enforcement,             prohibits retaliation against an employee who has disclosed
  revealed the city carrier was involved in a scheme to         information he or she reasonably believes to be:
  fraudulently acquire federal income tax refund checks.
  The carrier worked with non-postal co-conspirators who        1) a violation of any rule, law or policy, or 2) a gross waste
  used compromised birth certificates and Social Security       of funds, gross mismanagement, abuse of authority, or a
  numbers to file fraudulent tax returns. Accordingly, the      substantial and specific danger to public health or safety.
  carrier provided destination mailing addresses from           Allegations received:................................................... 106
  his postal route, intercepted the tax refund checks           OIG Investigations initiated............................................. 24
  from the mail, and received cash payments from his            Investigations closed with no finding of retaliation
  co-conspirators in exchange for the checks. The carrier         or deferred to other adjudicative body:.......................... 20
  pled guilty to conspiracy to defraud the government with      Allegations closed with no action:................................... 53
  respect to claims, and was removed from the Postal            Open investigations:...................................................... 15
  Service. One of the co-conspirators pled guilty to defraud    OIG found reprisal:.......................................................... 0
  the government and is awaiting sentencing. The other




                                                                                                                                                  April 1 — September 30, 2010 | 25
APPENDICES
                                                                                                                                                     APPENDIX A




APPENDICES
The Inspector General (IG) Act of 1978 requires semiannual reports on the immediately preceding 6-month periods ending September 30 and March 31. These
reports are sent to Congress and made available to the public.

This report summarizes OIG activities and illustrates significant problems, abuses, and deficiencies, along with recommendations and corrective actions related
to the administration of U.S. Postal Service programs and operations during the reporting period.

The appendices on the following pages fulfill the requirements of the Act.

APPENDIX A
Reports Issued to Postal Service Management
For the period April 1 — September 30, 2010

OIG audit teams conduct performance and financial audits, evaluations, and other reviews to address the business of the Postal Service. Each team issues audit
reports (AR) or management advisory reports (MA) in accordance with the identified needs of the project.

Summary
                                                                                                                         Unsupported
Risk Factors                        Number of Reports      Funds Put to Better Use        Questioned Costs           Questioned Costs              Revenue Impact
Strategic                                           20             $1,297,315,729           $49,818,069,592                         —               $1,956,322,664

Operational                                         42               $441,774,646            $1,514,662,329               $79,646,787                      $229,610

Financial                                          103             $9,762,926,923            $5,847,194,200            $5,839,589,387                       $65,593

TOTAL                                             165             $11,502,017,298           $57,179,926,121             $5,919,236,174              $1,956,617,867




Fiscal Year 2010 Summary
For the period October 1, 2009 — September 30, 2010

                                                                                                                         Unsupported
                                    Number of Reports      Funds Put to Better Use        Questioned Costs           Questioned Costs              Revenue Impact
TOTAL                                             353            $11,895,954,570            $57,304,647,559            $5,933,919,980               $1,957,201,806




   Definitions:
   Questioned Costs. A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, and so forth.

   Unsupported Costs. A cost that is not supported by adequate documentation. Unsupported costs are included with the amounts shown as
   Questioned Costs.

   Funds Put to Better Use. Funds that could be used more efficiently by implementing recommended actions.

   Revenue Impact. Amounts from revenue generating functions such as retail sales, rent, leases, or fees that were underpaid or not realized. In
   addition, this category includes increased revenue from existing functions and generating revenue from new sources.




                                                                                                                                    April 1 — September 30, 2010 | 27
APPENDIX A




Reports with Quantifiable Potential Monetary Benefits
                                                                                      Funds Put                            Unsupported
                                                                                   to Better Use   Questioned Costs    Questioned Costs   Revenue Impact
STRATEGIC RISK
Capital Investments
Civil Service Retirement System Overpayment by the Postal Service; CI-MA-10-001;             —       $49,808,000,000                —                  —
6/18/2010
Cost, Revenue, and Rates
Impact of Postal Accountability and Enhancement Act Price Caps; CRR-AR-10-005;               —                   —                  —       $1,954,822,664
9/27/2010
Engineering and Facilities
Capital Metro Area: Delivery Barcode Sorters Equipment Utilization;                          —           $9,639,036                 —                  —
DA-AR-10-002; 5/7/2010
Facility Energy: Metering Technologies; DA-AR-10-006; 7/2/2010                        $1,691,740           $210,522                 —                  —

Facility Optimization: Chicago District; DA-AR-10-009; 8/25/2010                     $23,517,019                 —                  —                  —

Facility Optimization: New Jersey District; DA-AR-10-008; 8/25/2010                $157,963,990                  —                  —                  —

Facility Optimization: New York District; DA-AR-10-010; 8/25/2010                  $446,258,222                  —                  —                  —

Delivery Vehicle Replacement Strategy; DA-AR-10-005; 6/16/2010                      $342,127,370                 —                  —                  —

Facilities Optimization Controls Over the Selling of Assets; DA-AR-10-004;                   —             $220,034                 —          $1,500,000
6/1/2010
Field Financial
Area and District Office Field Structure; FF-AR-10-224; 9/17/2010                  $289,000,000                  —                  —                  —

Network Optimization
Southeast Area Processing and Distribution Center Consolidations;                   $33,984,345                  —                  —                  —
EN-AR-10-006; 9/17/2010
Stations and Branches Optimization and Consolidation; EN-AR-10-005;                  $2,773,043                  —                  —                  —
8/17/2010


OPERATIONAL RISK
Delivery
City Delivery Efficiency Review – Atlanta District; DR-AR-10-009; 9/24/2010          $27,374,309                 —                  —                  —
City Delivery Efficiency Review – Bay-Valley District; DR-AR-10-007; 8/26/2010      $79,016,988                  —                  —                  —
City Delivery Efficiency Reviews – Los Angeles District; DR-AR-10-006; 7/1/2010    $105,056,064                  —                  —                  —
Flats Sequencing System – Columbus, OH, District; DR-MA-10-002; 9/17/2010                    —             $155,157                 —                  —
Flats Sequencing System Operational Issues; DR-AR-10-005; 7/1/2010                           —            $852,336                  —                  —
The Effects of the Flats Sequencing System on Delivery Operations – Mid-America              —             $145,515                 —                  —
District; DR-MA-10-001; 9/23/2010
Vehicle Parts Program; DR-AR-10-008; 9/24/2010                                        $9,257,751         $8,230,719                 —                  —
Engineering and Facilities
Automated Package Processing System Equipment Maintenance Opportunities;             $2,434,878          $3,496,679                 —                  —
DA-AR-10-003; 5/13/2010




28 | Semiannual Report to Congress
                                                                                                                                                   APPENDIX A




                                                                                      Funds Put                             Unsupported
                                                                                   to Better Use    Questioned Costs    Questioned Costs       Revenue Impact
Field Financial
Fiscal Year 2010 PostalOne! Outage; FF-AR-10-205; 8/5/2010                              $355,107                  —                   —                         —
Network Processing
Assessment of Overall Plant Efficiency 2010; NO-MA-10-001; 6/11/2010                          —          $743,961,610                 —                         —
Sales & Service
Electronic Postmark Program License Fees; MS-MA-10-001; 9/2/2010                              —                   —                   —                  $229,610
Premium Pay at Bedford Park Computerized Forwarding System Unit;                              —             $155,062                  —                         —
MS-AR-10-006; 8/30/2010
Function 4 Overtime Workhours; MS-AR-10-002; 4/26/2010                                        —          $79,646,787         $79,646,787                        —
Efficiency of Retail Customer Service Operations; MS-AR-10-004; 7/28/2010                     —          $613,695,129                 —                         —
Transportation
Air Networks – Federal Express Transportation Agreement – Capital Metro,            $170,587,930         $35,265,247                  —                         —
Eastern, Great Lakes, and Northeast Areas; NL-AR-10-005; 5/25/2010
Management of Mail Transport Equipment – National Analysis; NL-AR-10-009;                     —          $29,058,088                  —                         —
9/29/2010
Postal Vehicle Service Transportation Routes – Southern Maryland Processing and       $4,756,261                  —                   —                         —
Distribution Center; NL-AR-10-006; 7/14/2010
Postal Vehicle Service Transportation Routes – Washington Network Distribution        $2,791,349                  —                   —                         —
Center; NL-AR-10-007; 8/4/2010
Postal Vehicle Services – Scheduling and Staffing - Atlanta District;                $40,144,009                  —                   —                         —
NL-AR-10-008; 9/29/2010


FINANCIAL RISK
Financial Reporting
Summary of Substantial Overfunding and Postal Service Pension and Retiree Health   $8,708,458,327                 —                   —                         —
Care Funds; FT-MA-10-002; 9/30/2010
Territorial Cost of Living Allowance; FT-AR-10-012; 8/16/2010                                 —               $11,944                 —                         —
Fiscal Year 2010 Financial Installation Audit
Airway Road Finance Station Post Office – Dayton, OH; FF-AR-10-221; 8/31/2010                 —               $3,076              $3,076                        —
Bridgeville Business Mail Entry Unit – Bridgeville, PA; FF-AR-10-161; 5/11/2010               —                   —                   —                     $2,222
Caldwell Post Office – Caldwell, NJ; FF-AR-10-171; 5/24/2010                                  —                $1,127             $1,127                        —
Fort Point Station – Boston, MA; FF-AR-10-187; 6/24/2010                                      —               $3,223              $3,223                        —
Hammonton Post Office – Hammonton, NJ; FF-AR-10-162; 5/14/2010                                —                $1,593             $1,593                        —
Imperial Beach Post Office – Imperial Beach, CA; FF-AR-10-157; 4/28/2010                      —               $2,211                  —                         —
James A. Farley Business Mail Entry Unit – New York, NY; FF-AR-10-209;                        —                   —                   —                    $2,688
8/3/2010
Kilmer Lobby Branch – Edison, NJ; FF-AR-10-202; 7/19/2010                                     —               $4,848              $4,848                        —
Lebanon Junction Business Mail Entry Unit – Lebanon Junction,                                 —                   —                   —                   $27,910
KY; FF-AR-10-173; 6/2/2010
Manchester Business Mail Entry Unit – Manchester, NH; FF-AR-10-201; 7/19/2010                 —                   —                   —                     $8,510

Midland Business Mail Entry Unit – Midland, MI; FF-AR-10-219; 8/26/2010                       —                   —                   —                   $14,009
Morrisville Post Office – Morrisville, PA; FF-AR-10-186; 6/22/2010                            —                 $625               $625                       $631




                                                                                                                                  April 1 — September 30, 2010 | 29
APPENDIX A




                                                                                    Funds Put                             Unsupported
                                                                                 to Better Use    Questioned Costs    Questioned Costs    Revenue Impact
Nashville Post Office – Nashville, IN; FF-AR-10-185; 6/17/2010                              —               $4,550              $4,550                 —
Owings Mills Post Office – Owings Mills, MD; FF-AR-10-191; 7/1/2010                         —               $3,248              $3,248             $3,814
Philadelphia Main Office Station – Philadelphia, PA; FF-AR-10-213; 8/10/2010                —              $74,786             $74,786                 —
Pottstown Business Mail Entry Unit – Pottstown, PA; FF-AR-10-168; 5/24/2010                 —                   —                   —              $4,205
Randolph Post Office – Randolph, MA; FF-AR-10-208; 8/2/2010                                 —               $4,500                  —                  —
Richardson Business Mail Entry Unit – Richardson, TX; FF-AR-10-166;                         —                   —                   —              $1,604
5/19/2010
Human Resources and Security
Employee Benefit Programs; HR-MA-10-001; 9/30/2010                                $705,425,522                  —                   —                  —
Grievance Settlements and Payments; HR-AR-10-003; 7/1/2010                                  —           $27,782,853         $27,782,853                —
Use of Employees in Rehabilitation Status; HR-AR-10-002; 5/27/2010                $349,043,074                  —                   —                  —
Supply Management
Audit of Tom Roberts Realty U.S. Postal Service Contract; CA-CAR-10-010;                    —                  $73                  —                  —
7/28/2010
Bowe, Bell and Howell Proposal for the Mail Evaluation Readability Lookup                   —               $8,320              $8,320                 —
Instrument (MERLIN) Maintenance Support FY 2010; CA-CAR-10-004;
6/17/2010
Certification Process for Electronic Payments; CA-AR-10-006; 9/30/2010                      —        $5,587,653,734      $5,580,067,649                —
Contract Payment Terms; CA-AR-10-004; 5/27/2010                                             —           $12,189,632         $12,189,632                —
Labor Costs in the Northrop Grumman Information Systems Contract                            —             $503,513            $503,513                 —
2DPSCM05-B-3035; CA-CAR-10-005; 6/22/2010
Postal Service Purchasing Policies; CA-AR-10-005; 9/20/2010                                 —         $218,940,344        $218,940,344                 —
TOTAL                                                                          $ 11,502,017,298     $57,179,926,121      $5,919,236,174     $1,956,617,867




30 | Semiannual Report to Congress
                                                                                                                                                     APPENDIX A




Report Listing
Complete listing of all OIG reports issued to Postal Service management.

For the period April 1 — September 30, 2010


STRATEGIC RISK                                         Southeast Area Processing and Distribution Center     Field Financial
Capital Investments                                    Consolidations; EN-AR-10-006; 9/17/2010
                                                                                                             Fiscal Year 2009 Standard Mail Volume Incentive
Civil Service Retirement System Overpayment by         Stations and Branches Optimization and                Program; FF-AR-10-196; 7/16/2010
the Postal Service; CI-MA-10-001; 6/18/2010            Consolidation; EN-AR-10-005; 8/17/2010
                                                                                                             Fiscal Year 2010 PostalOne! Outage;
Cost, Revenue, and Rates                               Network Processing                                    FF-AR-10-205; 8/5/2010

Impact of Postal Accountability and Enhancement        Consolidation of Lima Processing and Distribution     Revenue for Official Mail from the House of
Act Price Caps; CRR-AR-10-005; 9/27/2010               Facility Mail Operations Into the Toledo Processing   Representatives Mailroom; FF-AR-10-210;
                                                       and Distribution Center;                              8/6/2010
Engineering and Facilities                             NO-AR-10-007; 7/2/2010
                                                                                                             Human Resources & Security
Capital Metro Area: Delivery Barcode Sorters           Sales and Service
Equipment Utilization; DA-AR-10-002; 5/7/2010                                                                Allegations of Inappropriate Methodologies in
                                                       Revenue Generation Strategic Report;                  a San Francisco Investigation; SA-MA-10-002;
eIDEAS Timeliness and Transparency;                    MS-MA-10-002; 9/28/2010                               9/29/2010
DA-MA-10-003; 8/3/2010
                                                                                                             Postal Service Security Clearance Requirements
Facility Energy: Metering Technologies;                                                                      for Air Transportation Contractors; SA-MA-10-001;
DA-AR-10-006; 7/2/2010                                 OPERATIONAL RISK
                                                                                                             4/29/2010
Facility Optimization: Chicago District;               Cost, Revenue, and Rates
                                                                                                             Move Update Program and Investigations;
DA-AR-10-009; 8/25/2010                                Controls Over System for International Revenue        SA-AR-10-001; 5/12/2010
Facility Optimization: New Jersey District;            and Volume, Outbound and International Origin-
                                                                                                             Information Technology
DA-AR-10-008; 8/25/2010                                Destination Information System; CRR-AR-10-006;
                                                       9/23/2010                                             L’Enfant Badge Access Controls; IS-AR-10-012;
Facility Optimization: New York District;                                                                    8/4/2010
DA-AR-10-010; 8/25/2010                                Cost and Revenue Analysis Reporting Model;
                                                       CRR-AR-10-003; 7/27/2010                              Modem Security at the Raleigh Information
Flats Sequencing System: Program Status and                                                                  Technology Service Center; IS-AR-10-009;
Projected Cash Flow; DA-AR-10-007; 7/27/2010           Delivery
                                                                                                             5/19/2010
Postal Service Patent Management;                      City Delivery Efficiency Review – Atlanta District;
                                                                                                             Access Controls Over the Electronic Data
DA-MA-10-004; 8/31/2010                                DR-AR-10-009; 9/24/2010
                                                                                                             Distribution Infrastructure; IS-AR-10-011;
Congressional Inquiry New Construction Project,        City Delivery Efficiency Review – Bay-Valley          7/29/2010
Waterloo, IA; DA-MA-10-002; 6/25/2010                  District; DR-AR-10-007; 8/26/2010
                                                                                                             Certification and Accreditation; IS-AR-10-008;
Delivery Vehicle Replacement Strategy;                 City Delivery Efficiency Reviews – Los Angeles        5/4/2010
DA-AR-10-005; 6/16/2010                                District; DR-AR-10-006; 7/1/2010
                                                                                                             External Public Key Infrastructure Services – Fiscal
Facilities Optimization Controls Over the Selling of   Flats Sequencing System – Columbus, OH, District;     Year 2010; IS-AR-10-013; 9/15/2010
Assets; DA-AR-10-004; 6/1/2010                         DR-MA-10-002; 9/17/2010
                                                                                                             Network Security Assessment of the National
Field Financial                                        Flats Sequencing System Operational Issues;           Customer Support Center; IS-AR-10-007;
                                                       DR-AR-10-005; 7/1/2010                                4/19/2010
Area and District Office Field Structure;
FF-AR-10-224; 9/17/2010                                The Effects of the Flats Sequencing System on         Controls Over Payment Card Transaction Data;
                                                       Delivery Operations – Mid-America District;           IS-AR-10-014; 9/23/2010
Network Optimization                                   DR-MA-10-001; 9/23/2010
                                                                                                             Securing Sensitive Data on Postal Inspection
Benchmarking Best Practices with Presort               Vehicle Parts Program; DR-AR-10-008; 9/24/2010        Service Laptops; IS-MA-10-001; 9/2/2010
Bureaus; EN-MA-10-004; 6/7/2010
                                                       Engineering & Facilities                              UNIX Operating System Master Controls;
Des Moines Network Distribution Center                                                                       IS-AR-10-010; 7/22/2010
Congressional Request; EN-MA-10-003; 5/4/2010          Automated Package Processing System Equipment
                                                       Maintenance Opportunities; DA-AR-10-003;
                                                       5/13/2010




                                                                                                                                    April 1 — September 30, 2010 | 31
APPENDIX A




Network Processing                                     FINANCIAL RISK                                        Columbus Business Mail Entry Unit –
Assessment of Overall Plant Efficiency 2010;           Cost, Revenue, and Rates                              Columbus, GA; FF-AR-10-176; 6/9/2010
NO-MA-10-001; 6/11/2010                                Advertising Cost Reporting; CRR-AR-10-004;            Driggs Post Office – Driggs, ID; FF-AR-10-193;
                                                       8/18/2010                                             7/6/2010
Charlottesville Processing and Distribution Facility
Consolidation; NO-AR-10-008; 8/3/2010                  Field Financial                                       Dunn Business Mail Entry Unit – Dunn, NC;
                                                                                                             FF-AR-10-142; 4/6/2010
Color-Coding of Standard Mail and Mail Condition       Statistical Tests for Fiscal Year 2010;
Reporting at the Austin Processing and Distribution    FF-AR-10-222; 9/14/2010                               Elkhart Business Mail Entry Unit – Elkhart, IN;
Center; NO-AR-10-010; 9/3/2010                                                                               FF-AR-10-198; 7/13/2010
                                                       Financial Reporting
Color-Coding of Standard Mail and Mail Condition                                                             Fitchburg Business Mail Entry Unit –
Reporting in the Northland District;                   Compliance with Bank Secrecy Act;                     Fitchburg, MA; FF-AR-10-190; 7/1/2010
NO-AR-10-006; 6/9/2010                                 FT-AR-10-014; 9/30/2010
                                                                                                             Fort Gay Post Office – Fort Gay, WV;
Internal Controls over Powered Industrial Vehicles     Independent Report on Employee Benefits,              FF-AR-10-160; 5/6/2010
at Sites Without the Powered Industrial Vehicle        Withholdings, Contributions, and Supplemental
                                                       Semiannual Headcount Reporting Submitted to the       Fort Point Station – Boston, MA; FF-AR-10-187;
Management System; NO-AR-10-009; 8/31/2010                                                                   6/24/2010
                                                       Office of Personnel Management; FT-AR-10-013;
Sales & Service                                        9/22/2010                                             Fort Worth Business Mail Entry Unit –
Electronic Postmark Program License Fees;              Federal Employees Retirement System                   Fort Worth, TX; FF-AR-10-223; 9/20/2010
MS-MA-10-001; 9/2/2010                                 Overfunding; FT-MA-10-001; 8/16/2010                  Franklin Square Business Mail Entry Unit –
Premium Pay at Bedford Park Computerized               Summary of Substantial Overfunding and Postal         Franklin Square, NY; FF-AR-10-150; 4/21/2010
Forwarding System Unit; MS-AR-10-006;                  Service Pension and Retiree Health Care Funds,        Fullerton Business Mail Entry Unit – Fullerton, CA;
8/30/2010                                              FT-MA-10-002; 9/30/2010                               FF-AR-10-140; 4/6/2010
Function 4 Overtime Workhours; MS-AR-10-002;           Territorial Cost of Living Allowance; FT-AR-10-012;   Glenwood Springs Post Office –
4/26/2010                                              8/16/2010                                             Glenwood Springs, CO; FF-AR-10-184; 6/17/2010
Staten Island and Brooklyn Business Mail Entry         Fiscal Year 2010 Financial Installation Audit         Hammonton Post Office – Hammonton, NJ;
Units Mail Verification Procedures; MS-AR-10-005;      Airway Road Finance Station Post Office –             FF-AR-10-162; 5/14/2010
8/30/2010                                              Dayton, OH; FF-AR-10-221; 8/31/2010                   Harpersfield Post Office – Harpersfield, NY;
First-Class and Standard Mail Workshare                Anchorage Business Mail Entry Unit –                  FF-AR-10-143; 4/7/2010
Discounts; MS-AR-10-003; 7/2/2010                      Anchorage, AK; FF-AR-10-189; 6/30/2010                Hazelwood Business Mail Entry Unit –
Efficiency of Retail Customer Service Operations;      Bardstown Business Mail Entry Unit –                  Hazelwood, MO; FF-AR-10-145; 4/7/2010
MS-AR-10-004; 7/28/2010                                Bardstown, KY; FF-AR-10-214; 8/10/2010                Hazelwood Post Office – Hazelwood, MO ;
Transportation                                         Barneveld Post Office – Barneveld, WI;                FF-AR-10-144; 4/7/2010
Air Networks – Federal Express Transportation          FF-AR-10-217; 8/19/2010                               Hudson Business Mail Entry Unit – Hudson, MA;
Agreement – National Analysis; NL-AR-10-010;           Bolingbroke Post Office – Bolingbroke, GA;            FF-AR-10-215; 8/19/2010
9/29/2010                                              FF-AR-10-183; 6/17/2010                               Imperial Beach Post Office – Imperial Beach, CA;
Air Networks – Federal Express Transportation          Boyertown Business Mail Entry Unit –                  FF-AR-10-157; 4/28/2010
Agreement – Capital Metro, Eastern, Great Lakes,       Boyertown, PA; FF-AR-10-199; 7/13/2010                Jacksonville Business Mail Entry Unit –
and Northeast Areas; NL-AR-10-005; 5/25/2010                                                                 Jacksonville, FL; FF-AR-10-164; 5/17/2010
                                                       Bridgeville Business Mail Entry Unit –
Management of Mail Transport Equipment –               Bridgeville, PA; FF-AR-10-161; 5/11/2010              Jacksonville Main Office Postal Store –
National Analysis; NL-AR-10-009; 9/29/2010                                                                   Jacksonville, FL; FF-AR-10-163; 5/17/2010
                                                       Burlington Post Office – Burlington, KS;
Postal Vehicle Service Transportation Routes –         FF-AR-10-172; 6/2/2010                                James A. Farley Business Mail Entry Unit –
Southern Maryland Processing and Distribution                                                                New York, NY; FF-AR-10-209; 8/3/2010
                                                       Caldwell Post Office – Caldwell, NJ;
Center; NL-AR-10-006; 7/14/2010
                                                       FF-AR-10-171; 5/24/2010                               Joelton Post Office – Joelton, TN; FF-AR-10-194;
Postal Vehicle Service Transportation Routes –         Camp Wood Post Office – Camp Wood, TX;                7/8/2010
Washington Network Distribution Center;                FF-AR-10-203; 7/22/2010                               Jonesboro Business Mail Entry Unit –
NL-AR-10-007; 8/4/2010
                                                       Chanhassen Business Mail Entry Unit –                 Jonesboro, AR; FF-AR-10-216; 8/19/2010
Postal Vehicle Services - Scheduling and Staffing –    Chanhassen, MN; FF-AR-10-170; 5/24/2010
Atlanta District; NL-AR-10-008; 9/29/2010




32 | Semiannual Report to Congress
                                                                                                                                                     APPENDIX A




Kailua Kona Business Mail Entry Unit –                Park Hills Post Office – Park Hills MO;                Human Resources and Security
Kailua Kona, HI; FF-AR-10-158; 5/4/2010               FF-AR-10-159; 5/5/2010                                 Employee Benefit Programs; HR-MA-10-001;
Kalispell Business Mail Entry Unit – Kalispell, MT;   Philadelphia Main Office Station – Philadelphia, PA;   9/3/2010
FF-AR-10-206; 8/2/2010                                FF-AR-10-213; 8/10/2010                                Employee Layoff Provisions; HR-MA-10-002;
Kerkhoven Post Office – Kerkhoven, MN;                Philomath Post Office – Philomath, OR;                 9/30/2010
FF-AR-10-211; 8/6/2010                                FF-AR-10-165; 5/18/2010                                Grievance Settlements and Payments;
Kilmer Lobby Branch – Edison, NJ; FF-AR-10-202;       Plainview Branch, Plainview, NY; FF-AR-10-220;         HR-AR-10-003; 7/1/2010
7/19/2010                                             8/31/2010                                              Use of Employees in Rehabilitation Status;
Lansing Business Mail Entry Unit – Lansing MI;        Portland Downtown Station Post Office –                HR-AR-10-002; 5/27/2010
FF-AR-10-218; 8/24/2010                               Portland, ME; FF-AR-10-156; 4/26/2010                  Supply Management
Le Mars Post Office – Le Mars, IA; FF-AR-10-153;      Pottstown Business Mail Entry Unit –                   Accenture Labor Floor Check for Fiscal Year 2009;
4/23/2010                                             Pottstown, PA; FF-AR-10-168; 5/24/2010                 CA-CAR-10-013; 9/28/2010
Lebanon Junction Business Mail Entry Unit –           Prestonsburg Business Mail Entry Unit –                Audit of Tom Roberts Realty U.S. Postal Service
Lebanon Junction, KY; FF-AR-10-173; 6/2/2010          Prestonsburg, KY; FF-AR-10-197; 7/13/2010              Contract; CA-CAR-10-010; 7/28/2010
Lexington Main Post Office – Lexington, KY;           Randolph Post Office – Randolph, MA;                   Bowe, Bell and Howell Proposal for the Mail
FF-AR-10-146; 4/9/2010                                FF-AR-10-208; 8/2/2010                                 Evaluation Readability Lookup Instrument (MERLIN)
Lihue Business Mail Entry Unit – Lihue, HI;           Reidsville Business Mail Entry Unit –                  Maintenance Support FY 2010; CA-CAR-10-004;
FF-AR-10-154; 4/23/2010                               Reidsville, NC; FF-AR-10-178; 6/9/2010                 6/17/2010
Lilbourn Post Office – Lilbourn, MO;                  Richardson Business Mail Entry Unit –                  Modified Financial Capability Risk Assessment –
FF-AR-10-149; 4/20/2010                               Richardson, TX; FF-AR-10-166; 5/19/2010                BrightKey, Inc.; CA-CAR-10-012; 8/25/2010
Long Island City Business Mail Entry Unit –           Ridgeland Business Mail Entry Unit –                   Certification Process for Electronic Payments;
Long Island City, NY; FF-AR-10-167; 5/20/2010         Ridgeland, SC; FF-AR-10-188; 6/28/2010                 CA-AR-10-006; 9/30/2010
Lynchburg Business Mail Entry Unit –                  Rome Post Office – Rome, NY; FF-AR-10-155;             Contract Payment Terms; CA-AR-10-004;
Lynchburg, VA; FF-AR-10-212; 8/10/2010                4/26/2010                                              5/27/2010
Madelia Business Mail Entry Unit – Madelia, MN;       San Jose Business Mail Entry Unit – San Jose, CA;      Detailed Financial Capability Risk Assessment
FF-AR-10-151; 4/21/2010                               FF-AR-10-147; 4/19/2010                                North American Conveyor, Inc.; CA-CAR-10-006;
Manchester Business Mail Entry Unit –                 Sandusky Post Office – Sandusky, MI;                   7/9/2010
Manchester, NH; FF-AR-10-201; 7/19/2010               FF-AR-10-182; 6/16/2010                                Modified Financial Capability Risk Assessment
Margaret L. Sellers Business Mail Entry Unit –        Shakopee Business Mail Entry Unit –                    BrightKey, Inc.; CA-CAR-10-007; 7/12/2010
San Diego, CA; FF-AR-10-141; 4/6/2010                 Shakopee, MN; FF-AR-10-204; 7/28/2010                  Labor Costs in the Northrop Grumman Information
Midland Business Mail Entry Unit – Midland, MI;       Slayton Business Mail Entry Unit – Slayton, MN;        Systems Contract 2DPSCM05-B-3035;
FF-AR-10-219; 8/26/2010                               FF-AR-10-195; 7/12/2010                                CA-CAR-10-005; 6/22/2010

Midtown Station Business Mail Entry Unit –            Stillwater Post Office – Stillwater, MN;               Modified Financial Capability Risk Assessment of
Ocean City, MD; FF-AR-10-152; 4/22/2010               FF-AR-10-192; 7/6/2010                                 OfficeMax, Inc.; CA-CAR-10-009; 7/28/2010

Morrisville Post Office – Morrisville, PA;            Waianae Post Office – Waianae, HI;                     Modified Financial Capability Risk Assessment –
FF-AR-10-186; 6/22/2010                               FF-AR-10-148; 4/20/2010                                Pitney Bowes, Inc.; CA-CAR-10-008; 7/28/2010

Mount Pleasant Post Office – Mount Pleasant, IA;      Weatherford Business Mail Entry Unit –                 Postal Service Purchasing Policies;
FF-AR-10-169; 5/24/2010                               Weatherford, TX; FF-AR-10-180; 6/11/2010               CA-AR-10-005; 9/20/2010

Nashville Post Office – Nashville, IN;                Westbury Business Mail Entry Unit – Westbury, NY;      Ruhl & Ruhl Commercial Company U.S. Postal
FF-AR-10-185; 6/17/2010                               FF-AR-10-181; 6/15/2010                                Service Contract; CA-CAR-10-011; 8/4/2010

New Albany Post Office – New Albany, MS;              Wilton Business Mail Entry Unit – Wilton, NH;          Ryder Integrated Logistics, Incorporated Key
FF-AR-10-200; 7/19/2010                               FF-AR-10-175; 6/4/2010                                 Performance Indicators for Calendar Year 2008;
                                                                                                             CA-CAR-10-003; 4/29/2010
Newburgh Main Post Office – Newburgh, IN;             Yazoo City Business Mail Entry Unit –
FF-AR-10-177; 6/8/2010                                Yazoo City, MS; FF-AR-10-174; 6/4/2010
Owings Mills Post Office – Owings Mills, MD;
FF-AR-10-191; 7/1/2010




                                                                                                                                    April 1 — September 30, 2010 | 33
                                                                                                                                                         APPENDIX B




APPENDIX B
Findings of Questioned Costs
For the period April 1 — September 30, 2010



As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of questioned costs in audit reports.

Questioned Cost: A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or contract.

                                                                                                                                                Unsupported Costs
                                                                                                                                                       Included in
Description                                                                                      Number of Reports      Questioned Costs         Questioned Costs
Reports for which no management decision was made at the beginning of the reporting period                       7              $1,243,752                     $127,168
Reports requiring management decision that were issued during the reporting period                              34          $57,179,926,121              $5,919,236,174
TOTAL                                                                                                           41         $57,181,169,873           $5,919,363,342


Reports for which a management decision was made during the reporting period (i & ii)                           38         $57,180,357,629               $5,919,363,342
   (i) Dollar Value of disallowed cost                                                                                     $51,424,841,558                 $219,102,457
   (ii) Dollar value of cost not disallowed                                                                                 $5,755,516,071               $5,700,260,885
Reports for which no management decision was made by the end of the reporting period                             3                $812,244                          —
Negotiations are ongoing
Reports for which no management decision was made within 6 months of issuance                                  —                        —                           —
(See Note 1 for a list of individual reports)
Reports for which no management decision was made within 1 year of issuance                                      2                $812,171                          —
(See Note 2 for a list of individual reports)
Contract reports with a significant audit finding                                                              —                        —                           —
(See Note 3 for a list of individual reports)


Note 1 — Reports for which no management decision was made within 6 months of issuance:
None for this report period

Note 2 — Reports for which no management decision was made within 1 year of issuance:

                                                                                                                                      Unsupported Costs Included
Subject                                                        Report/Case Number            Report Date    Questioned Costs                 in Questioned Costs
Audit of Portions of a Termination for Convenience                      CA-CAR-09-011          3/16/2009             $475,322                                       —
Settlement Proposal Submitted by Northrop Grumman
Electronic Systems
Termination Settlement Proposal Submitted by C.R.                       CA-CAR-09-019          7/24/2009             $336,849                                       —
Daniels, Incorporated
TOTAL                                                                                                                $812,171                                       —


Note 3 — Contract reports with a significant audit finding:
None for this report period




34 | Semiannual Report to Congress
APPENDIX C




APPENDIX C
Recommendations That Funds Be Put to Better Use
For the period April 1 — September 30, 2010

As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of recommendations for funds that can be put to
better use by management.

Funds Put to Better Use: Funds that could be used more efficiently by implementing recommended actions.



Description                                                                                  Number of Reports     Dollar Value
Reports for which no management decision was made at the beginning of the reporting period                 —                 —
Reports issued during the reporting period                                                                  21   $11,502,017,298
TOTAL                                                                                                       21   $11,502,017,298


Reports for which a management decision was made during the report period (i & ii)                          20   $11,468,032,953
   (i) Value of recommendations agreed to by management                                                    —     $ 9,416,026,433
   (ii) Value of recommendations that were not agreed to by management                                     —     $ 2,052,006,520
Reports for which no management decision was made by the end of the reporting period                         1      $ 33,984,345
Reports for which no management decision was made within 6 months of issuance                              —                 —
(See Note 1 for a list of individual reports)
Reports for which no management decision was made within 1 year of issuance                                —                 —
(See Note 2 for a list of individual reports)


Note 1 — Reports for which no management decision was made within 6 months of issuance:
None for this report period


Note 2 — Reports for which no management decision was made within 1 year of issuance:
None for this report period




                                                                                                                                     April 1 — September 30, 2010 | 35
                                                                                                                                                                      APPENDIX D




APPENDIX D
Reported Non-Monetary Benefits
For the period April 1 — September 30, 2010

Overview

Many of our audit reports identify areas for improvement that result in non-monetary benefits to the Postal Service. These benefits include improvements to
service, protection of assets and improvements in the reliability of data.



                                                                                                                                     Type of Measure               Value or Amount
IMPROVED SERVICE
Recommendations that address the Postal Service’s efforts to improve the quality and accessibility of its products                   Number of Recommendations                   55
and services
Number of customer service audits conducted                                                                                          Number of Audits                            25


SAFEGUARDING ASSETS
Assets or Accountable Items at Risk
Inadequate internal controls put the value of assets or accountable items (such as cash and stamps) at risk of loss                  Dollar Value                     $1,112,483,223
Physical Safety and Security
Dollar value of physical assets (plant, computer equipment, vehicles, and so forth) at risk of loss due to inadequate                Dollar Value                                —
physical protection
Recommendations that address the safety and security of Postal Service employees and/or the work environment                         Number of Recommendations                   17
Number of employee/facility safety and security audits conducted                                                                     Number of Audits                            25
Information Technology Security
Inadequate controls/protection put the value of data, IT assets (software, networks), and employee work time at risk of loss         Dollar Value                                —
Dollar value of data at risk                                                                                                         Dollar Value                      $364,090,402
Number of data security/IT security audits conducted                                                                                 Number of Audits                            21
Revenue at Risk
Dollar value of revenue that the Postal Service is at risk of losing. (Mailers seeking alternative solutions for current services)   Dollar Value                     $ 752,289,397
Disbursements at Risk
Dollar value of disbursements made where proper Postal Service internal controls and processes were not followed                     Dollar Value                            $9,506
Goodwill / Branding
An “adverse impact” on goodwill is an actual event/problem that harms the Postal Service’s reputation or a                           Number of Issues Identified                 28
potential problem that could negatively impact the Postal Service “brand name”
Misallocation of Costs
A misallocation of costs can occur when Postal Service costs are misclassified as volume variable, product specific, or              Dollar Value                       $75,007,596
institutional costs
Capital Investment Savings Shortfall
The difference between the savings predicted by the Decision Analysis Report for capital investment projects and the                 Dollar Value                      $431,088,520
actual savings realized
Potential Additional Revenue
Revenue the Postal Service could potentially generate for goods delivered or services rendered based on suggested                    Dollar Value                    $9,734,237,193
improvements




36 | Semiannual Report to Congress
                                                                                                                                                                 APPENDIX D




                                                                                                               Type of Measure                              Value or Amount

RELIABILITY OF DATA
Records at Risk
Data at risk of corruption or loss due to inadequate internal controls and or protection                       Number of Data Records at Risk                                 —
Dollar value of data used to support management decisions that is not fully supported or completely accurate   Dollar Value                                       $910,965,964




                                                                                                                                                April 1 — September 30, 2010 | 37
APPENDIX E




APPENDIX E
Reports with Significant Recommendations Pending Corrective Actions
For the period through September 30, 2010

As required by the IG Act, the following pages include a list of each audit report for which no management decision has been made by the end of the
reporting period.



                                                  Report Title, Recommendation Summary
                                                         	 R = Recommendation number
 Report Number                Issue Date                 	 TID = Target Implementation Date
 NO-AR-05-011                 6/17/2005           Efficiency of the Los Angeles International Service Center

                                                  R-1 — Reduce mail processing workhours by 85,000, based on FY 2004 workhours. This will produce a cost avoidance of
                                                        approximately $26.1 million, based on labor savings over a 10-year period. TID: October 2010*
 HM-AR-06-006                 8/29/2006           Postal Service’s Grievance-Arbitration Service Centers

                                                  R-8 — Use electronic commerce to process arbitrator invoices, thus reducing the number of steps required for invoice payment.
                                                        This would be consistent with Postal Service principles, which state electronic commerce with suppliers is a major enabler of
                                                        transactional cost reductions. TID: September 2012*
 SA-AR-07-002                 3/30/2007           Postal Service Security Controls and Processes for the Capital Metro Area

                                                  R-1 — Establish and provide consolidated standard operating procedures and guidance to the Area Security Coordinator, District
                                                        Security Control Officers, and facility Security Control Officers to assist them in performing their duties and responsibilities
                                                        consistently and in a timely manner. TID: June 2010

                                                  R-5 — Develop appropriate performance measures for physical security to assess the achievement of security goals and incorporate
                                                        them into performance plans for area-, district-, and field-level security personnel. TID: December 2010
 SA-AR-07-003                 5/9/2007            Postal Service Security Controls and Processes for the Pacific Area

                                                  R-2 — Develop appropriate performance measures for physical security to assess the achievement of security goals and incorporate
                                                        them into performance plans for area-, district-, and field-level security personnel. TID: December 2010
 HM-AR-07-002                 5/16/2007           Postal Service’s Workplace Safety and Workplace-Related Injury Reduction Goals and Progress

                                                  R-1 — Closely monitor conversion to the SAP Environmental Health and Safety module and, as soon as possible, ensure the
                                                        upgraded system captures costs by facility, district/performance cluster, and area office as well as the costs for the following
                                                        key categories:
                                                             Non-injury accidents.
                                                             Injury accidents.
                                                             Type of injury.
                                                             Type of illness.
                                                             Per employee.
                                                        TID: September 2011
 IS-AR-07-016                 8/20/2007           Audit of Database Administration Practices

                                                  R-2 — Establish policies and procedures for protecting and using sensitive and business-controlled sensitive data in test,
                                                        development, and production environments. TID: March 2011



 * Management has implemented our recommended corrective action.




38 | Semiannual Report to Congress
                                                                                                                                                       APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
IS-AR-07-017    8/29/2007    Separation of Duties at the Eagan, MN; San Mateo, CA; and St. Louis, MO, Information Technology
                             and Accounting Service Centers

                             R-1 — Assess the risk of the duties of all Information Technology and Accounting Service Center positions (career and non-career)
                                   for the purpose of assigning these positions as sensitive. TID: March 2011

                             R-4 — Notify the Postal Inspection Service when a new Information Technology and Accounting Service Center position is created, a
                                   new employee is hired, or an employee is promoted to a new position, to make certain the proper clearance level is attributed
                                   to the employee. TID: March 2011
CRR-AR-08-002   2/12/2008    Security Review of the Electronic Verification System

                             R-2 — Revise Publication 91, Confirmation Services Technical Guide, to require mailers to utilize a secure file transfer method when
                                   transmitting manifests for electronic verification to the Postal Service. TID: November 2011
FF-AR-08-131    3/19/2008    Fiscal Year 2007 Financial Installation Audits – Business Mail Entry Units

                             R-2 — Provide proper management oversight and instructions to schedule periodic verifications when Periodicals mailings are
                                   received during non-business hours. TID: May 2011
FT-AR-08-010    3/31/2008    Fiscal Year 2007 Postal Service Financial Statements Audit – St. Louis Information Technology and Accounting Service
                             Center
                             R-2 — Modify policies and procedures to include the destination facility validation in the highway extra trips payment process.
                                   TID: October 2010*
DA-AR-08-006    6/4/2008     Flats Sequencing System: Production First Article Testing Readiness and Quality

                             R-4 — Develop a recovery schedule to ensure the Preliminary Production Baseline Technical Data Package will be available before
                                   the production First Article Test begins. TID: September 2010*

                             R-5 — Ensure that initial Maintenance Diagnostic and Support System and the Program Control System functionalities are available
                                   for First Article Testing and develop a schedule for future design releases. TID: January 2011

                             R-7 — Ensure that supplier(s) follow the quality control plan and the configuration control process and validate that the first five
                                   production systems are built to the same drawing configuration. TID: June 2011
FF-MA-08-001    7/21/2008    Fiscal Year 2008 – Use of No-Fee Money Orders

                             R-2 — Evaluate the feasibility of restricting the use of no-fee money orders for local purchases to reduce the Postal Service’s
                                   exposure to financial loss. TID: March 2011
SA-AR-08-008    7/23/2008    Leased Facility Maintenance Responsibility in the Great Lakes Area
                             R-2 — Require the Great Lakes Facilities Service Office to collect $62,625 in recoverable supported questioned costs.
                                   TID: January 2013*
SA-AR-08-009    7/23/2008    Postal Service Continuity of Operations for the Great Lakes Area

                             R-1 — Update the contact information of key continuity of operations personnel at least semiannually, or more often as changes
                                   occur. TID: December 2010

                             R-2 — Complete continuity of operations training, including Postal Alert and Notification System training. TID: December 2010

                             R-3 — Identify and prioritize essential functions. TID: December 2010

                             R-4 — Establish a formal review process to ensure continuity of operations plans are completed, updated annually, and maintained in
                                   the Postal Alert and Notification System, as required. TID: December 2010

                             R-5 — Establish an area emergency management coordinating committee to provide oversight and assistance to district and facility
                                   emergency management teams in establishing, implementing, and reviewing emergency management plans. TID: December
                                   2010

                             R-6 — Establish specific guidance for identifying and selecting alternate facilities including, at a minimum, the number of alternate
                                   facilities that should be identified, and criteria regarding location, mail volume, and mail capacity. TID: December 2010

                             R-7 — Require personnel responsible for continuity of operations at primary and alternate facilities to conduct tests and exercises to
                                   ensure alternate facilities can effectively process the primary facilities’ mail. TID: December 2010




                                                                                                                                     April 1 — September 30, 2010 | 39
APPENDIX E




                                                   Report Title, Recommendation Summary
                                                          	 R = Recommendation number
Report Number                 Issue Date                  	 TID = Target Implementation Date
SA-AR-08-010                  7/24/2008            Postal Service Continuity of Operations for the Pacific Area

                                                   R-1 — Ensure continuity of operations plans are completed, updated annually, and maintained in the Postal Alert Notification
                                                         System, as required. TID: December 2010
SA-AR-08-013                  8/22/2008            Security Clearances for Postal Service Employees

                                                   R-1 — Establish and implement a policy to periodically assess risks associated with the duties of all Postal Service positions to
                                                         determine which positions require a security clearance. TID: March 2011

                                                   R-2 — Revise the Administrative Support Manual, as appropriate, to reflect changes to the list of positions requiring a security
                                                         clearance. TID: March 2011
IS-AR-08-016                  8/29/2008            Identity Theft Potential in the Change of Address Process

                                                   R-1 — Update the Internet and Telephone Change of Address applications to eliminate acceptance of anonymous prepaid credit
                                                         cards. TID: December 2010
IS-AR-09-001                  10/8/2008            Electronic Travel Voucher System Controls

                                                   R-1 — Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to arrange for lodging at the prevailing
                                                         government lodging rate, whenever practical. TID: March 2011

                                                   R-2 — Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to obtain prior approval and justify exceeding
                                                         the government lodging rate within the notes on the electronic voucher. TID: March 2011

                                                   R-3 — Customize the Electronic Travel Voucher System Controls (ETVS) to require the traveler to input a value in the room tax field
                                                         (even if the room tax is zero) or provide the traveler with a check box to indicate taxes not applicable in cases where the
                                                         lodging stay is tax exempt. TID: March 2011

                                                   R-4 — Customize the ETVS to remove the option to combine room rate and room taxes into a single entry. TID: March 2011
FF-AR-09-055                  12/26/2008           Fiscal Year 2008 Financial Installation Audits — Post Offices, Stations, and Branches

                                                   R-5 — Issue guidance to the field to destroy all copies of Postal Service Form 1096 receipts and determine when all forms have
                                                         been destroyed. TID: February 2012
FT-MA-09-001                  1/13/2009            Postal Service Management Instruction — Expenses for Internal and External Events

                                                   R-2 — Further update Management Instruction FM-640-2008-1, Expenses for Internal and External Events, to require that all
                                                         expenses associated with internal and external events be included in a unique general ledger account(s). TID: September
                                                         2011
IS-AR-09-004                  2/20/2009            Access Controls in the Enterprise Data Warehouse

                                                   R-3 — Update the Business Impact Assessment for the Enterprise Data Warehouse and recertify the system as required by Postal
                                                         Service Handbook AS-805-A, Application Information Security Assurance (ISA) Process. TID: December 2010
DR-MA-09-001                  3/26/2009 (reissue   Management of City Letter Carriers’ Street Performance
                              date)
                                                   R-1 — Revise existing Postal Service policies and standard operating procedures to reduce from eight to four the number of required
                                                         Delivery Operations Information System reports to aid supervisors in managing carrier street performance. TID: October
                                                         2011

                                                   R-2 — Modify the Delivery Operations Information System Route/Carrier Daily Performance Analysis Report to show “exceptions”
                                                         (such as the only actual route times varying from projected route times). TID: October 2011

                                                   R-5 — Deploy additional Global Positioning System technology for 400 motorized city routes in the Chicago District for more effective
                                                         monitoring and tracking during street delivery. TID: August 2010




40 | Semiannual Report to Congress
                                                                                                                                                  APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
MS-AR-09-006    3/31/2009    Intelligent Mail/Seamless Acceptance Project Management

                             R-1 — Quantify strategic benefits to the Postal Service and mailers. TID: October 2009

                             R-4 — Incorporate effort-based workhour requirement estimates into work plans for future project releases. TID: September 2009

                             R-5 — Develop a risk management plan to address project risks. The plan should define a process for conducting risk management
                                   activities. TID: None

                             R-6 — Develop a procurement plan consistent with the Postal Service’s purchasing guidelines to manage procurements related to
                                   the project. TID: September 2009
MS-AR-09-008    5/28/2009    Mail Processing Equipment’s Ability To Read Postage On First-Class Mail Letters

                             R-3 — Determine the feasibility of modifying the Advanced Facer Canceller System to include postage due and fraudulent postage
                                   detection software (including detection of reused stamps).TID: September 2010

                             R-4 — Determine the feasibility of mandating that all postage payment methods be encoded with standardized symbol coding,
                                   special ink, barcode or other tracking device to allow the Advanced Facer Canceller System to read postage amounts. TID:
                                   June 2011

                             R-5 — Reevaluate the phosphorescence coding methodology to include raising the coding denomination from the current 10-cent
                                   stamp to the current price of a First-Class stamp. TID: June 2011

                             R-6 — Determine the causes of shortpaid and overpaid postage validation imprinter labels on First-Class letters and develop
                                   awareness training for retail employees. TID: August 2009
CA-AR-09-005    6/1/2009     Supply Management’s Oversight of Oversight of Delegations of Authority

                             R-2 — Remind delegatees of their responsibility to ensure compliance with their delegation of authority letters and require them to
                                   certify they have instituted a system of controls and oversight to ensure:
                                      Best value determinations are performed and documented.
                                      Annual reports are developed and provided to Supply Management detailing financial activities, including the number of
                                        contracts or agreements entered into and associated expenditures.
                                      Annual ethics training is completed and documented for staff involved in administering contracts or agreements.
                                        TID: December 2010
                             R-3 — Require the Travel, Retail, and Temporary Services Category Management Center to develop procedures for collecting
                                   reports required under the delegations of authority and for reviewing delegatees’ control and oversight systems to ensure
                                   that delegation of authority letter minimum control requirements are met. If minimum control requirements are not met,
                                   discontinuation should be considered, with the results and justification documented in an oversight file. TID: December 2010
NL-MA-09-001    8/5/2009     Fuel Management Initiatives for Surface Network Operations – Fuel Purchasing Strategy

                             R-3 — Ensure adequate consideration of project management principles and best practices outlined in the report in planning and
                                   implementing the national fuel purchasing strategy, including development of a project management plan with project goals,
                                   performance measures, baselines and target dates, changes to target dates, and documented reasons for changes.
                                   TID: November 2010

                             R-4 — Develop a risk mitigation plan to address major project risks to help achieve the stated goals of the national fuel purchasing
                                   strategy. TID: November 2010

                             R-5 — Develop measurement factors to monitor achievement of the stated goals of the national fuel purchasing strategy and
                                   consider including these factors as part of the National Performance Assessment plan, as appropriate. TID: November 2010
CRR-AR-09-006   8/19/2009    Electronic Verification System Rejected Transactions

                             R-1 — Develop and implement requirements to identify and track all rejected electronic verification system transactions to ensure
                                   mailers correct and resubmit the transactions for processing. TID: November 2010




                                                                                                                                 April 1 — September 30, 2010 | 41
APPENDIX E




                                          Report Title, Recommendation Summary
                                                 	 R = Recommendation number
Report Number                Issue Date          	 TID = Target Implementation Date
NO-AR-09-012                 9/25/2009    Sunday Mail Processing Operations

                                          R-1 — Reduce 83,000 workhours by the end of FY 2010 with an associated economic impact of approximately $38 million over a
                                                10-year period. TID: October 2011
DR-AR-09-009                 9/28/2009    Delivery Vehicle Fuel Management

                                          R-1 — Consider expansion of mobile fueling for city and rural delivery units with 30 or more routes using Postal Service-owned
                                                vehicles, as well as other delivery units as necessary, as part of the Postal Service’s national fuel purchasing strategy.
                                                TID: September 2010
DR-AR-09-010                 9/28/2009    Management of Delivery Point Sequencing Percentage Increases for City Delivery – Nationwide Review

                                          R-2 — Require district officials to prioritize and execute tasks, such as updating address databases, monitoring and removing
                                                M-records; identifying and resolving sortation issues; and handling non-Delivery Point Sequencing mail in their delivery units.
                                                TID: December 2010
                                          R-3 — Develop and execute an action plan to mitigate low city Delivery Point Sequencing percentages in delivery units.
                                                TID: December 2010
                                          R-4 — Ensure accountability of Delivery Point Sequencing (DPS) Improvement team members for completing assigned tasks to
                                                increase and sustain city delivery DPS percentages and reduce operating costs. TID: December 2010
EN-AR-09-005                 9/28/2009    Performance Goals for Market-Dominant Products

                                          R-1 — Document the method used to develop future performance goals for market-dominant products. TID: January 2013
IS-AR-09-013                 9/29/2009    Business Partner Connectivity – Leased Line Firewalls

                                          R-1 — Collaborate with executive sponsors to review and validate all business partner connections to Postal Service information
                                                resources and notify the Network Connectivity Review Board to terminate connections no longer required. TID: June 2011*

                                          R-2 — Designate the portfolio managers responsible for informing the Network Connectivity Review Board when a business partner
                                                connection is no longer required. TID: October 2011*

                                          R-3 — Designate the portfolio managers responsible for periodically reviewing and validating business partner connectivity to Postal
                                                Service networks. TID: October 2011*
SA-AR-09-008                 9/29/2009    Postal Service Aviation Security Capping Report

                                          R-1 — Strengthen internal controls requiring management reviews to ensure corrective actions are taken to improve the
                                                performance of noncompliant offices. TID: November 2010
                                          R-2 — Develop and implement performance measures or other appropriate evaluation factors to improve operations’ personnel
                                                performance in following established policies and procedures for detecting and preventing anonymous and potentially
                                                dangerous mail from entering the mailstream. TID: November 2010
NL-AR-09-010                 9/30/2009    Fuel Management Consumption Strategies for Surface Network Operations

                                          R-1 — Revise the fuel consumption strategy for surface network operations covering Postal Service and HCR transportation to
                                                ensure that it is comprehensive and implements the industry best practices identified in our audit. TID: October 2010
                                          R-2 — Assess and implement all opportunities for owned, leased, and contracted vehicles to use technology to reduce wind
                                                resistance, identify the most viable advanced aerodynamics options consistent with industry best practices, and adjust
                                                contracts as appropriate to account for the reduced fuel need. TID: October 2010

                                          R-3 — Establish and implement tire inflation maintenance requirements for postal-owned heavy-duty vehicle fleet, leased, and
                                                contracted vehicles consistent with industry best practices. Adjust contracts, as appropriate, to account for the reduced fuel
                                                need. TID: October 2010

                                          R-5 — Evaluate HCR routes and, where feasible, implement speed limit requirements consistent with industry best practices, without
                                                negatively impacting service and adjust contracts as appropriate to account for the reduced fuel need. TID: October 2010




42 | Semiannual Report to Congress
                                                                                                                                                   APPENDIX E




                              Report Title, Recommendation Summary
                                     	 R = Recommendation number
Report Number   Issue Date           	 TID = Target Implementation Date
DR-AR-10-001    10/15/2009   Use of the Carrier Optimal Routing System

                             R-1 — Resolve the system and application problems with Web Carrier Optimal Routing (WebCOR) and implement the web-based
                                   program nationwide. TID: October 2010

                             R-2 — Select and train at least four individuals as Carrier Optimal Routing system subject matter experts as mandated by Postal
                                   Service Headquarters; complete the Data Preparation Process to include using current PS Forms 3999, Inspection of the
                                   Letter Carrier Route; and complete all route adjustments using the COR system. TID: December 2010

                             R-3 — Ensure area officials mandate districts to track and monitor vehicle mileage changes in the COR system.
                                   TID: January 2011
FF-AR-10-033    12/4/2009    Use of No-Fee Money Orders Follow-Up Audit

                             R-1 — Instruct area and district management to provide training to retail associates and local unit management on use of reason
                                   codes, payment processes, and closeout procedures. TID: December 2010

                             R-2 — Reinforce procedures regarding proper use of no-fee money orders in readily accessible messaging to sales and service
                                   associates. TID: December 2010

                             R-3 — Create a change in Point-of-Service to require supervisory approval in order for a no-fee money order to be issued, or develop
                                   other controls that would enhance supervisory oversight of the issuance of no-fee money orders. TID: December 2010

                             R-4 — Instruct local units to maintain supporting documentation for no-fee money order transactions for the required retention
                                   period. TID: December 2010
DR-AR-10-002    12/18/2009   City Delivery Efficiency Review – San Francisco Napoleon Street Station

                             R-1 — Reduce workhours by 54,975 at the San Francisco Napoleon Street Station with an associated economic impact of more
                                   than $21.3 million over 10 years. TID: December 2012
IS-AR-10-002    12/22/2009   General Control Review of Human Resources Shared Service Center

                             R-1 — Designate as sensitive those positions at the Human Resources Shared Service Center (HRSSC) that require access to
                                   personally identifiable information. TID: March 2011

                             R-2 — Initiate appropriate security clearance investigations for all employees in sensitive positions at the HRSSC.
                                   TID: March 2011

                             R-5 — Revise Handbook AS-805, Information Security, to clarify the approval process for wireless access points on the Postal
                                   Service network. TID: May 2011
NL-AR-10-002    12/28/2009   Postal Vehicle Service Transportation Routes – Cardiss Collins Processing and Distribution Center

                             R-1 — Ensure that Cardiss Collins P&DC managers follow prescribed fleet management procedures for making Postal Vehicle
                                   Service (PVS) schedules effective, including conducting schedule and vehicle utilization reviews. TID: July 2010
                             R-2 — Verify elimination of the 43,264 workhours already agreed to by local and area management from PVS trip schedules.
                                   TID: October 2010
EN-AR-10-001    1/7/2010     Status Report on Postal Service’s Network Rationalization Initiatives

                             R-1 — Develop and document specific criteria to identify consolidation opportunities in the plant network. TID: December 2010

                             R-2 — Develop a periodic (annual) review process using a top-down methodology to ensure consistency in identifying
                                   consolidation opportunities. TID: March 2011
DA-MA-10-001    1/28/2010    Sustainability: Promoting Energy and Recycling Compliance Fiscal Year 2009
                             R-1 — Issue written guidance to installation managers to encourage the use of more remote building management systems.
                                   TID: March 2011
MS-AR-10-001    2/9/2010     Plant-Verified Drop Shipment Controls

                             R-4 — Provide an electronic reporting solution whereby PS Form 8125, Plant-Verified Drop Shipment Verification and Clearance,
                                   information at the destination facility can be compared with the information at the origin location. Discrepancies or
                                   incomplete forms should be investigated. TID: December 2012




                                                                                                                                 April 1 — September 30, 2010 | 43
APPENDIX E




                                              Report Title, Recommendation Summary
                                                     	 R = Recommendation number
   Report Number                Issue Date           	 TID = Target Implementation Date
   EN-AR-10-003                  2/12/2010   Manasota Processing and Distribution Center Consolidation

                                             R-1 — Ensure the implementation activities of processing and distribution center consolidations begin immediately after area mail
                                                   processing proposal approval and require headquarters’ approval when implementation is delayed more than 3 months.
                                                   TID: May 2011
   HM-AR-10-001                  2/18/2010   Postal Service Absenteeism

                                             R-1 — Provide refresher training to supervisors to ensure they are aware of unscheduled leave policies and procedures and the
                                                   importance of following them. TID: September 2010*

                                             R-2 — Establish and implement internal controls to evaluate supervisors’ compliance with unscheduled leave policies and procedures
                                                   (such as performance and accountability measures or periodic management reviews). TID: July 2010*

                                             R-3 — Require supervisors and labor relations specialists to use the Enterprise Resource Management System to record employees’
                                                  inability to meet position requirements, corrective actions taken, and grievance data. TID: July 2010*
   NO-AR-10-003                  2/24/2010   Dallas Processing and Distribution Center Outgoing Mail Consolidation
                                             R-1 — Consolidate the Dallas P&DC outgoing mail operation into the North Texas P&DC by no later than FY 2011.
                                                   TID: December 2011
   NL-AR-10-003                  3/1/2010    Highway Contract Route Transportation – Greater Chicago
                                             R-3 — Verify elimination of 42 trips within the identified HCRs, already agreed to by local and area management.
                                                   TID: November 2010
                                             R-4 — Reassess the remaining 20 trips and cancel or modify the trips as indicated by the reassessment, or document the
                                                   reasons for retaining the trips. TID: November 2010
   DR-AR-10-003                  3/16/2010   Rural Delivery Christmas Operations

                                             R-1 — Renegotiate with the National Rural Letter Carriers Association (NRLCA) to eliminate the supplemental Christmas Overtime
                                                   Pay Provision, Article 9.2(k), set forth in the NRLCA Agreement expiring in November 2010 and any subsequent NRLCA
                                                   agreements. TID: November 2010
   NO-AR-10-004                  3/29/2010   Powered Industrial Vehicle Management System at the Indianapolis Processing and Distribution Center

                                             R-1 — Use the PIVMS to the fullest extent possible to manage operations and continue to improve mail processing efficiency by
                                                   reducing 20,000 workhours in tow and forklift operations by FY 2013. TID: September 2013*
   IS-AR-10-007                  4/19/2010   Network Security Assessment of the National Customer Support Center

                                             R-1 — Use the Postal Service’s patch and configuration management processes to identify and remediate missing patches and
                                                   configuration issues. TID: September 2010
   SA-MA-10-001                  4/29/2010   Postal Service Security Clearance Requirements for Air Transportation Contractors

                                             R-1 — Conduct a formal risk assessment to determine if security clearance requirements for air transportation contract personnel
                                                   adequately mitigate risks associated with the contractor’s positions and access to Postal Service facilities and the mail.
                                                   When contract personnel do not have or maintain appropriate security clearances, there is an increased security risk to
                                                   employees, customers, the mail, critical assets, and the general public. TID: September 2010

                                             R-2 — Establish a process to periodically assess air transportation contractor compliance with Postal Service security requirements
                                                   to mitigate security risks. TID: September 2010




44 | Semiannual Report to Congress
                                                                                                                                                     APPENDIX E




                              Report Title, Recommendation Summary
                                     	 R = Recommendation number
Report Number   Issue Date           	 TID = Target Implementation Date
IS-AR-10-008    5/4/2010     Certification and Accreditation Process

                             R-1 — Provide Corporate Information Security the authority necessary to enforce and execute the responsibilities for managing
                                   the Certification and Accreditation (C&A) process. TID: March 2011

                             R-2 — Update Handbook AS-805, Information Security, to require mandatory annual training on the C&A process for all portfolio
                                   managers. TID: July 2011
                             R-3 — Ensure all portfolio managers receive mandatory training regarding their role, responsibility, and accountability for
                                   implementing and reinitiating the C&A process. This training should also be available to all executive sponsors.
                                   TID: July 2011
                             R-4 — Hold portfolio managers accountable for completing the C&A process within the Technology Solutions Life Cycle prior to
                                   implementing critical applications into the production environment. TID: July 2011

                             R-5 — Complete the C&A process for all critical applications currently in production, as required by Handbook AS-805,
                                   Information Security. TID: March 2011

                             R-6 — Ensure portfolio managers work with executive sponsors to initiate the recertification process for critical applications
                                   assigned to their functional areas as required by Handbook AS-805, Information Security. TID: March 2011

                             R-7 — Develop a formal, centralized mechanism to track the status of all unmitigated residual risks identified in the applications’
                                   risk mitigation plan. TID: July 2011

                             R-8 — Input unmitigated residual risks identified in the applications’ risk mitigation plan into the formal, centralized tracking
                                   mechanism and track the risks through resolution. TID: July 2011

                             R-9 — Work with executive sponsors to resolve unmitigated residual risks identified in the risk mitigation plans and recertification
                                   letters associated with the critical applications. TID: July 2011

                             R-10 — Establish a policy to designate a central repository for storing the C&A documentation. TID: July 2011

                             R-11 — Update Handbook AS-805, Information Security, to designate a single entity responsible for uploading the C&A
                                   information in the central repository for all critical applications. TID: March 2011

                             R-12 — Input the C&A documentation for all critical applications into the central repository. TID: March 2011

                             R-13 — Update Handbook AS-805, Information Security, to designate a single entity for updating and validating the C&A
                                   information in the Enterprise Information Repository for all critical applications. TID: December 2010*
SA-AR-10-001    5/12/2010    Move Update Program and Investigations

                             R-1 — Enhance the Move Update Program to comprehensively verify compliance at mail acceptance and ensure collection of
                                   proper postage. TID: May 2011
                             R-2 — Ensure standards for determining Move Update compliance are consistent and clearly communicated to mailers.
                                     TID: Audit resolution

                             R-3 — Establish mandatory comprehensive training for responsible personnel to ensure appropriate assessment of revenue
                                   deficiencies. TID: Audit resolution

                             R-4 — Review the overstated revenue deficiency to determine whether the amount should be reduced. TID: Audit resolution
                             R-5 — Limit the use of postal inspectors to Move Update investigations with expectations of civil or criminal prosecution.
                                   TID: Audit resolution
NL-AR-10-005     5/25/2010   Air Networks – FedEx Transportation Agreement – Capital Metro, Eastern, Great Lakes, and Northeast Areas

                             R-1 — Use surface transportation to the extent possible for mail that does not require air transportation to meet the Postal
                                   Service’s on-time standards. TID: October 2010

                             R-2 — Transport mail to the maximum extent possible using the service-responsive capacity of passenger airlines under contract
                                   with the Postal Service. TID: December 2010

                             R-3 — Sort mail into bypass containers as appropriate. TID: December 2010




                                                                                                                                   April 1 — September 30, 2010 | 45
APPENDIX E




                                                  Report Title, Recommendation Summary
                                                         	 R = Recommendation number
   Report Number                Issue Date               	 TID = Target Implementation Date
   CA-AR-10-004                  5/27/2010       Contract Payment Terms
                                                 R-1 — Revise the Postal Service’s Supplying Principles and Practices, Section 5 12.2, Payment Time Frame, and other sections
                                                       as necessary, to add that when contracting officers negotiate payment terms other than net 30 days they include the
                                                       business rationale and associated documentation for the payment terms in the contract file. TID: February 2011
   NO-MA-10-001                  6/11/2010       Assessment of Overall Plant Efficiency 2010

                                                 R-1 — Reduce 16.2 million workhours by FY 2012. TID: December 2012
   DA-AR-10-005                  6/16/2010       Delivery Vehicle Replacement Strategy

                                                 R-1 — Replace maintenance intensive vehicles beginning in FY 2011. TID: December 2010
                                                 R-2 — Reemphasize to vehicle maintenance and district managers the reinvestment threshold, the importance of completing PS
                                                       Forms 4587, to include cumulative costs, and the need to obtain required approvals as detailed in Handbook PO-701.
                                                       TID: December 2010
                                                 R-3 — Monitor maintenance intensive delivery vehicles at the area level. TID: December 2010
   CI-MA-10-001                  6/18/2010       Civil Service Retirement System Overpayment by the Postal Service

                                                 R-1 — Pursue all necessary actions, including those suggested by the Office of Inspector General, to either secure the return of
                                                       the $75 billion overpayment or otherwise realize the benefit of this overpayment to the Postal Service. TID: Contingent on
                                                       Congress; no target date can be provided.

   DR-AR-10-006                      7/1/2010    City Delivery Efficiency Review – Los Angeles District
                                                 R-1 — Reduce the district’s workhours by 298,260 to achieve an associated economic impact of more than $105 million over
                                                       10 years. TID: October 2010
   DR-AR-10-005                      7/1/2010    Flats Sequencing System Operational Issues

                                                 R-1 — Track and monitor Flats Sequencing System processing operations to reduce labor hours associated with additional
                                                       manual sorting of unworked flat mail sent to delivery units. R-1 — Track and monitor Flats Sequencing System processing
                                                       operations to reduce labor hours associated with additional manual sorting of unworked flat mail sent to delivery units.
                                                       TID: None

                                                 R-2 — Require plant and district managers to coordinate efforts in reviewing, updating, and complying with their Integrated
                                                       Operating Plans to ensure sequenced flat mail arrives timely to delivery units. TID: September 2010
   HR-AR-10-003                      7/1/2010    Grievance Settlements and Payments

                                                 R-1 — Develop and implement an internal control plan for grievance settlements and payments to ensure consistency among
                                                       districts and compliance with contractual agreements. Such a plan should include, at a minimum, requirements for
                                                       maintaining adequate supporting documentation; training for managers who have the authority to resolve disputes in the
                                                       grievance procedures; requirements for periodically monitoring Grievance and Arbitration Tracking System reports and
                                                       alerts; and procedures to ensure that negotiated settlement payments are valid, accurate, and properly allocated among
                                                       the grievants. TID: None
   NO-AR-10-007                      7/2/2010    Consolidation of Lima Processing and Distribution Facility Mail Operations Into the Toledo Processing
                                                 and Distribution Center
                                                 R-1 — Move forward with the consolidation of the Lima, OH, P&DF mail operations into Toledo, OH, P&DC. TID: February 2011
   DA-AR-10-006                      7/2/2010    Facility Energy: Metering Technologies

                                                 R-1 — Install time-of-use metering at eligible processing and distribution centers by December 31, 2010. TID: December 2010
   NL-AR-10-006                      7/14/2010   Postal Vehicle Service Transportation Routes – Southern Maryland Processing and Distribution Center

                                                 R-3 — Reassess the remaining 3,249 workhours identified in our audit and eliminate them as indicated by the reassessment, or
                                                       document the reasons for retaining them. TID: October 2010
   IS-AR-10-010                      7/22/2010   UNIX Operating System Master Controls

                                                 R-1 — Review and update system permissions to ensure developers possess read-only privileges to files in the production
                                                       environment. TID: September 2010




46 | Semiannual Report to Congress
                                                                                                                                                   APPENDIX E




                              Report Title, Recommendation Summary
                                     	 R = Recommendation number
Report Number   Issue Date           	 TID = Target Implementation Date
CRR-AR-10-003   7/27/2010    Cost and Revenue Analysis Reporting Module
                             R-1 — Incorporate access controls such as password protection in the modules containing computer programming code.
                                   TID: October 2010
MS-AR-10-004    7/28/2010    Efficiency of Retail Customer Service Operations

                             R-1 — Implement best practices for retail customer service operations at all facilities. TID: October 2011
                             R-2 — Explore opportunities to consolidate business mail acceptance operations at Post Offices, stations, and branches.
                                   TID: October 2011
                             R-3 — Periodically evaluate operating efficiency by assessing performance against productivity targets and adjusting resources in
                                   response to workload changes. TID: October 2010
                             R-4 — Re-deploy employees, as appropriate, to facilities where there is sufficient workload to support the workhours.
                                   TID: October 2011
IS-AR-10-011    7/29/2010    Access Controls Over the Electronic Data Distribution Infrastructure

                             R-1 — Enable system-level audit logging (including system, event, error, and web logs) on EDDI servers. TID: October 2010

                             R-2 — Manage user accounts and configure password controls according to Handbook AS-805, Information Security,
                                   requirements. TID: October 2010

                             R-3 — Obtain approval through eAccess to use shared user accounts within the EDDI environment. TID: October 2010
IS-AR-10-012    8/4/2010     L’Enfant Headquarters Badge Access Controls

                             R-1 — Perform periodic reviews of all badge access to the L’Enfant Plaza Headquarters building and sensitive work areas and
                                   remove access for individuals who no longer require it. TID: October 2010
NL-AR-10-007    8/4/2010     Postal Vehicle Service Transportation Routes – Washington Network Distribution Center

                             R-1 — Verify the phasing out of 6,968 workhours that management agreed were in excess of the workload. TID: July 2010

                             R-2 — Ensure that Network Distribution Center managers periodically assess PVS workload and staffing requirements to maintain
                                   appropriate staffing levels. TID: September 2010
FF-AR-10-210     8/6/2010    Revenue for Official Mail from the House of Representatives Mailroom

                             R-1 — Coordinate with the U.S. House of Representatives mailroom and the Southern Maryland BMEU to develop and implement
                                   processes to verify postage claimed for individually franked mailpieces, such as establishing alternate mailing system
                                   agreements. TID: October 2010
FT-MA-10-001     8/16/2010   Federal Employees Retirement System Overfunding

                             R-1 — Pursue legislative action to alter the Postal Service’s Civil Service Retirement and Disability Fund contributions for 1 or
                                   more years until the FERS surplus is extinguished. TID: September 2011

                             R-2 — Coordinate with the OPM to identify causes of actual payout differences between the Postal Service and the rest of the
                                   federal government and use that information to reduce the risk of future surpluses. TID: September 2011

                             R-3 — Pursue legislative action to define future distribution of significant surpluses. TID: September 2011

                             R-4 — Coordinate with the OPM to create a sub-account within the Civil Service Retirement and Disability Fund exclusive to the
                                   Postal Service. TID: September 2011




                                                                                                                                  April 1 — September 30, 2010 | 47
APPENDIX E




                                              Report Title, Recommendation Summary
                                                     	 R = Recommendation number
   Report Number                Issue Date           	 TID = Target Implementation Date
   EN-AR-10-005                  8/17/2010   Stations and Branches Optimization and Consolidation

                                             R-1 — Develop detailed policies and procedures for the station and branch closing process. TID: January 2011

                                             R-2 — Improve the reliability and usefulness of retail facilities data by validating, correcting, and updating information in the
                                                   database. TID: January 2011

                                             R-3 — Develop measurable criteria to mitigate inconsistencies in evaluating factors used for determining feasibility to discontinue
                                                   operations. TID: January 2011

                                             R-4 — Process and approve or disapprove discontinuance proposals in a timely manner. TID: January 2011
   CRR-AR-10-004                 8/18/2010   Advertising Cost Reporting

                                             R-1 — Coordinate with the Law Department and Segment Advertising to develop adequate guidance, controls, and processes
                                                   to ensure reporting of advertising costs is done in compliance with PRC-approved costing methodology and correct any
                                                   remaining misstatements in FY 2010 advertising costs. TID: September 2010

                                             R-2 — Develop an approval process to ensure changing advertising cost allocation methodologies is done in accordance with
                                                   PRC-approved costing methodology. TID: September 2010

                                             R-4 — Develop and implement detailed system requirements for the Tracker System to provide project management information
                                                   that ensures ability to appropriately attribute advertising costs. TID: December 2011
   DA-AR-10-009                  8/25/2010   Facility Optimization: Chicago District

                                             R-1 — Ensure installation heads have the proper guidance for identifying and reporting excess space. TID: March 2011

                                             R-2 — Include additional metrics, such as dates and space conditions, to track, monitor, and report excess space within the
                                                   Chicago District; and initiate disposal action for excess space identified. TID: March 2011
   DA-AR-10-010                  8/25/2010   Facility Optimization: New York District

                                             R-1 — Postal Service policy requires installation heads to report excess space without providing the necessary guidance to
                                                   effectively accomplish this task. TID: March 2011

                                             R-2 — The excess space reporting system does not track metrics such as dates or space conditions to allow for the prioritization
                                                   of disposal actions. TID: March 2011
   DA-AR-10-008                  8/25/2010   Facility Optimization: Northern New Jersey District

                                             R-1 — Ensure installation heads have the proper resources for identifying and reporting excess space. TID: March 2011

                                             R-2 — Include additional metrics, such as dates and space conditions, to track, monitor, and report excess space within the
                                                   Northern New Jersey District; and initiate disposal actions for excess space identified. TID: March 2011
   DR-AR-10-007                  8/26/2010   City Delivery Efficiency Review – Bay-Valley District

                                             R-1 — Reduce the district’s workhours by 223,011 to achieve an associated economic impact of more than $7.9 million annually
                                                   or $79 million over 10 years. TID: January 2011
   DA-MA-10-004                  8/31/2010   Postal Service Patent Management

                                             R-1 — Establish a strategic plan with timelines to capitalize on the Postal Service’s patent inventory strength. In its Five-Year
                                                   Strategic Plan, the Postal Service conveys its desire to generate new revenue by leveraging its strengths; however, it does
                                                   not reference intellectual property or patents. TID: March 2011
   MS-MA-10-001                  9/2/2010    Electronic Postmark Program License Fees

                                             R-1 — Develop a process to monitor and validate licensees’ Electronic Postmark usage. TID: December 2010

                                             R-3 — Initiate actions to collect past due Electronic Postmark license fees. TID: September 2010




48 | Semiannual Report to Congress
                                                                                                                                                APPENDIX E




                              Report Title, Recommendation Summary
                                     	 R = Recommendation number
Report Number   Issue Date           	 TID = Target Implementation Date
IS-MA-10-001    9/2/2010     Securing Sensitive Data on Postal Inspection Service Laptops

                             R-1 — Create and maintain an inventory of all existing Postal Inspection Service laptops. TID: March 2011

                             R-2 — Install full disk encryption on all new Postal Inspection Service laptop computers before deployment. TID: August 2011

                             R-3 — Develop an expedited deployment schedule to reduce the risk of sensitive data loss from the unencrypted laptops.
                                   TID: March 2011

                             R-4 — Remove and destroy hard drives or completely degauss all sensitive data stored on the older Postal Inspection Service
                                   laptops before disposing of them. TID: August 2011

                             R-5 — Enter all new laptops in the centralized inventory system upon deployment to Inspection Service users. TID: August 2011
FF-AR-10-222    9/14/2010    Statistical Tests for Fiscal Year 2010

                             R-1 — Verify that district statistical program managers track data collector performance and take appropriate actions in response
                                   to performance issues. TID: October 2010
FF-AR-10-224    9/17/2010    Postal Service Area and District Office Field Structure

                             R-1 — Develop a comprehensive strategic plan to guide future area and district field structure decisions. The plan should address
                                   environmental factors, mail volumes, technological advancements, operational considerations and other issues impacting
                                   Postal Service strategic goals. TID: September 2011

                             R-2 — Implement one or more of these three options, or combinations of portions of these options, for consolidating the area and
                                   district field structure:
                                       Consolidate district offices that are within 50 miles of one another.
                                       Consolidate area and district offices that have less than the mean mail volume and workhours.
                                       Relocate area offices to headquarters.
                                    TID: September 2011

                             R-3 — Develop a policy and process for performing a comprehensive evaluation of the area and district office structure at least
                                   every 5 years. TID: March 2012

                             R-4 — Develop a policy and procedures to maintain adequate supporting documentation for all area and district consolidations or
                                   expansions as part of a comprehensive strategic plan. TID: March 2012
EN-AR-10-006    9/17/2010    Southeast Area Processing and Distribution Center Consolidations

                             R-1 — Complete the full consolidation feasibility study on the Daytona Beach P&DF into the Mid-Florida P&DC and take action to
                                   eliminate excess space in the Mid-Florida P&DC. TID: December 2011

                             R-2 — Determine alternate uses for excess space at the Birmingham P&DC and annex. TID: June 2011




                                                                                                                              April 1 — September 30, 2010 | 49
APPENDIX E




                                           Report Title, Recommendation Summary
                                                  	 R = Recommendation number
   Report Number              Issue Date          	 TID = Target Implementation Date
   CA-AR-10-005               9/20/2010    U.S. Postal Service Purchasing Policies

                                           R-1 — Establish a competition advocate within the Postal Service to independently review and approve justifications for non-
                                                 competitive purchases and support the use of competition in the Postal Service. The competition advocate should also
                                                 prepare and submit an annual report to the chief financial officer and vice president, Supply Management, describing
                                                 barriers to competition and goals and plans for increasing competition. TID: December 2010

                                           R-2 — Immediately discontinue contracting with former Postal Service executives until adequate controls are implemented. Such
                                                 controls should address the appropriate duty and function of former executives in contracted positions, ensure no former
                                                 executive is paid more than the equivalent of their previous Postal Service rate of pay if contracted non-competitively,
                                                 and require a thorough cost and price analysis of proposed rates. TID: October 2010

                                           R-3 — Review the need for and propriety of all existing contracts with former executives. TID: December 2010

                                           R-4 — Amend the Administrative Support Manual to emphasize the importance of compliance with all policies, circulars, and
                                                 instructions pertinent to encouraging competition and managing non-competitive purchases. TID: December 2010

                                           R-5 — Take steps to ensure full and accurate tracking and public reporting of non-competitive contracting actions. Data
                                                 reported should include, but not be limited to, total dollars committed both competitively and non-competitively; and the
                                                 contractor, dollar value, and non-competitive justifications for non-competitive contracts. The tracking mechanism should
                                                 be able to identify when a non-competitive contract has crossed the review and approval threshold based on modification
                                                 after initial award. TID: November 2011

                                           R-6 — Revoke delegations of authority for contracts that acquire goods and services for the Postal Service and bring these
                                                 contracts into compliance with all Postal Service purchasing policies. TID: April 2011

                                           R-7 — Require that non-competitive purchase contract files include a determination by the contracting officer (CO) that prices
                                                 are fair and reasonable and a CO’s certification that the justification is accurate and complete to the best of their
                                                 knowledge and belief. A detailed analysis supporting these certifications should be part of the noncompetitive purchase
                                                 documentation. TID: December 2010

                                           R-8 — Require Supply Management officials approving non-competitive contracts to review purchases for potential or apparent
                                                 conflicts of interest and evaluate any potential conflicts through the agency’s ethics official before approval. The opinion
                                                 and recommendations of the agency ethics official should be documented in the contract file. In addition, any person
                                                 found to have an actual or apparent conflict of interest should not be allowed to participate in negotiations with the
                                                 contractor. TID: February 2011
                                           R-9 — Institute an oversight mechanism to ensure and track compliance with updated non-competitive contracting policies.
                                                 TID: March 2012
   IS-AR-10-014               9/23/2010    Controls Over Payment Card Transaction Data
                                           R-1 — Finalize and implement a Payment Card Industry remediation plan that includes all associated costs, resources, and
                                                 milestones needed to achieve and maintain Payment Card Industry-Data Security Standards compliance.
                                                 TID: September 2013
                                           R-2 — Identify and maintain a listing of current service providers who have access to or process, transmit, or store cardholder
                                                 data and who provide payment card-related products, software, and support. TID: January 2011

                                           R-3 — Ensure the Payment Card Industry compliance requirements are included in all pre- and post-award contract
                                                 documentation that includes, but is not limited to, statements of work, amendments, and modifications. TID: May 2011

                                           R-4 — Validate and monitor all service providers’ Payment Card Industry compliance status throughout the lifetime of the contract.
                                                 TID: May 2011

                                           R-5 — Notify the acquirer, credit card associations, and credit card companies regarding the status of the Postal Service’s
                                                 Payment Card Industry compliance in accordance with the contract agreements. TID: December 2010




50 | Semiannual Report to Congress
                                                                                                                                                  APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
CRR-AR-10-006   9/23/2010    Controls Over System for International Revenue and Volume, Outbound and International Origin-Destination Information
                             System

                             R-1 — Develop a quarterly shortpaid postage report for outbound First-Class Mail and Priority Mail International and provide it to
                                   Global Business Systems and Intelligent Mail Planning and Standards. TID: October 2010

                             R-2 — Implement procedures to use System for International Revenue and Volume, Outbound, and International Origin-Destination
                                   Information System test results to monitor shortpaid postage at each international service center. TID: January 2011
                             R-3 — Establish revenue protection procedures at the Chicago and San Francisco International Service Centers.
                                   TID: February 2011
                             R-4 — Assess the viability of extending enhanced revenue protection programs to outbound international mail, similar to the new
                                   procedures for domestic mail. TID: April 2011
DR-AR-10-009    9/24/2010    City Delivery Efficiency Review – Atlanta District

                             R-1 — Reduce the Atlanta District’s workhours by 87,212 to achieve an associated economic impact of more than $2.7 million
                                   annually or $27 million over 10 years. TID: October 2011
DR-AR-10-008    9/24/2010    Vehicle Parts Program

                             R-1 — Establish a process to analyze similar vehicle parts by form, fit, and function from the two consignment suppliers to aid in
                                   negotiations with suppliers, as necessary, to ensure the Postal Service receives the lowest available cost on vehicle parts.
                                   TID: February 2011
CRR-AR-10-005   9/27/2010    Impact of Postal Accountability and Enhancement Act Price Caps

                             R-2 — Develop a detailed transparent plan, with established milestones, for each individual product to move towards coverage of
                                   their costs and a contribution to overhead costs. TID: None
NL-AR-10-010    9/29/2010    Air Networks – Federal Express Transportation Agreement – National Analysis

                             R-1 — Continue to routinely provide headquarters and area management with data, including Transportation Cost System/Cost
                                   and Revenue Analysis data, used to monitor and track the volume and additional costs for flying surface mail classes on
                                   Federal Express. TID: March 2011

                             R-2 — Continue to work collaboratively with the areas to identify and address capacity issues, real or perceived, with commercial
                                   carriers and ensure carriers comply with stated capacities. TID: March 2011

                             R-3 — Adjust mail volume arrival profiles or FedEx tender times where possible to ensure Terminal Handling Services contractors
                                   have time to build planned by-pass containers. TID: March 2011
                             R-4 — Standardize postal oversight at Terminal Handling Services operations to ensure adequate on-site Postal Service
                                   representation to monitor FedEx operations and ensure local compliance with established processes and procedures.
                                   TID: March 2011
                             R-5 — Reinforce existing policies and procedures and provide additional guidance and training as necessary for processing and
                                   assigning mail to FedEx building bypass containers, and ensuring mail arrives at Terminal Handling Services locations to
                                   meet FedEx contract mail tender time requirements. TID: March 2011
SA-MA-10-002    9/29/2010    Allegations of Inappropriate Methodologies in a San Francisco Investigation
                             R-1 — Establish and implement mandatory training for postal inspectors responsible for investigating Combined Value Added
                                   Refund mailers to ensure they understand the business mail process to accurately calculate Postal Service losses.
                                   TID: March 2011
                             R-2 — Establish and implement guidance and lessons learned for postal inspectors to use when conducting investigations of
                                   Combined Value Added Refund mailers and calculating Postal Service losses. TID: March 2011




                                                                                                                                 April 1 — September 30, 2010 | 51
APPENDIX E




                                          Report Title, Recommendation Summary
                                                 	 R = Recommendation number
 Report Number              Issue Date           	 TID = Target Implementation Date
 NL-AR-10-009                9/29/2010   Management of Mail Transport Equipment - National Analysis

                                         R-1 — Further develop, update, and reinforce national MTE policies and procedures in the Postal Operations Manual (POM) and
                                               Postal Handbook PO-502, Container Methods, which address MTE inventory and accountability controls, including validating
                                               customer MTE needs and tracking and reconciling MTE loaned to mailers and other external customers. TID: March 2011

                                         R-2 — Continue pursuing implementation of a planned automated MTE management system and ensure its functionality for
                                               inventory and accountability processes and for enhancing the Postal Service’s visibility into MTE internally and at mailers.
                                               TID: March 2011

                                         R-3 — Reestablish an on-hand MTE volume count process, both internally and externally, until an automated MTE management
                                               system is fully developed, deployed, and operational. TID: March 2011

                                         R-4 — Ensure that Area Distribution Networks Offices have appropriate resources assigned responsibly to monitor and manage
                                               MTE and maintain compliance with Postal Operations Manual requirements. TID: March 2011

                                         R-5 — Document the current process for identifying annual, routine MTE purchase requirements and ensure the process includes
                                               Mail Transport Equipment Service Center network information and facility and mailer inventory data to ensure that only the
                                               necessary amount of MTE is purchased. TID: March 2011
 NL-AR-10-008                9/29/2010   Postal Vehicle Services - Scheduling and Staffing - Atlanta District

                                         R-1 — Implement changes identified during the zero-base review and verify removal of the 23,920 workhours of savings achieved,
                                               which we estimate to be $12.6 million over 10 years. TID: December 2010

                                         R-2 — Fully utilize the flexibility under the existing American Postal Workers Union (APWU) Collective Bargaining Agreement work
                                               rules to increase the use of split-days off for PVS drivers within the terms of the current Memorandum of Understanding and
                                               maximize the use of part–time, regular PVS drivers where possible. TID: December 2010

                                         R-3 — Consider negotiating and modifying work rules as necessary in the upcoming renewal of the APWU Collective Bargaining
                                               Agreement to include increasing the allowable percentage of all types of part-time employees to allow maximum use of part
                                               time regular employees in facilities with PVS operations. TID: December 2010

                                         R-4 — Consider negotiating and modifying work rules as necessary in the upcoming renewal of the APWU Collective Bargaining
                                               Agreement to include providing permanent flexibility to schedule split days off for employees in facilities with PVS Operations.
                                               TID: December 2010
 CA-AR-10-006                9/30/2010   Certification Process for Electronic Payments

                                         R-1 — Develop an oversight mechanism to monitor and ensure contracting officers’ and/or designated officials’ receipt and
                                               certification of invoices. TID: September 2011

                                         R-2 — Reiterate to contracting officers and/or their designees their roles and responsibilities and the importance of following Postal
                                               Service criteria, policies, and procedures for certification of invoices prior to payment to ensure that invoices are correct and
                                               goods and services were received. TID: March 2011

                                         R-3 — Develop and implement written procedures for the receipt of invoices for annual HCR services and to verify services were
                                               rendered prior to payment. TID: Audit Resolution

                                         R-4 — Identify and notify contracting officers to oversee and administer all HCR payments in the Postal Service Accounts Payable
                                               Excellence system. TID: October 2010
                                         R-5 — Review the $7.6 million in payments made more than of 30 days after contract end dates and collect overpayments.
                                               TID: October 2010
                                         R-6 — Provide detailed, consistent training for all designated officials on their roles and responsibilities and usage of the Utility
                                               Management System. TID: February 2011

                                         R-7 — Regularly reconcile payments made for utility services to identify and collect overpayments. TID: December 2010

                                         R-8 — Ensure that Utility Management System designated official contact information is accurate and that the system requires
                                               positive certification by the designated official before invoice payment. TID: March 2011




52 | Semiannual Report to Congress
                                                                                                                                                   APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
FT-MA-10-002    9/30/2010    Summary of Substantial Overfunding and Postal Service Pension and Retiree Health Care Funds.

                             R-1 — Develop a comprehensive legislative strategy to recover overfunded amounts. TID: September 2011

                             R-2 — Aggressively pursue and carefully review all available data related to CSRS, FERS, and retiree health benefit calculations,
                                   including those associated with determining any overfunding situations, to ensure that calculations are reasonable and
                                   accurate. TID: September 2011




                                                                                                                                  April 1 — September 30, 2010 | 53
APPENDIX F




APPENDIX F
Significant Management Decisions in Audit Resolution
For the period April 1 — September 30, 2010

As required by the IG Act, the following page discusses information concerning any significant management decision with which the Inspector General disagrees
and is currently in audit resolution.


Move Update Program and Investigations
SA-AR-10-001
															5/12/2010
Recommendation 1	                         We recommend the vice president, Business Mail Entry and Payment Technologies, in coordination with the vice president, Pricing, enhance
                                          the Move Update program to comprehensively verify compliance at mail acceptance and ensure collection of proper postage.

Recommendation 2	                         We recommend the vice president, Business Mail Entry and Payment Technologies, in consultation with the vice president, Pricing, ensure
                                          standards for determining Move Update compliance are consistent and clearly communicated to mailers.

Recommendation 3	                         We recommend the chief postal inspector and the vice president, Business Mail Entry and Payment Technologies; establish mandatory
                                          comprehensive training for responsible personnel to ensure revenue deficiencies are appropriately assessed.

Recommendation 4	                         We recommend the Western Area finance manager review the overstated revenue deficiency to determine whether the amount should be
                                          reduced.

Recommendation 5	                         We recommend the chief postal inspector limit the use of postal inspectors to Move Update investigations with expectations of civil or
                                          criminal prosecution.


Controls over System for International Revenue and Volume, Outbound and International Origin-Destination Information System
CRRAR10006
                                                                                                                                                                           9/23/2010
Recommendation 2	                         We recommend the Global Business vice president and managing director direct the International Operations executive director to implement 		
       	                                  procedures to use the System for International Revenue and Volume as well as the Outbound and International Origin-Destination Information
        	                                 System test results to monitor shortpaid postage at each International Service Center.




Certification Process for Electronic Payments
CA-AR-10-006
                                                                                                                                                                           9/30/2010
Recommendation 3	                         We recommend the Supply Management vice president direct the Transportation Portfolio manager to develop and implement written
       	                                  procedures for the receipt of invoices for annual HCR services and to verify services were rendered prior to payment.




54 | Semiannual Report to Congress
                                                                                                                                                                                  APPENDIX G




APPENDIX G

Status of Peer Review Recommendations
Federal audit organizations undergo an external quality control assessment by their peers every 3 years. The Dodd-Frank Wall Street Reform and Consumer
Protection Act of 2010 requires an appendix reporting on 1) any Office of Inspector General peer reviews conducted during the semiannual period; and 2) any
outstanding recommendations from any previous or current peer review that remain outstanding or have not been fully implemented.


Office of Audit

Internal Peer Reviews

On March 31, 2010, the Department of Defense OIG (DOD OIG) issued a quality control review of our audit organization that began in April 2009. Below is a listing of
the recommendations made by the DOD OIG that have not been fully implemented as of the semiannual period ending September 30, 2010, and the status of those
recommendations:

Recommendation 1	                         We recommend that the assistant inspector general for OA update its policies and procedures to ensure compliance with generally
                                          accepted government auditing standards and applicable legal and regulatory requirements.

	                                         Status: Not fully implemented. OA has updated all policies and procedures as of October 25, 2010. Our Office of General Counsel is
                                          currently reviewing the policies prior to posting.

Recommendation 4 (a)&(b)	                 We recommend that the assistant inspector general for OA (a) require a one-time review of completed training recorded in employee training logs;
                                          and (b) follow up on missing certificates of completion to ensure evidence of completed training is included in employee training logs.

	                                         Status: Not fully implemented. As agreed to in our response, we initiated a one-time review of the completed training recorded in employee training
                                          logs in April 2010, and this review is ongoing. We anticipate completing the review by January 2011.

Recommendation 5.2(d) 	                   We recommend that the assistant inspector general for OA improve reporting in performance reports by (d) publishing management comments in
                                          field financial reports or capping reports.

	                                         Status: Not fully implemented. Although we disagreed with publishing management comments in field financial reports or capping reports because
                                          these reports are issued in final only, we agreed on a process with the Postal Service to reissue the final report with management comments,
                                          if management disagreed with the finding(s) or recommendation(s). Accordingly, to ensure compliance with government auditing standards, we
                                          revised our financial installation audit report template on October 22, 2010, to reflect this process in our scope thereby fully addressing the intent of
                                          this recommendation.

A copy of this quality control review report, in its entirety, can be viewed on our website at www.uspsoig.gov/USPSOIG_Peer_Review_Report.pdf.

External Peer Reviews
None conducted during this period.


Office of Investigations

Internal Peer Reviews
On September 8, 2008, the Department of Homeland Security (DHS) issued a quality control review of our investigative agency and determined that our internal safeguards
and management procedures was in compliance with the quality standards established by the President’s Council on Integrity and Efficiency (PCIE) and the Executive’s
Council on Integrity and Efficiency (PCIE) and the U.S. Attorney General.

External Peer Reviews
From September 13 to October 4, 2010, our agency conducted a peer review of the Social Security Administration OIG’s (SSA OIG’s) Office of Investigations. We reviewed
their Investigative Operations at their headquarters and at three of their field offices. During the next semiannual reporting period, we will issue a letter to the SSA OIG on the
review results.




                                                                                                                                                                April 1 — September 30, 2010 | 55
APPENDIX H




APPENDIX H
Investigative Statistics*
For the period April 1 — September 30, 2010

                                                                                      Convictions/         Admin.                                                Amt. to USPS     To Mgmt.
                                    Investigations                  Indictments/           Pretrial        Action               Cost     Fines, Restitution,   (from previous    for Admin.
                                       Completed       Arrests      Informations       Diversions**         Taken          Avoidance         & Recoveries           column)***       Action
Theft, Delay, or Destruction                   760         229                227              264             417                             $1,230,964           $150,329           456
of Mail by Employees or
Contractors
Injury Compensation                            407           29                  35              23            118      $98,842,707          $525,418,286         $4,060,478           134
Fraud 1
Official Misconduct                            386           57                  45              57            327             $47,326          $1,534,449          $129,398           409
Financial Fraud                                372          132               140              151             201        $1,060,643           $3,046,785         $2,814,710           269
Contract Fraud    2
                                                 66           6                  19              12             33      $26,235,319          $140,833,923        $19,962,978            46
TOTAL                                        1,991         453                466              507           1,096     $126,185,995         $672,064,407         $27,117,893         1,314


* Statistics include joint investigations with other law enforcement agencies.
** Convictions reported in this period may be related to arrests in prior reporting periods.
*** Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.

1
    Amount under Fines, Restitution, and Recoveries includes $520 million from one pharmaceutical investigation.
2
    Amount under Fines, Restitution, and Recoveries includes $87.5 million from one investigation.




For the period October 1, 2009 — September 30, 2010

                                                                                      Convictions/         Admin.                                                Amt. to USPS     To Mgmt.
                                    Investigations                  Indictments/           Pretrial        Action               Cost     Fines, Restitution,   (from previous    for Admin.
                                       Completed       Arrests      Informations       Diversions**         Taken          Avoidance         & Recoveries           column)***       Action
Theft, Delay, or Destruction                  1428          416               395              463             785                             $2,246,668           $345,141           840
of Mail by Employees or
Contractors
Injury Compensation                            786           54                  52             44             217     $198,638,622        $1,821,246,819        $21,377,067           288
Fraud 1 & 2
Official Misconduct                            934          104                  77            131             648             $47,326         $2,294,544           $210,223           738
Financial Fraud                                707         253                260              278             439        $1,061,643            $6,791,493        $5,660,506           542
Contract Fraud 3                                128          19                  32              19             49       $27,571,397          $142,117,223       $21,020,995            69
TOTAL                                        3,983         846                816              935           2,138     $227,318,988        $1,974,696,747        $48,613,932         2,477


* Statistics include joint investigations with other law enforcement agencies.
** Convictions reported in this period may be related to arrests in prior reporting periods.
*** Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.

1
    Amount under Fines, Restitution, and Recoveries includes $1.8 billion from two pharmaceutical investigation.
2
    Amount under Amt. to Postal Service (from previous column) includes $15 million from one pharmaceutical investigation.
3
    Amount under Fines, Restitution, and Recoveries includes $87.5 million from one investigation.




56 | Semiannual Report to Congress
                                                                                                                                           APPENDIX I




APPENDIX I
Summary of U.S. Postal Inspection Service Actions Under 39 USC 3005 and 3007
For the period April 1 — September 30, 2010


                                              Complaints         Consent               Cease &
Type of Scheme                                     Filed      Agreements   FROs   Desist Orders
Advance fee                                               1            1     —                1
Charity                                                   1            1     —                1
Contests/sweepstakes                                      8            6     —                8    Financial Reporting on Investigative
Coupon fraud                                              6            6     —                6    Activities for the Postal Inspection
False billings                                            6            5     —               19    Service
Lotteries (foreign and domestic)                          9            8     —               10    Type
Merchandise:                                                                                       Personnel                               $141,312,905
   Failure to furnish                                     7            7     —                9    Nonpersonnel                             $34,900,054
   Failure to pay                                         9            9     —                9    TOTAL                                 $176,212,959
Misrepresentation                                         5            3     —               12    Capital obligations                        $7,102,036
Miscellaneous                                            24           27     —              27
Work at home                                              4            4     —                7
TOTAL                                                    80          60      —             109



Other Administrative Actions
Administrative Action Requests                                                              120
Temporary Restraining Orders issued                                                          —
Cases Using Direct Purchase Authority                                                        —
Civil Penalties (Section 3012) Imposed                                                  $111,000
Test Purchases                                                                               —
Withholding Mail Orders Issued                                                               40
Voluntary Discontinuances                                                                    —




Administrative Subpoenas Requested by the Postal Inspection Service
There were three requests during the reporting period.




                                                                                                                         April 1 — September 30, 2010 | 57
APPENDIX J




APPENDIX J
Closed Congressional and Board of Governors’ Inquiries
For the period April 1­— September 30, 2010

This appendix lists the congressional and Board of Governors inquiries the OIG closed during this reporting period. OIG units reviewed or investigated these
inquiries to resolve allegations and disputes, and to help identify systemic issues. Inquiries are listed in the chronological order of receipt.




Inspector General Investigations (44)
Requestor                  Allegation/Concern                                                   Major Findings                                                           Closure Date
Representative,            Non-receipt of checks sent to the complainant's business as          The investigation found no evidence of mail theft or tampering by              7/8/10
Michigan                   payment.                                                             postal employees. A State police agency found a person external to
                                                                                                the Postal Service was responsible for the thefts and the matter was
                                                                                                referred to a State Attorneys' Office for prosecution.
Representative,            Non-receipt of bank notes purchased in an auction.                   The investigation found no evidence of mail theft or tampering                5/20/10
New York                                                                                        by postal employees. We referred the allegations to the Postal
                                                                                                Inspection Service based on indications the theft occurred externally.
Representative,            Mail tampering; theft of collectors coins from a package.            The investigation found no evidence of mail tampering, delay, or              4/19/10
Maryland                                                                                        theft by postal employees. Postal management worked with the
                                                                                                complainant to develop a secure method of delivering his packages.

Senator, New York          Non-receipt of package; Postal Service refused to reimburse          The investigation found no evidence of mail tampering, delay, or theft        6/21/10
                           complainant for the insured amount of the package.                   by postal employees. The investigation also found the Postal Service
                                                                                                reimbursed the complainant for the insured amount of the package.

Senator, Maryland          Mail tampering; theft of collectors coins from a package.            The investigation found no evidence of mail tampering, delay, or              4/19/10
                                                                                                theft by postal employees. Postal management worked with the
                                                                                                complainant to develop a secure method of delivering his packages.
Chairman,                  Fraud, waste, and abuse by a Postal Service vice president.          A previous OIG investigation did not substantiate allegations related          4/5/10
Senate Committee                                                                                to the Vice President. We conducted a new investigation based on
                                                                                                additional allegations. The investigation did not substantiate any of
                                                                                                the allegations.
Representative, Virginia   Whistleblower reprisal.                                              An OIG investigation showed the case did not meet the four                     5/3/10
                                                                                                necessary elements of whistleblower reprisal. The complainant
                                                                                                failed to show that a protected communication was the basis for the
                                                                                                disciplinary action.
Senator, California        Postal employees conspired to steal complainant's retirement funds   The investigation did not substantiate the allegations.                       5/20/10
                           and frame the complainant for crimes.
Senator, California        Theft of checks and a credit card sent in the mail.                  The investigation found no evidence of mail theft or tampering                4/15/10
                                                                                                by postal employees. A local police agency determined a person
                                                                                                external to the Postal Service was most likely responsible for the
                                                                                                thefts.
Representative,            Manager created a hostile work environment, engaged in favoritism,   The investigation did not substantiate the allegations. Postal                7/19/10
Kentucky                   and violated postal policy regarding substance abuse on postal       management briefed employees on postal substance abuse policy.
                           property.
Senator, South Carolina    Non-receipt of international Registered Mail containing money.       The investigation found no evidence of mail tampering, delay, or theft        7/20/10
                                                                                                by postal employees. Working with the International Mail and Mail
                                                                                                Recovery Centers, our agents were unable to trace the package after
                                                                                                its arrival at the International Service Center.




58 | Semiannual Report to Congress
                                                                                                                                                                             APPENDIX J




Requestor                 Allegation/Concern                                                      Major Findings                                                             Closure Date
Representative,           Non-receipt of money orders and a package.                              The investigation found no evidence of mail tampering, delay, or theft            4/16/10
Pennsylvania                                                                                      by postal employees. The investigation found the company which
                                                                                                  issued the money orders reimbursed the complainant.
Representative, Alaska    OIG agents misused their position and acted unprofessionally when       We conducted an internal investigation and forwarded our findings to               8/3/10
                          investigating complainant.                                              the OIG management for action deemed appropriate.
Representative, Alaska    Package mailed from Florida arrived opened and missing contents.        The investigation determined it was likely the loss occurred while the            4/26/10
                                                                                                  package was under postal control; however, we found no evidence
                                                                                                  of mail tampering or theft by postal employees. Working with the
                                                                                                  Mail Recovery Center, our agents were unable to locate the contents
                                                                                                  package.
Senator, Wyoming          Postal employees discarded mass mailings and overcharged                Investigation found no evidence employees discarded mail. We also                  7/5/10
                          complainant for mass mailing permits; postmaster did not comply         determined the complainant was properly charged for several years
                          with mass mailing policy.                                               of mass mailing permits previously unpaid, and the postmaster acted
                                                                                                  in accordance with mass mailing policy.
Representative, Indiana   Non-receipt of insurance bills led to termination of complainant's      Investigation found no evidence of mail tampering, delay, or theft                 5/6/10
                          policy.                                                                 by postal employees. An OIG agent worked with the complainant's
                                                                                                  insurance company to have his policy reinstated.
Alderman,                 Non-receipt of package mailed internationally.                          Investigation found no evidence of misconduct by postal employees.                 6/3/10
Chicago City Council                                                                              We were unable to determine the location of the package because it
                                                                                                  was mailed without tracking information.
Senator, Iowa             Postal employees tampered with or stole letters mailed to Texas.        Investigation did not substantiate the allegations. Working with the               7/8/10
                                                                                                  Mail Recovery Center, our agents were unable to locate the letters or
                                                                                                  their contents.
Senator, Texas            Management disciplined complainant for refusal to follow                Investigation found the complainant filed a grievance through the                 8/17/10
                          instructions that violated postal policy and procedure; whistleblower   local union and complaints before the Equal Employment Opportunity
                          retaliation.                                                            Commission (EEOC) and the Merit Systems Protection Board
                                                                                                  (MSPB). The OIG does not interfere in Postal Service administrative
                                                                                                  processes or matters under the jurisdiction of other agencies absent
                                                                                                  exceptional circumstances, which were not present in this case.
White House               Whistleblower reprisal.                                                 Previous OIG investigation showed the case did not meet the four                  6/22/10
                                                                                                  necessary elements of whistleblower reprisal. The complainant failed
                                                                                                  to show management took adverse action against him.
Senator, Texas            Postmaster intentionally delayed Express Mail and created a hostile     The investigation found no evidence the postmaster intentionally                  8/12/10
                          work environment.                                                       delayed or instructed employees to delay Express Mail. The
                                                                                                  investigation also found the hostile work environment had been
                                                                                                  addressed through a change in the postmaster's duty location.
Representative,           Non-receipt of a book contained in a package mailed to Florida.         Investigation did not substantiate the allegation. The investigation               6/7/10
Maryland                                                                                          determined the lightweight package used was likely damaged by
                                                                                                  mail processing machines, which caused the package to open and
                                                                                                  separate from the book. Our agents worked with the Mail Recovery
                                                                                                  Center, but were unable to locate the book.
Senator, Maryland         Non-receipt of packages containing a necklace, gift cards, and          Investigation found no evidence of misconduct by postal employees.                 7/5/10
                          computer accessories.                                                   We were unable to determine the location of the package because it
                                                                                                  was mailed without tracking information. Our agents worked with the
                                                                                                  Mail Recovery Center, but were unable to locate the complainant's
                                                                                                  items. Because the complainant was unable to provided any
                                                                                                  information about the gift card, our agents were unable to determine
                                                                                                  if it had been redeemed.
Senator, Kansas           Postal employees tampered with and removed contents of one              Investigation found no evidence of mail theft of tampering by postal              7/22/10
                          package and did not deliver another.                                    employees. The investigation determined both packages were
                                                                                                  damaged by Postal Service sorting machines, causing them to be
                                                                                                  separated from some or all of their contents. Our agents worked
                                                                                                  with the Mail Recovery Center, but were unable to locate the
                                                                                                  complainant's missing items.




                                                                                                                                                            April 1 — September 30, 2010 | 59
APPENDIX J




Requestor                  Allegation/Concern                                                     Major Findings                                                              Closure Date
State Senator, New York    A postal employee tampered with mail and fraudulently filed a change   Review found the matter was outside the jurisdiction of the OIG, as the          6/14/10
                           of address.                                                            postal employee retired.
Senator, New Mexico        Non-receipt of a package containing a firearm.                         Investigation found no evidence of mail tampering or theft by                    8/13/10
                                                                                                  postal employees, but found postal employees did not follow policy
                                                                                                  when processing the package. Management briefed employees
                                                                                                  on the importance of following processing procedure to ensure
                                                                                                  accountability for lost mail.
Representative,            Non-receipt of a package the Postal Service purportedly delivered      Investigation did not substantiate the allegations and found evidence the        8/13/10
South Carolina             while the complainant had mail on hold.                                complainant received the package.
Two Representatives,       Management falsified time and attendance records, resulting in a       The investigation did not substantiate the allegation management                 9/15/10
New Hampshire              theft of employee hours at two New Hampshire facilities.               intentionally falsified time and attendance records. The investigation
                                                                                                  did find numerous instances where management failed to follow
                                                                                                  postal policy and procedure when altering time and attendance
                                                                                                  records. We forwarded our findings to management for action
                                                                                                  deemed appropriate.
Senator, Indiana           Hostile work environment; excessive discipline and favoritism.         Review found no basis for formal investigation. The complainant                  6/22/10
                                                                                                  pursued the matter through a Postal Service administrative process.
Representative, Kansas     Status of 2007 OIG investigation into allegations of mail theft.       Complainant had contacted the Postal Service and the Postal                      6/22/10
                                                                                                  Inspection Service, but not the OIG. A review was unable to elicit
                                                                                                  information on results of those contacts or develop new leads.
Senator, Texas             Postal Service improperly withheld money from complainant's            Investigation found no evidence of misconduct or error by postal                 8/12/10
                           paycheck.                                                              employees and that the complainant received documentation
                                                                                                  supporting the withholdings.
Representative,            Postmaster engaged in misconduct and mismanagement.                    Investigation found some allegations were administrative in nature               9/14/10
Colorado                                                                                          and presented issues not within the mission of the OIG, and referred
                                                                                                  these allegations to postal management. Investigation did not
                                                                                                  substantiate the remaining allegations.
Senator, Florida           Management intentionally delayed Express Mail and falsified tracking   Investigation substantiated the allegation a postal manager instructed           9/17/10
                           information to prevent the Postal Service from incurring penalties.    an employee to scan an Express Mail package as "attempted delivery"
                                                                                                  when no delivery attempt had been made. We forwarded our findings to
                                                                                                  management for action deemed appropriate.
Senator, Virginia          Non-receipt of bill payments made with postal money orders.            Review found the addressee received the money orders but                         6/23/10
                                                                                                  misplaced them, resulting in the complainant's account showing bill
                                                                                                  payments were past due.
Representative, Virginia   Theft of a postal money order.                                         Review found the money order was never cashed, and the Postal                    7/19/10
                                                                                                  Service provided the complainant with instructions on how to request
                                                                                                  a refund.
Senator, Maryland          Non-receipt of several letters and checks.                             Investigation found no evidence of mail tampering or theft by postal              9/2/10
                                                                                                  employees and found it was likely a person external to the Postal
                                                                                                  Service stole the mail.

Senator, California        Several boxes of collectible items arrived opened, missing contents,   The investigation found no evidence of mail tampering or theft.                  9/14/10
                           and filled with mail not belonging to senders.                         Damage most likely occurred within mail processing equipment, after
                                                                                                  which postal employees attempted to repack and reseal the boxes.
                                                                                                  Loose items found in processing equipment are sent to the Mail
                                                                                                  Recovery Center. The complainant received several missing items
                                                                                                  from the Mail Recovery Center.
Senator, Vermont           Whistleblower reprisal.                                                An OIG investigation showed the case did not meet the four                       9/24/10
                                                                                                  necessary elements of whistleblower reprisal. The complainant failed
                                                                                                  to show that management took adverse action against her.




60 | Semiannual Report to Congress
                                                                                                                                                                                APPENDIX J




Requestor                  Allegation/Concern                                                       Major Findings                                                              Closure Date
Representative,            Non-receipt of bank statements.                                          Investigation found no evidence of mail tampering or theft by postal               9/13/10
Pennsylvania                                                                                        employees and found the complainant belatedly received several of
                                                                                                    the missing bank statements. The investigation determined it likely
                                                                                                    a person external to the Postal Service was responsible for the mail
                                                                                                    delivery issues.
Senator, Florida           Postal Service official made a false statement.                          Investigation did not substantiate the allegation.                                 8/26/10
Representative, Texas      Postmaster disposed of package containing rare perishable goods.         Review found the postmaster acted in accordance with postal policy.                7/22/10
Representative, Illinois   Non-receipt of a package postal employees left unsecured in              Investigation determined it likely the letter carrier left the package             9/21/10
                           complainant's apartment building.                                        unsecured in the vestibule of the apartment building. We reported
                                                                                                    these findings to management for action deemed appropriate.
Representative, Illinois   Tracking information for package indicated attempted delivery, yet       Investigation found no evidence of misconduct but determined no                    9/21/10
                           postal employees could not locate the package when complainant           delivery had been attempted and the package was misplaced at the
                           attempted to retrieve it from the Post Office.                           post office. Package was eventually located.
Ranking Member,            Request for a detailee from the OIG Office of Investigations with        Proposed detailing an OIG criminal investigator.                                   9/22/10
Senate Subcommittee        extensive contract fraud experience.



General Counsel (13)
Requestor                  Allegation/Concern                                                       Major Findings                                                              Closure Date
Ranking Member,            Report any instances when the Postal Service resisted and/or             Provided information as requested.                                                 6/15/10
Senate Committee;          objected to, or restricted OIG activities or access to information
Ranking Member,            from October 1, 2009 to April 8, 2010. Report all audits and
Senate Subcommittee        investigations not disclosed to the public from January 1, 2009 to
                           April 30, 2010.
Representative,            OIG agents violated complainant's Health Insurance Portability           Review found the agent acted in accordance with OIG policy and                     4/27/10
Pennsylvania               and Accountability Act (HIPAA) rights during a healthcare fraud          federal law regarding healthcare fraud investigations. The OIG is
                           investigation by contacting his physician without his consent or         permitted to conduct legitimate law enforcement inquiries as a health
                           allowing his attorney to be present during the conversation.             oversight agency under the HIPAA, and charged with preventing
                                                                                                    fraud, waste, and abuse in the Postal Service under the Inspector
                                                                                                    General Act of 1978.
White House                Hostile work environment and discrimination against minority             Two previous OIG reviews, previously communicated to complainant,                  4/29/10
                           employees at two Oregon facilities.                                      addressed the issues.
Representative, Indiana    Postal Service erroneously returned mail to sender in 2007, causing      Review found the Postal Service acknowledged responsibility for the                5/27/10
                           the complainant not to receive notice about matters pending in court.    mistakenly returned mail and remedied the situation by providing an
                                                                                                    explanation letter for the complainant to present to the court.
Senator, New Mexico        Postal managers and employees engaged in misconduct during the           The OIG does not interfere in postal administrative processes or                   5/27/10
                           course of a hearing before the EEOC.                                     matters under the jurisdiction of other agencies absent exceptional
                                                                                                    circumstances, which were not present in this case. The alleged
                                                                                                    misconduct is under the jurisdiction of the EEOC OIG.
Senator, Pennsylvania      OIG agents violated complainant's HIPAA rights during a healthcare       Review found the agent acted in accordance with OIG policy                         6/15/10
                           fraud investigation by contacting his physician without his consent or   and federal law. The OIG is permitted to conduct legitimate law
                           allowing his attorney to be present during the conversation.             enforcement inquiries as a health oversight agency under the HIPAA,
                                                                                                    and is charged with preventing fraud, waste, and abuse in the Postal
                                                                                                    Service under the Inspector General Act of 1978.
Representative,            Request for acknowledgment form OIG agents used when contacting          Provided a redacted copy of the form.                                               7/6/10
Pennsylvania               complainant's physician during an investigation.
Chairman,                  Request for an unredacted report of an OIG investigation.                Provided an unredacted copy of the report.                                         6/29/10
House Committee




                                                                                                                                                               April 1 — September 30, 2010 | 61
APPENDIX J




Requestor                  Allegation/Concern                                                       Major Findings                                                            Closure Date
Senator, Colorado          Improper removal.                                                        Investigation found the complainant filed a complaint before the               7/28/10
                                                                                                    MSPB. The OIG does not interfere in Postal Service administrative
                                                                                                    processes or matters under the jurisdiction of other agencies absent
                                                                                                    exceptional circumstances, which were not present in this case.
Senator, New York          Request for status of appeal of complainant's termination of             Provided requested information.                                                7/27/10
                           employment with the OIG and a pending Equal Employment
                           Opportunity complaint before the Postal Service.
Representative,            Postmaster eliminated mail delivery routes, placing complainant's        Review found complainant's business address was temporarily                    8/18/10
Colorado                   business address on an auxiliary route that received diminished mail     on an auxiliary address; however, such routes do not receive
                           delivery and pickup service.                                             diminished service. Postal officials determined it likely complainant's
                                                                                                    letter carrier did not pick up mail on days where there was no
                                                                                                    mail to deliver, in accordance with postal policy; they advised the
                                                                                                    complainant how to request mail pick-up.
Senator, Texas             FOIA request for records of OIG investigation into supervisory           Provided a FOIA determination which found releasing records                    8/23/10
                           falsifications of time and attendance records by named individuals.      would be improper without a waiver from third parties named in the
                                                                                                    request.
Representative, Virginia   Lack of federal prosecution of former postal executive despite gravity   Charging decisions in investigations of criminal conduct are made by           8/30/10
                           of OIG investigative findings of misconduct.                             the U.S. Department of Justice, which declined to accept this case
                                                                                                    for prosecution.



Inspector General Audits/Risk Analysis Research Center Reports (12)
Requestor                  Allegation/Concern                                                       Major Findings                                                            Closure Date
Ranking Member,            Request for information relating to an OIG investigation of Postal       Review of Postal Service procurement policies found additional                 9/20/10
Senate Committee;          Service sole-source contracting and a review of Postal Service           controls were necessary to strengthen oversight and transparency
Chairman, Senate           procurement policies and regulations in order to maximize                of noncompetitive purchasing. The review found additional controls
Subcommittee               competition and ensure the best value for Postal Service contracts.      would maximize competition, ensure best value, and avoid conflicts
                                                                                                    of interests in contracting.
Ranking Member,            Concerns about consolidation of two Ohio facilities.                     Review determined a business case supported the consolidation,                  7/2/10
Senate Committee                                                                                    finding: sufficient capacity to process mail at one facility, customer
                                                                                                    service would be maintained, no career postal employees would
                                                                                                    lose their jobs, processing efficiency would improve, and prior
                                                                                                    consolidation of mail from the facility in question produced favorable
                                                                                                    results.
Senator, Iowa              Fraud, waste, and abuse at an Iowa facility. Large number of             The review did not substantiate the allegations. Auditors found a              8/19/10
                           employees in disabled or limited duty status. Mismanagement              reasonable amount of postal employees were in a disabled or limited
                           enabled postal employees to watch television in the facility while on    duty status, postal employees followed policy regarding use of the
                           official duty, and management improperly deconstructed processing        television, and management properly allowed deconstruction of
                           equipment for sale.                                                      equipment for sale. However, the review found management did not
                                                                                                    complete proper paperwork for equipment disposal and therefore
                                                                                                    enhanced controls were needed to minimize risk of improper disposal of
                                                                                                    equipment in the future.
Senator, Ohio              Concerns about consolidation of two Ohio facilities.                     Review determined a business case supported the consolidation,                  7/2/10
                                                                                                    finding: sufficient capacity to process mail at one facility, customer
                                                                                                    service would be maintained, no career postal employees would
                                                                                                    lose their jobs, processing efficiency would improve, and prior
                                                                                                    consolidation of mail from the facility in question produced favorable
                                                                                                    results.
Representative, Ohio       Concerns about consolidation of two Ohio facilities.                     Review determined a business case supported the consolidation,                  7/2/10
                                                                                                    finding: sufficient capacity to process mail at one facility, customer
                                                                                                    service would be maintained, no career postal employees would
                                                                                                    lose their jobs, processing efficiency would improve, and prior
                                                                                                    consolidation of mail from the facility in question produced favorable
                                                                                                    results.




62 | Semiannual Report to Congress
                                                                                                                                                                             APPENDIX J




Requestor                  Allegation/Concern                                                     Major Findings                                                             Closure Date
Ranking Member,            Report all open recommendations from prior audits and monetary         OIG compiled and provided the requested information.                              4/16/10
House Committee            benefits associated with them; which open and unimplemented
                           recommendations the OIG considers most important; number of
                           recommendations accepted and implemented after January 2009.
                           Request for Inspector General (IG) opinion about improvements to
                           the IGA.
Representative, Virginia   Concerns about consolidation of two Virginia facilities.               Review determined a business case supported the consolidation,                     8/3/10
                                                                                                  finding: sufficient capacity to process mail at one facility, customer
                                                                                                  service would improve, no full-time postal employees would lose
                                                                                                  their jobs, processing efficiency would improve, and estimates used
                                                                                                  to build the business case for the consolidation were reasonable.
Ranking Member,            Request for review of Postal Service area and district office          Review identified several additional opportunities to reduce costs                9/20/10
Senate Subcommittee        consolidations to determine if opportunities exist to consolidate      through further consolidations of districts located within 50 miles
                           further and increase efficiency.                                       of another district, eliminate offices whose work hours and mail
                                                                                                  volume are below mean levels, eliminate duplicative staff positions,
                                                                                                  and better position area management strategically by relocating area
                                                                                                  offices at headquarters.
Ranking Member,            Request for IG testimony on the Postal Service's current financial     The Inspector General testified at a public hearing.                              4/15/10
Senate Committee;          crisis and future viability.
Ranking Member,
Senate Subcommittee
Ranking Member,            Request for answers to additional questions for the record following   Provided requested responses.                                                     5/24/10
House Committee;           the Inspector General's April 15 testimony.
Ranking Member,
House Subcommittee
Senator, Iowa              Construction of a new facility was wasteful and inefficient.           Review found the construction plans for the new facility were                       7/1/10
                                                                                                  adequately justified and found no cost overrun during execution of
                                                                                                  the plans at the time of the review.
Representative, Ohio       Request for an OIG audit report on the consolidation of two Ohio       Provided requested report. Review determined a business case                        7/7/10
                           facilities.                                                            supported the consolidation, finding: sufficient capacity to process
                                                                                                  mail at one facility, customer service would be maintained, no career
                                                                                                  postal employees would lose their jobs, processing efficiency would
                                                                                                  improve, and prior consolidation of mail from the facility in question
                                                                                                  produced favorable results.



Referrals (12)
Requestor                  Allegation/Concern                                                     Major Findings                                                             Closure Date
Representative,            Postal manager acted unprofessionally, refused to call the police,     Postal Inspection Service.                                                        6/24/10
Pennsylvania               and improperly touched the complainant during an altercation at a
                           Pennsylvania Post Office.
Representative,            Request for assistance obtaining a hearing before the EEOC.            Postal Service Government Relations Office.                                       5/24/10
Oklahoma
Representative,            Request for assistance with a dispute about replacing a key to         Postal Service Government Relations Office.                                        6/1/10
Missouri                   complainant's mailbox.
Representative, Virginia   Complainant felt threatened by fellow employee against whom he         Postal Inspection Service.                                                        6/16/10
                           previously filed a complaint.
Representative, Virginia   Mail fraud scheme.                                                     Postal Inspection Service.                                                        6/16/10
Representative,            Chicago postal facility allows customers to waste postal material      Postal Inspection Service.                                                         8/3/10
Pennsylvania               when packing parcels.




                                                                                                                                                            April 1 — September 30, 2010 | 63
APPENDIX J




Requestor                  Allegation/Concern                                                      Major Findings                                Closure Date
Senator, Florida           Management created hostile work environment by denying sick leave       Postal Service Government Relations Office.        7/26/10
                           without justification and disciplining the complainant for using sick
                           leave.
Representative,            Hostile work environment at a California facility.                      Postal Service Government Relations Office.        8/12/10
California
Representative, Florida    Hostile work environment at a Florida facility.                         Postal Service Suncoast District Office.           9/10/10
Representative, Virginia   Government Accountability Office report addressing how postal           Government Accountability Office.                  9/21/10
                           worker benefits and the collective bargaining process affect postal
                           finances.
Representative, Texas      Misuse of government credit cards; hostile work environment at a        Postal Service Southwest Area Office.              9/10/10
                           Texas facility.
Senator, Texas             Misuse of government credit cards; hostile work environment at a        Postal Service Southwest Area Office.              9/10/10
                           Texas facility.




64 | Semiannual Report to Congress
                                                                                           FREEDOM OF INFORMATION ACT/ WORKPLACE ENVIRONMENT




SUPPLEMENTAL INFORMATION                                                          SUPPLEMENTAL INFORMATION
Freedom of Information Act                                                        Workplace Environment
The OIG’s Freedom of Information Act (FOIA) Office operates independently         The OI Workplace Environment unit reviews workplace environment and
of, but frequently coordinates with, its counterparts at the Postal Service and   operational issues that may affect workplace climate in postal facilities
the Postal Inspection Service. The FOIA Office receives requests for records      through the country. The OIG Hotline is the usual source for the complaints,
from the public, the media, and postal employees. The FOIA, according to          but occasionally members of Congress, the Governors, and postal
the Department of Justice, “generally provides that any person has a right,       management will raise concerns or forward complaints appropriate for
enforceable in court, to obtain access to federal agency records, except to       review by the unit. Complaint topics range from sexual harassment and
the extent that such records (or portions of them) are protected from public      discrimination to workplace safety. Workplace Environment reviews are
disclosure by one of nine exemptions.”                                            designed to identify systemic, rather than individual, issues and foster
                                                                                  postal management efforts toward providing employees a stress-and
For the period April 1 — September 30, 2010                                       adversity-free work environment.

                                                                                  The unit accepts complaints from any postal employee, including OIG and
                                                                                  Postal Inspection Service staff. Reviews may result in fact-finding reports
Requests                                                Number of Requests        to management or referral for specific suggested action, such as climate
Carryover from prior period                                                  8    assessments.
Received during period                                                     211
                                                                                   Activities
Total on hand during period                                                219
                                                                                   For the period April 1 — September 30, 2010
Actions                                                 Number of Requests
Processed during the period                                                211     Complaints received                                                               Total
   Requests denied in full                                                  16     Carryover from prior period                                                           16

   Requests denied in part                                                  81     Complaints received from OIG Hotline, Congress, governors, management,              292
                                                                                   internal, and other
   Requests granted in full                                                 11
                                                                                   Total on hand during this period                                                    308
   No records                                                               25
   Requests referred                                                        66
   Requests withdrawn                                                        7     Workplace environment actions                                                     Total
   Fee-related reasons                                                      —      Complaints reviewed and closed during the period                                    345
   Records not reasonably described                                         —      Referred to Postal Service management                                                 96
   Not a proper FOIA request for some other reason                           1     Referred to Office of Investigations                                                  13
   Not an agency record                                                      4     Referred to Postal Inspection Service                                                  8
   Duplicate request                                                        —      Referred to Office of Audit                                                           —
                                                                                   Summary of findings to Congress/BOG/Postal Service management                          2
Balance                                                 Number of Requests
                                                                                   Referred to database for statistical analysis and possible systemic review          226
Balance at the end of the period (pending)                                   8
                                                                                   Complaints pending at the end of the period                                            4

Processing Days                                              Number of Days
Median processing days to respond to a FOIA request                           7




                                                                                                                                            April 1 — September 30, 2010 | 65
ACRONYM GUIDE




Acronym Guide
Here is a quick guide to acronyms used in this reporting period.

APPS: Automated Package Processing System                             NALC: National Association of Letter Carriers

APWU: American Postal Workers Union                                   NCSC: National Customer Support Center

C&A: certification and accreditation                                  NDC: network distribution center

CSRS: Civil Service Retirement System                                 NPV: net present value

CSS: customer service supervisor                                      OA: Office of Audit

DBCS: Delivery Barcode Sorter                                         OI: Office of Investigations

DOL: U.S. Department of Labor                                         OWCP: Office of Workers’ Compensation

DEA: Drug Enforcement Administration                                  P&DC: processing and distribution center

DWC: distribution window clerk                                        P&DF: processing and distribution facility

eCBM: Electronic Conditional Based Maintenance                        PAEA: Postal Accountability and Enhancement Act of 2006
                                                                            (also known as the Postal Act of 2006)
EDDI: Electronic Data Distribution Infrastructure
                                                                      PKI: Public Key Infrastructure
EDI: Electronic Data Interchange
                                                                      PRC: Postal Regulatory Commission
EIR: Enterprise Information Repository
                                                                      PVS: Postal Vehicle Services
FEGLI: Federal Employees’ Group Life Insurance
                                                                      RARC: Risk Analysis Research Center
FEHB: Federal Employees Health Benefits
                                                                      SBOC: Stations and Branches Optimization Consolidation
FSS: Flats Sequencing System
                                                                      SSA: sales and services associate
GMU: George Mason University
                                                                      TACS: Time and Attendance Collection System
HCR: highway contract route
                                                                      VMF: Vehicle Maintenance Facility
LLV: long-life vehicles

MTE: mail transport equipment




The following are among the many trademarks owned by the United States Postal Service: APC®, Automated Postal Center®, Carrier Pickup™, Certified Mail™, Click-N-Ship®,
Confirm®, Customized MarketMail®, Delivery Confirmation™, DMM®, EPM®, Express Mail®, First-Class™, First-Class Mail®, IM™, IMb™, Intelligent Mail®, MERLIN®, Mover’s
Guide®, NCOALink®, Netpost®, Netpost Mailing Online™, Parcel Post®, Parcel Select®, PC Postage®, Post Office™, PostalOne!®, Postal Service™, POSTNET™, Priority Mail®,
Quick, Easy, Convenient™, ReadyPost®, Registered Mail™, Signature Confirmation™, Stamps by Mail®, Standard Mail®, The Postal Store®, United States Postal Service®, U.S.
Mail™, U.S. Postal Service®, United States Postal Service Office of Inspector General, United States Postal Service Office of Inspector General Special Agent, USPS®, USPS Elec-
tronic Postmark®, USPS.COM®, www.usps.com®, ZIP+4®, and ZIP Code™. This is not a comprehensive list of all Postal Service trademarks.




66 | Semiannual Report to Congress
The U.S. Postal Service has two
law enforcement agencies with
distinct areas of investigative
responsibility to serve the needs
of stakeholders, postal employees,
and the American public.



Who do I call?

Office of Inspector General                    Postal Inspection Service
■■ 	 Theft, delay, or destruction of mail by   ■■ 	 Security of employees, facilities,
     employees and contractors                      and equipment
■■ 	 Workers’ compensation fraud               ■■ 	 Revenue and postage fraud

■■ 	 Embezzlements and financial crimes        ■■ 	 International mail security

■■ 	 Contract fraud                            ■■ 	 Violent crimes:

■■ 	 Kickbacks
                                                    - Threats and assaults of employees
                                                    - Burglaries and robberies
■■ 	 Computer crimes
                                               ■■ 	 Mail theft by nonemployees
■■ 	 Narcotics
                                               ■■ 	 Dangerous mail and bombs
■■ 	 Employee misconduct
                                               ■■ 	 Mail fraud
■■ 	 Internal affairs and executive
                                               ■■ 	 Identity theft
     investigations
                                               ■■ 	 Narcotics in the mail
■■ 	 Whistleblower reprisals
                                               ■■ 	 Child pornography and obscenity


Contact: 888-USPS OIG                          Contact: 877-876-2455
www.uspsoig.gov                                http://postalinspectors.uspis.gov/
CHAPTER TITLE


U.S. POSTAL SERVICE OFFICE OF INSPECTOR GENERAL
1735 N. Lynn Street, Arlington, VA 22209-2020
1-888-USPS-OIG (1-888-877-7644) Fax: 703-248-2291 www.uspsoig.gov




68 | Semiannual Report to Congress
